<html>
<title> - WHEN CATASTROPHE STRIKES: RESPONSES TO NATURAL DISASTERS IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 113-522]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-522
 
  			WHEN CATASTROPHE STRIKES: RESPONSES TO 
  			    NATURAL DISASTERS IN INDIAN COUNTRY

=======================================================================

                                HEARING
                                
			      	BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 30, 2014

                               __________

         Printed for the use of the Committee on Indian Affairs
         
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                            U.S. GOVERNMENT PRINTING OFFICE
92-272 PDF                      WASHINGTON : 2014                            
 _______________________________________________________________________________________         
 For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c7a0b7a887a4b2b4b3afa2abb7e9a4a8aae9">[email&#160;protected]</a>  
        
         


                      COMMITTEE ON INDIAN AFFAIRS

                     JON TESTER, Montana, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
MARIA CANTWELL, Washington           LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 30, 2014....................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Begich......................................     4
Statement of Senator Cantwell....................................     3
Statement of Senator Heitkamp....................................    17
Statement of Senator Murkowski...................................    13
Statement of Senator Tester......................................     1
Statement of Senator Udall.......................................     2

                               Witnesses

Chavarria, Hon. J. Michael, Governor, Pueblo of Santa Clara......    21
    Prepared statement...........................................    23
David, Mary, Executive Vice President, Kawerak, Inc..............    37
    Prepared statement...........................................    39
Gregory, Matt, Executive Director of Risk Management, Choctaw 
  Nation of Oklahoma.............................................    32
    Prepared statement...........................................    34
Heflin, Jake, President/CEO, Tribal Emergency Management 
  Association....................................................    49
    Prepared statement...........................................    51
Metcalf, Hon. Ronda, Secretary, Sauk-Suiattle Indian Tribe.......    27
    Prepared statement...........................................    29
Zimmerman, Elizabeth, Deputy Associate Administrator, Office of 
  Response and Recovery, Federal Emergency Management Agency, 
  U.S. Department of Homeland Security...........................     6
    Prepared statement...........................................     7

                                Appendix

Cladoosby, Brian, President, National Congress of American 
  Indians, prepared statement....................................    61
Darcy, Hon. Jo-Ellen, Assistant Secretary of the Army (Civil 
  Works), prepared statement.....................................    63
Response to written questions submitted by Hon. Jon Tester to 
  Elizabeth Zimmerman............................................    65


  WHEN CATASTROPHE STRIKES: RESPONSES TO NATURAL DISASTERS IN INDIAN 
                                COUNTRY

                              ----------                              


                        WEDNESDAY, JULY 30, 2014


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:47 p.m. in room 
628, Dirksen Senate Office Building, Hon. Jon Tester, 
Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    The Chairman. The Committee will come to order.
    Today the Committee is holding an oversight hearing on 
responses to national disasters in Indian Country, with a 
particular focus on the relationship between Federal response 
agencies, specifically FEMA and the tribes that request 
assistance.
    I very much appreciate our witnesses who have traveled to 
join us today from Alaska, Nevada, New Mexico, Oklahoma, 
Washington State. Your presence is clear evidence of the 
importance of the topics that we are going to assess today. I 
also appreciate our FEMA witness taking time to join us here 
today.
    Past hearings, including the one this Committee held on 
natural disasters three years ago, laid out the landscape of 
disaster response needs in Indian Country. In response to those 
needs, I offered an amendment to the Stafford Act which 
authorized tribes to request a disasters declaration directly 
from the President.
    Before the amendment, tribes had to work through States to 
request a disaster declaration. It was slow, uncertain, and 
altogether an unacceptable solution for some tribes. In this 
hearing, we want to explore what has happened since the 
Stafford Act amendment. The ability to make direct requests for 
disaster declaration is all well and good, but we need to 
ensure that authority is translating into appropriate and 
timely Federal assistance. Are tribes getting more response and 
assistance now than they were before the amendment or are the 
implementation processes the same?
    I want to thank Senator Begich for his work in conducting 
oversight of FEMA. I am proud that our two staffs have worked 
together to hold the agency accountable for their work in 
Indian Country. We appreciate that. We jointly wrote to FEMA 
Administrator Craig Fugate back in March, urging him to make 
outreach and consultation with tribes a priority. Senator 
Begich has been able to question the Administrator on multiple 
occasions, keeping the focus on development of guidance for 
tribal disaster declarations. I am interested in hearing today 
what the witnesses have to say about these topics and other 
aspects of this important issue that they would like to 
discuss.
    Senator Barrasso, do you have an opening statement?

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Yes, thank you, Mr. Chairman, for holding 
this important hearing. A natural disaster can instantly 
destroy the infrastructure and resources needed for tribal 
economies and essential services. It is critical that tribes 
have the tools they need to mitigate and respond to the damage 
caused by a natural disaster. These disasters, however, can 
destroy more than roads, buildings and forests. The disasters 
can take away precious lives of children, parents and other 
loved ones.
    It is critically important, Mr. Chairman, that Federal, 
State and tribal responders coordinate effectively to prevent 
as well as to address natural disasters. With this in mind, I 
look forward to the hearing and hearing from our witnesses and 
welcome them here today.
    Thank you, Mr. Chairman.
    The Chairman. Before we get to Ms. Zimmerman, does any 
other member have a statement? Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Tester. Thank you for 
holding this important oversight hearing on the impact of 
catastrophic disasters on Indian Country.
    Tribes in New Mexico are no strangers to these disasters, 
to drought, fire and flooding. It is a vicious cycle and it 
hits Indian Country especially hard. The historic drought 
threatens our Native American farmers' livelihood and their way 
of life. Their forests are ravaged by forest fires. And when 
the rain does come, their homes are threatened by floods. We 
can't always stop the fire or hold back the water, but we must 
ensure that the Federal Government is there to help, to do all 
we can in rebuilding and preventing further harm.
    When disaster strikes Indian Country, tribal leaders need 
direct government to government communications and resources to 
help their people. I don't think anyone knows that better than 
the governor of the Pueblo of Santa Clara, Michael Chavarria. 
And I am very pleased to introduce him today. Governor 
Chavarria has served his pueblo for many years not only as 
governor but also as forestry director, where he was the 
emergency response coordinator during the Las Conchas fire, at 
the time the largest wildfire in New Mexico history. He also 
oversaw the response for the subsequent flooding, flooding that 
destroyed all the water control structures in Santa Clara 
Canyon.
    He is an outstanding advocate, as the Pueblo faces 
continued risk of catastrophic flooding. He is also an 
important voice and one we should listen to carefully in the 
broader discussion of the effects of climate change, one of the 
root causes of the disasters that his people have faced with 
such courage and resilience.
    Last September, most New Mexico tribes were impacted by 
heavy rains and were sub-grantees to the State of New Mexico in 
the FEMA disaster declaration. The Santa Clara Pueblo was the 
only Pueblo to meet the criteria for direct assistance and has 
received two tribally declared declarations. The impacts to 
Santa Clara are ominous and the flood path goes right towards 
their traditional village.
    But they are not alone. The Pueblo of Cochiti is also 
working to prevent flooding into its village and to rebuild a 
critical bridge destroyed in flooding from the Las Conchas 
fire. The Cochiti, Santo Domingo and Santa Clara Pueblo are 
actively seeking assistance for post-fire and flooding efforts. 
Just this month, flooding has hit many pueblos, including Zuni, 
Ohkay Owingeh, Pojoaque, Santo Domingo, Cochiti, Santa Clara 
and Jemez. All have reported damage to tribal infrastructure or 
roads.
    Chairman Tester, these needs are crucial. We have to be 
better and faster to help Indian Country in the wake of 
disaster. Their ageing infrastructure leaves tribes more at 
risk to horrific fire and flooding and the lack of resources 
leaves them ill-prepared to respond. Despite their 
determination and their best efforts, I hope this hearing will 
help us to better understand the true impact of these disasters 
and to deal with them more effectively.
    I welcome Governor Chavarria, and I have another commitment 
and hope to be back for his testimony. Thank you, Chairman 
Tester, very much.
    The Chairman. Thank you, Senator Udall, very much.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I too want to 
thank you for holding this important hearing and want to 
welcome one of the witnesses who is going to be on the next 
panel, Ronda Metcalf. She is currently the Secretary of the 
Sauk-Suiattle Tribe and is here on behalf of the tribe and the 
Chairwoman, Norma A. Joseph, who couldn't be with us here 
today. She is going to talk about her FEMA experiences.
    I can think of no better way to honor the relationship of 
government to government relations than to have that 
relationship work in a natural disaster, to have an unplanned 
crisis and then to have the leadership response, you need 
governments to communicate to other governments.
    On March 22nd of this year, State Route 530 had a landslide 
that occurred and killed 43 people and cut off access to one of 
our most traveled roads in the Northwest. It became a deadly 
landslide in our Country. So during this ongoing recovery 
process, Ms. Metcalf and tribal leaders did their best to do 
everything they could, even though they were also cut off from 
medical service and the main route, and meant people going what 
would have normally have been a half hour route to hospitals or 
various services to go more than an hour and a half, two hours 
around and cause much complication.
    So I recently visited, Mr. Chairman, with the tribal 
council at their headquarters to hear about many of the issues 
that happened in the aftermath of that mudslide. I heard about 
their experiences with FEMA, and she is going to elaborate on 
that today.
    But I believe that it is a powerful and instructive story 
to remind us that we need to make sure that when Indian Country 
makes declarations, just as a governor makes declarations, that 
those declarations are acted on quickly. That secondly, we have 
immediate response teams that work well and coordinate with 
Indian Country, that there are FEMA people on the ground who 
really do understand the role and responsibility and 
coordination with Indian Country. And that we understand all of 
their investments that were made in helping in a time of need 
and emergency.
    It is almost heartbreaking, Mr. Chairman, to see how many 
people showed up at a gymnasium just three days after the 
crisis and to see who immediately stood up with resources and 
money. Three tribes basically came and donated almost $700,000 
to the effort from around the community. This tribe, right in 
the midst of the community, got none of those resources. Yet 
they put people on overtime pay, they kept their gas station 
open, they ferried people around for medical services, they did 
everything a partner could do in that crisis, and yet didn't 
get any of the support from the entities that needed to help 
support them, because they too were impacted by the crisis.
    So I hope it is all instructive. I hope it was just a 
miscommunication and that it is not happening anywhere else. 
But clearly it points out that we just need to flatten these 
issues moving forward. And certainly as my colleague from New 
Mexico said, I think it gives us something to think about too, 
from a communication perspective, the fact that this area was 
cut off literally from all communication because of where the 
slide happened. So the town of Darrington and this tribe 
basically cut off from all the recovery points to this fact 
that a lot of these areas are remote. So what do we do about 
emergency communications? Maybe this is something our Committee 
needs to look at in the future, how do we make sure that these 
areas have good emergency communication systems, so that they 
can be utilized, whether it is a flood or tornado or what have 
you, so we are not out there just basically without the 
resources that are needed once the disaster strikes.
    I thank you for having this hearing, and will look forward 
to Ms. Metcalf's testimony.
    The Chairman. Thank you for your comments, Senator 
Cantwell.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you, Mr. Chairman. Thank you for 
holding this hearing. It is an important topic. I will try to 
keep my comments brief. But I also want to give a warm welcome 
to an Alaska witness who will be on the second panel, Ms. Mary 
David, visiting all the way from Nome, Alaska. We look forward 
to hearing her testimony.
    In recognizing the challenges of tribal communities as they 
prepare, respond to and recover from various disasters requires 
collaboration and cooperation. I have been lucky to work on 
critical emergency management issues that cut across various 
Committee assignments and believe that this lends itself well 
to accomplishing a key goal here in the Senate. As chair of the 
Homeland Security Subcommittee with jurisdiction over FEMA, I 
have been working to highlight the need for tribal engagement 
outreach and resources throughout the agencies. Senator Tester, 
I want to thank you for the letter we wrote, the response we 
got, because we both sit on that committee also. It has unique 
opportunities on that committee and this Committee to push the 
issue forward.
    The new authorities granted to tribes through the Sandy 
Recovery Improvement Act allow for major disaster declarations 
to be made directly to the President without having to go 
through governors. This move puts tribes on par with States and 
illustrates the sovereignty that government-to-government 
relationship that has been so critical to making progress and 
building a strong relationship. But there is work to be done to 
fully accomplish this.
    On his first trip to Alaska. FEMA Administrator Fugate 
heard a lot, I want to underline that, a lot, about this, when 
we met with Alaska Native leaders. I believe it is critically 
important for FEMA leadership to practice what they preach when 
it comes to meaningful outreach and consultation. Each tribe 
and village is different, and the threats and hazards they face 
are equally so. There are real challenges facing our tribes. 
Coastal erosion is wiping out entire communities in western 
Alaska. Flooding inundates rural communities along the Yukon 
and Kuskokwim Rivers in Alaska. Many villages can see real 
seismic damage or tsunami threat following another catastrophic 
earthquake.
    Mr. Chairman, I think you would agree that FEMA's outreach 
over the years has been somewhat lacking. I feel tribal affairs 
structure within the agency does not adequately reflect the 
critical role that tribal governments and organizations plan in 
the emergency management community. I am encouraged by the 
hiring of Milo Booth, Alaska Native Tribal Member, of the 
Metlakatla Indian Community, to lead tribal affairs in FEMA. I 
worry, however, that by housing tribal affairs within external 
affairs or intergovernmental affairs the real impact of 
regulatory or statutory changes cannot be adequately addressed.
    Outreach and meaningful consultation should be done in a 
way that fosters a partnership, not a one-way push of 
information or not just checking the box. As you know, Mr. 
Chairman, the committee that I chair over in Homeland Security 
will continue to hold FEMA's feet to the fire. We do oversight 
over there on a regular basis and I appreciate this effort here 
that you are doing, because it really emphasizes this unique 
opportunity to allow tribes to exercise their rights as 
sovereign entities, working with FEMA in the midst of a 
disaster or recovery from a disaster.
    And I would underline, as Senator Udall mentioned, 
mitigation, as we struggle with the challenges of climate 
change, what do we do in the future to push back and make sure 
we have the right kind of mitigation situation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Begich. I want to welcome 
Ms. Elizabeth Zimmerman, who is the Deputy Associate 
Administrator for the Office of Response and Recovery at FEMA. 
I would just remind you, you have five minutes for your verbal 
comments. Know that your entire written testimony will be a 
part of the record. There will be a few questions afterwards. 
You may proceed, Elizabeth. Thank you.

      STATEMENT OF ELIZABETH ZIMMERMAN, DEPUTY ASSOCIATE 
    ADMINISTRATOR, OFFICE OF RESPONSE AND RECOVERY, FEDERAL 
               EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Zimmerman. Thank you and good afternoon, Chairman 
Tester and members of the Committee. I am Elizabeth Zimmerman, 
I am the Deputy Associate Administrator for the Office of 
Response and Recovery at FEMA. I am here today with a great 
opportunity to share FEMA's partnership with our federally-
recognized tribal governments and how we have been implementing 
the new authorities that we received as a part of the Sandy 
Recovery Improvement Act of 2013, or SRIA, as we call it. I 
thank the Committee for the many authorities that were included 
in SRIA in order to improve our programs overall, particularly 
the provision that allows federally recognized tribes the 
choice to come in directly to the Federal Government for a 
request for either an emergency or major disaster declaration 
independently of the States. I want to emphasize that it is 
their choice and we appreciate that.
    I would also like to thank Senator Tester for your 
leadership in this area as well as Senator Begich for the great 
work that we have been able to do and accomplish together. It 
is much appreciated.
    The engagement with the tribal governments is a top 
priority for Administrator Fugate and all the leadership at 
FEMA. That is why he has advocated for the change, for the 
Stafford Act, pretty much since he got here five years ago, to 
make sure that we reflect the tribal sovereignty and the self-
determination for the tribes. I have been overseeing the 
implementation of the authority and our continued partnership 
with tribal governments on response and recovery efforts.
    When we started it, as soon as SRIA passed, we were able to 
implement three phases for the disaster declarations. The first 
thing we were able to do is use the current regulations that we 
have while we were out doing consultation and putting together 
draft pilot guidance, which is out right now for public 
comment. The next step after that will be regulations.
    So immediately after the Act was enacted, we put the new 
authority out there, available for tribal governments to use 
the existing declaration's regulations, which provided us the 
ability to afford them the opportunity to come in directly to 
the President for the disaster declaration request. As soon as 
possible, providing an avenue to learn from these declarations, 
in order to solidify the government to government relationship 
that we have. To date seven tribal governments have requested 
eight disaster declarations. The President has declared six 
major disaster declarations for tribes.
    FEMA has been consulting with the tribal governments on 
tribal declarations implementation. We wanted to be thoughtful 
and deliberate to develop the procedures that would reflect the 
unique circumstances of those tribal governments.
    Since FEMA initiated the tribal consultation on the first 
draft of the declaration's pilot guidance, we have undertaken 
one of the largest engagement efforts in this agency's history, 
the largest tribal consultation effort by far. To date we have 
held 55 in-person meetings to discuss the guidance with over 
500 tribal participants representing 220 tribes. For example, 
in FEMA's Region 10, which is situated in the State of 
Washington, leadership has held seven listening sessions, 
across Alaska, from St. Paul Island to the Bering Sea, to 
Barrow and the Arctic Slope.
    Working with tribal organizations we have held five 
meetings across California, the State with the second highest 
number of federally-recognized tribes. Over 30 tribes have 
participated in new sessions.
    From Montana to the Midwest, Florida, Maine, FEMA 
leadership across the Country have been out there to talk with 
tribes face to face about the tribal guidance, discuss the 
Stafford Act and to make available resources, listening to the 
feedback and to enhance our government to government 
relationship.
    After this consultation, we will revise the draft guidance 
based on the input we have received. The revised draft will 
then be published in the Federal Register, for which we will 
hold another round of tribal consultation.
    The agency is also collaborating with the tribes to develop 
a tribal consultation policy separate from the declarations 
policy in order to provide instruction and guidance for FEMA 
employees on how to engage in tribal governments on FEMA 
actions that have tribal implications. Through grants, 
training, outreach and technical assistance, we are also 
helping tribes prepare for and protect against, respond to, 
recover from and mitigate against disasters. To ensure that 
tribes are informed about these opportunities for assistance, 
as was mentioned, we have hired Milo Booth, an Alaska Native, 
who is sitting here as our National Tribal Affairs Advisor.
    In conclusion, I would like to say that FEMA is one part of 
emergency management. Our tribal nations are another key 
critical component of an emergency management team. And we are 
committed to consulting, coordinating and engaging with 
federally-recognized tribal governments in the development and 
implementation of all of our policies and programs that impact 
them.
    We look forward to continuing our collaboration with tribes 
and this Committee to ensure that we are fully supportive and 
engage with the tribal nations. Thank you and I look forward to 
any questions.
    [The prepared statement of Ms. Zimmerman follows:]

      Prepared Statement of Elizabeth Zimmerman, Deputy Associate 
   Administrator, Office of Response and Recovery, Federal Emergency 
        Management Agency, U.S. Department of Homeland Security
Introduction
    Good afternoon, Chairman Tester, Vice Chairman Barrasso and members 
of the Committee. I am Elizabeth Zimmerman, Deputy Associate 
Administrator of the Office of Response and Recovery (ORR) of the 
Department of Homeland Security's (DHS) Federal Emergency Management 
Agency (FEMA). Thank you for the opportunity to discuss FEMA's 
partnerships with federally recognized tribal governments, and how we 
are implementing new authorities to work directly with tribal 
governments as part of the ``Sandy Recovery Improvement Act of 2013'' 
(SRIA).
    I would like to take this opportunity to thank the Committee for 
the authority established in SRIA, including the provision that allows 
a federally recognized tribe the choice to request Stafford Act 
emergency and major disaster declarations independently of states. I 
would also like to thank Senator Tester for his leadership in this 
area.
    The engagement of tribal governments is a top priority for 
Administrator Fugate. He advocated for changes in the Stafford Act to 
reflect tribal self-determination and provide tribal governments the 
choice to seek federal disaster assistance through a state or directly 
to FEMA. The passage of SRIA was a major milestone in these efforts, 
but was just the first step in fully implementing this important 
authority. FEMA continues consulting with tribal governments on tribal 
declarations implementation, including the development of the Tribal 
Declarations Pilot Guidance.
    FEMA supports federally recognized tribal governments, and their 
sovereignty and rights of self-determination as a part of the federal 
trust responsibility to Tribal Nations. In addition, inclusion of 
Tribal Nations is an essential component of FEMA's whole community 
emergency management strategy.
Foundational Policies and Strategic Context
Foundational Policies
    FEMA has a historical commitment to enhancing government-to-
government relations with tribal nations. The first FEMA Tribal Policy 
was created in 1998 and revised in 2010. FEMA further revised and 
reissued the policy in late 2013 for an additional three years. This 
policy forges a commitment to strong and lasting partnerships by 
outlining the guiding principles of engagement and collaboration 
between FEMA and federally recognized American Indian and Alaska Native 
Tribal governments.
    FEMA follows guidance outlined in the President's November 5, 2009 
Memorandum on Tribal Consultation. This Memorandum reaffirms Executive 
Order (E.O.) 13175, directing agencies to engage in regular and 
meaningful consultation and collaboration with tribal officials in the 
development of Federal policies that have tribal implications, and to 
strengthen the government-to-government relationship between the United 
States and Tribal Nations. FEMA is drafting, in coordination and 
consultation with Tribal Nations, a Tribal Consultation Policy, which 
will supplement the DHS Tribal Consultation Policy. FEMA received 
valuable input and comments that are being adjudicated into the final 
Tribal Consultation Policy, which will be used as a framework for 
future consultation between FEMA and Tribal Nations.
Strategic Context
    FEMA's whole community approach reinforces the fact that FEMA is 
only one part of our nation's emergency management team. We must 
leverage all of our collective team resources in preparing for, 
protecting against, responding to, recovering from and mitigating 
against all hazards. Tribal Nations are critical components in our 
whole community, and our commitment to addressing their needs is 
evident in our strategic priority to be survivor-centric in mission and 
program delivery. To further survivor-centric goals, FEMA leadership 
adopted a ``cut the red tape'' posture to focus on the needs of 
survivors and to develop and execute programs and policies with 
survivors' perspectives in mind.
    FEMA recognizes that the consistent participation and partnership 
of tribal governments is vital in helping FEMA achieve its mission.
Tribal Declarations Under the Sandy Recovery Improvement Act
    On January 29, 2013, President Obama signed into law, the 
``Disaster Relief Appropriations Act, 2013'' (Division A) and SRIA 
(Division B) respectively of Public Law 113-2, a legislative package 
authorizing several significant changes to the way FEMA delivers 
disaster assistance. SRIA is one of the most significant pieces of 
legislation impacting disaster response and recovery since the Post-
Katrina Emergency Management Reform Act of 2006.
    Section 1110 of SRIA, ``Tribal Requests for a Major Disaster or 
Emergency Declaration under the Stafford Act'' authorized federally 
recognized tribal governments the option to request a Stafford Act 
emergency or major disaster declaration independent of the State where 
their lands are located. This new authority also requires the Federal 
Government to ``consider the unique conditions that affect the general 
welfare of tribal governments'' when developing regulations to 
implement this new authority. FEMA has developed a phased 
implementation to ensure we consider the unique needs of tribal 
governments, which are further outlined below.
Phased Implementation of Direct Tribal Declarations
    In consultation with our nation's federally recognized tribes, we 
are working thoughtfully and deliberately to develop procedures that 
best reflect the unique situation of tribal governments. Therefore, 
FEMA is implementing direct tribal declarations in three phases: (1) 
through the use of current regulations; (2) through the development and 
implementation of pilot guidance; and (3) through notice and comment 
rulemaking.
Use of Current Regulations
    Immediately after SRIA's enactment, FEMA used existing declaration 
regulations and criteria to process declaration requests from tribal 
governments. Eight disaster requests have been made, with six major 
disaster declarations issued for five tribes: the Eastern Band of 
Cherokee Indians, the Navajo Nation, the Standing Rock Sioux Tribe, the 
Karuk Tribe, and the Santa Clara Pueblo Tribe, which has received two 
disaster declarations. Through these declarations, Public Assistance 
and Hazard Mitigation Grant Program funding is being provided directly 
to the tribes. The damage assessment information regarding these 
declarations is outlined in Table 1 below in the order of their 
declaration date.

  TABLE 1: PUBLIC ASSISTANCE PRELIMINARY DAMAGE ASSESSMENT ESTIMATES--
                           TRIBAL DECLARATIONS
------------------------------------------------------------------------
                                                          Preliminary
         Tribal Government           Declaration Date  Damage Assessment
                                                            Estimate
------------------------------------------------------------------------
Eastern Band of Cherokee Indians             3/1/2013         $3,161,875
 (DR-4103)
Navajo Nation (DR-4104)                      3/5/2013         $5,223,234
Standing Rock Sioux Tribe (DR-              6/25/2013         $1,277,493
 4123)
Karuk Tribe (DR-4142)                       8/29/2013         $1,021,557
Santa Clara Pueblo (DR-4147)                9/27/2013         $5,393,852
Santa Clara Pueblo (DR-4151)               10/24/2013         $1,984,960
------------------------------------------------------------------------

    Through these declarations, FEMA gathered critical information, 
best practices, and process challenges that have informed the 
development of the Tribal Declarations Pilot Guidance, which is the 
second phase of tribal declarations implementation.
Pilot Guidance Development
    We recognize that FEMA's current declarations regulations were 
developed to evaluate States' capacity and their need for supplemental 
disaster assistance. Since these parameters may not be indicative of a 
Tribal Nation's ability to respond and recover from a disaster, FEMA 
determined the need to develop procedures and criteria that reflect the 
capacity and needs of tribal governments. Before entering the 
rulemaking process to codify the tribal-specific procedures, FEMA will 
initiate a pilot program to ensure that final regulations sufficiently 
reflect the unique needs of tribal governments.
    Soon after SRIA was signed, FEMA engaged tribal governments on the 
current procedures to process declarations and whether those procedures 
should be revised for direct tribal declarations. FEMA used this 
initial input to develop a first draft of the Tribal Declarations Pilot 
Guidance.
    Tribal participation and input is critical to the development of 
the Tribal Declarations Pilot Guidance. On April 3, 2014, we initiated 
tribal consultation on the draft guidance. FEMA sent written 
correspondence from Administrator Fugate to all 566 federally 
recognized tribes and issued advisories to national and regional tribal 
organizations and associations to advise them of the consultation. FEMA 
Regional and Headquarters leadership also presented at numerous tribal 
conferences to provide an overview of the declaration process and the 
draft guidance.
    Between April 3 and July 8, 2014, FEMA conducted 45 listening 
sessions around the country, from Northern Alaska to Montana, Oklahoma 
to Florida, and to Maine with 445 participants and 189 tribes 
represented. Through these listening sessions, FEMA gathered input on 
the draft guidance as well as strengthened relationships with tribal 
governments. We learned more about the challenges that tribal 
communities face, the response and recovery capabilities of tribal 
governments, and their understanding of Stafford Act assistance. FEMA 
regions have been extremely proactive in meeting consultation requests 
of Native Alaskan Villages and Indian tribal governments. For instance, 
FEMA Region X consulted with the Aleut Communities of St. Paul and St. 
George Islands on St. Paul Island Alaska.
    The information gathered in these sessions will be used to revise 
the draft guidance. This revised draft will be published for public 
comment and a second round of tribal consultation, continuing our 
commitment to engage tribal governments in the implementation of tribal 
declarations.
Regulations
    As required by SRIA, FEMA will begin development of regulations 
after the pilot guidance is finalized. This will follow the standard 
notice and comment rulemaking process.
Tribal Grants
    Tribal governments and their members are an essential part of our 
nation's emergency management team, and FEMA is committed to supporting 
our tribal partners in its efforts to build more resilient and better 
prepared communities. The Tribal Homeland Security Grant Program 
(THSGP) supports the building, sustainment, and delivery of core 
capabilities to enable tribes to strengthen their capacity to prepare 
for, protect against, respond to, recover from, and mitigate potential 
terrorist attacks and other hazards. Federally recognized tribes that 
meet the criteria as outlined in the Homeland Security Act of 2002, as 
amended, are eligible for direct funding. This law prescribes a minimum 
allocation of .01 percent of the total funds allocated for all grants 
under Sections 2003 and 2004 of the Homeland Security Act of 2002, as 
amended. However, FEMA and Department of Homeland Security Headquarters 
increased that amount to an average of $10 million per year for the 
past three years. Since the program was initiated in FY 2008, more than 
150 tribal applications have been funded with approximately $50 million 
for capacity and capability building under the THSGP.
    Federally recognized tribes are eligible for other pre-disaster 
grant funding such as Assistance to Firefighters Grants and Hazard 
Mitigation.
Tribal Consultation Policy
    In recognition of the Federal Government's trust responsibilities 
and to honor and continue to enhance our partnerships with federally 
recognized tribes and in accordance with the 2009 Presidential 
Memorandum and E.O. 13175, FEMA is collaborating with tribes to develop 
a Tribal Consultation Policy. This policy supplements the DHS Tribal 
Consultation Policy by providing additional instructions and guidance 
to FEMA employees on engagement of tribal governments for consultation 
on FEMA actions with tribal implications. It also ensures FEMA is 
effectively engaging in regular and meaningful consultation and 
collaboration with our tribal partners.
    The policy is being developed based on discussion, input and 
consultation with tribes to ensure it addresses their concerns and 
reflects a government-to-government relationship with Tribal Nations. 
The consultation period for the proposed Tribal Consultation Policy 
ended on March 30, 2014. FEMA is currently in a thoughtful review of 
the input received, and is revising the Policy as appropriate. FEMA 
will notify tribes when the policy is published, which is planned for 
later this year. The Tribal Consultation Policy will help govern how 
FEMA undertakes future consultation with tribes.
Training, Outreach and Technical Assistance Efforts
    FEMA is committed to helping tribes prepare for, protect against, 
respond to, recover from, and mitigate against disasters through its 
training, outreach and technical assistance efforts. FEMA's National 
Tribal Affairs Advisor, Milo Booth, works closely with the FEMA 
Regional Tribal Liaisons and programs to ensure that tribes are 
informed about these opportunities for assistance.
Training
    FEMA's Emergency Management Institute (EMI) offered the first 
tribal-specific course, titled ``Emergency Management Framework for 
Tribal Governments'' in January of 2002. This course was developed in 
collaboration with tribal emergency services and emergency management 
personnel. In the 12 years since, EMI's Tribal Curriculum has grown to 
five tribal-specific courses. Continuing from the success of the first 
tribal course, all of these courses were designed with input from 
tribal representatives and associations and are intended to help build 
emergency management capability in tribal communities. To date, more 
than 3,000 certificates of completion have been issued for courses in 
the EMI Tribal Curriculum. These courses include ``Emergency Management 
Framework for Tribal Governments,'' ``Emergency Operations for Tribal 
Governments,'' ``Mitigation for Tribal Governments,'' ``Continuity of 
Operations (COOP) for Tribal Governments,'' and ``Emergency Management 
Overview for Tribal Leaders.'' Between fiscal year (FY) 2011 and 2013, 
1,174 students, of which 998 are tribal government employees and 715 
are American Indian or Alaska Native members, completed the five 
tribal-specific courses. In FY 2013, 466 students participated in these 
courses, which were held in locations across the country, including 
Arizona, California, Nevada, North Carolina, Oklahoma, and Washington. 
Additionally, tribal emergency management officials have access to 550 
active courses offered through EMI.
Outreach
    The FEMA National Tribal Affairs Advisor and other FEMA leadership, 
regularly attend the annual and mid-year meetings hosted by the 
National Congress of American Indians (NCAI), the United South and 
Eastern Tribes (USET), the National Tribal Emergency Management Council 
(NTEMC), Tribal Assistance Coordination Group (TAC-G), and the Tribal 
Emergency Management Association (iTEMA) as well as other regional and 
national tribal organizations and associations. These meetings provide 
FEMA the opportunity to conduct outreach and establish a stronger 
working relationship with these organizations. FEMA's Office of 
External Affairs also facilitates information sharing across the Agency 
before, during and after disasters that impact tribal communities.
    In 2011, FEMA announced an initiative through FEMA's Ready Campaign 
called ``Ready Indian Country.'' Ready Indian Country is an initiative 
designed to promote preparedness within tribal communities through 
education and outreach in an effort to save lives and prevent property 
losses. The program, developed with the support of NCAI, uses public 
outreach and the support of tribal elders to encourage members of 
Tribal Nations to take the basic steps necessary to prepare themselves 
for potential emergencies. Ready Indian Country provides a foundation 
for tribal communities to enhance citizen preparedness while serving as 
a resource for the development and implementation of community pre-
disaster policies and procedures.
    Ready Indian Country's resources include existing Ready Campaign 
messaging and build on existing capacity with specific tools customized 
for Indian Country. These include brochures, posters and billboards 
customized by geographic region to reflect diverse local conditions and 
American Indian and Alaska Native cultures; radio Public Service 
Announcements (PSAs) in 60, 30 and 15 second formats; and Tribal Leader 
Resources to help guide community emergency planning efforts. Ready 
Indian Country resources can be found at http://www.ready.gov/
IndianCountry. This is one step in the ongoing actions on the part of 
FEMA and the Ready Campaign to nurture this partnership to help tribes 
and Native American communities build sustainable and resilient tribal 
neighborhoods.
Technical Assistance
    The FEMA Regional Tribal Liaisons and the FEMA National Tribal 
Affairs Advisor serve as tribes' initial entry into FEMA to facilitate 
discussions between tribes and subject matter experts, to share 
information, or address questions or challenges. In addition to its 
dedicated liaisons and Advisor, FEMA as a whole is dedicated to 
ensuring we consult and effectively collaborate with tribal 
governments, whether during a disaster, the development of policy, or 
program implementation.
    Additionally, in coordination with FEMA Regional Tribal Liaisons, 
the Technical Assistance (TA) Program provides specialized emergency 
management planning assistance to tribes across the nation. This helps 
tribes to develop operational plans and to be prepared for disasters or 
emergencies. Specifically, the TA program works with tribes to build 
capacity, educate their leaders in foundational emergency management 
concepts, and enhance relationships among emergency managers and 
planners across the state, local, tribal and federal levels of 
government.
    Since 2011, FEMA has hosted 13 working sessions and workshops to 
engage tribes. When the Bureau of Indian Affairs stood up their 
Division of Emergency Management in 2013, FEMA increased its 
partnership effort with them to deliver tribal TA to the nation's 
federally recognized tribes, ensuring even stronger federal 
coordination in support of tribal governments.
Additional Tribal Efforts
Tribal Integration Group
    FEMA established an internal Tribal Integration Group (TIG) this 
year, which serves as an internal coordinating body for tribal-related 
engagement and consultation across FEMA programs. The TIG, co-led by 
FEMA Senior Executives--the Deputy Director of the Office of External 
Affairs and the Director of the DHS Center for Faith-based & 
Neighborhood Partnerships--is working to ensure that the Agency meets 
requirements to consult and collaborate with and consider tribal 
governments needs in the Agency's program and policy development.
    In addition, the TIG strengthens efforts to engage tribal 
governments in FEMA's processes, procedures and outreach. The TIG is 
also in the process of assessing long-term resource and organizational 
strategies to build a stronger relationship with tribal nations 
throughout the Agency.
    The TIG not only serves as an internal coordinating body for 
tribal-related engagement and issues across FEMA programs and the 
Agency as a whole; it is also a tool for FEMA to discuss and consider 
high-level tribal issues for recommended action.
Conclusion
    FEMA is committed to consulting, coordinating, and engaging with 
federally recognized tribal governments in the development and 
implementation of policy and programs.
    We are grateful to Congress for these new authorities and are 
actively working with the sovereign tribes as they prepare for, protect 
against, respond to, recover from, and mitigate against the hazards 
they may face.
    We look forward to our continued collaboration to further support 
tribal governments as they build their emergency management 
capabilities. Thank you.

    The Chairman. Thank you, Ms. Zimmerman, for your testimony.
    I will start. I think FEMA has been working on developing 
connections with tribal governments and trying to get the right 
information to the right people. That being said, we hear from 
folks in Indian Country regularly that they don't know who to 
get hold of or how to get in touch with the folks who are going 
to help them when they do have a disaster.
    Could you talk about FEMA's efforts to increase information 
sharing and points of contact for tribal communities?
    Ms. Zimmerman. Sure, I would be happy to. When it comes to 
coordination, as you know, FEMA has 10 regions across the 
United States. Our regional administrators all have a tribal 
liaison officer within their offices. They are a conduit to the 
rest of the FEMA staff, over 5,000 of us that exist across the 
Country. So the tribal liaisons, the regional administrators 
and their staff are reaching out to the tribes in order to make 
them aware of the tribal guidance, going out and sitting down 
with them to get their comments, that is the conduit. We are 
happy to provide to you the names of those, the tribal liaison 
officers. We can get that to you, as well as the regional 
administrators.
    The Chairman. So the tribal liaison, just for example, in 
Montana, would be located where?
    Ms. Zimmerman. That is in our Region 8, which is in Denver, 
Colorado.
    The Chairman. So are they actually going to the tribes? How 
many States do they have? How many States does that tribal 
liaison cover?
    Ms. Zimmerman. I believe Region 8 has six States.
    The Chairman. And it would be all of----
    Ms. Zimmerman. It is Colorado, Utah, Montana, North and 
South Dakota and Wyoming.
    The Chairman. So you have a fair number of Indian folks who 
live in those six States.
    Ms. Zimmerman. Yes.
    The Chairman. Are they going to the tribes? Are they going 
actually into--I will pick a tribe--Crow?
    Ms. Zimmerman. What they have done is they have both gone 
out to meet with tribes as well as they have convened meetings. 
Additionally, we have provided invitational travel for the 
tribal members to come to meetings to bring more together at 
once place.
    The Chairman. Okay. You guys do good work. I think that the 
outreach is always a continuing challenge, especially with this 
program, which is fairly new. Letting those folk know when they 
have a flood event or a fire event or whatever the event might 
be who to get hold of is critically important.
    Up-front costs for FEMA, if the tribes are dealing directly 
with you instead of the State, the up-front costs, in the case 
of many of the poorer tribes, is a real problem. Whereas if 
they go through the State, the State oftentimes picks that up, 
they have a few more resources than the tribes do. Is there 
anything FEMA can do about those up-front costs, to help reduce 
them where the tribe is directly contracting?
    Ms. Zimmerman. Are you referring to the cost share?
    The Chairman. Yes.
    Ms. Zimmerman. Yes, because under the Stafford Act, the 
Federal Government pays no less than 75 percent. So the 25 
percent, is borne by the grantee or sub-grantees. So that is 
something that we are looking at. That has been raised among 
the over 800 comments that we have already received on the 
draft tribal guidance. We look for folks to give input into 
that and suggestions as to how they would address that and how 
they would like to see that come out.
    So it is something that we are very well aware of.
    The Chairman. So you have started that comment period 
already?
    Ms. Zimmerman. Yes. The comment period started on April 3rd 
and we put it out there and we have just extended it, it was 
due to expire today.
    The Chairman. Can you give me an idea of how many contacts 
you have gotten from tribes on this issue?
    Ms. Zimmerman. We have had over 800 comments so far.
    The Chairman. On this issue?
    Ms. Zimmerman. On the declarations tribal guidance.
    The Chairman. Okay. I think Senator Begich talked about 
this in his opening statement, the placement of the tribal all-
hazards emergency response office in FEMA's external affairs, 
apart from the Office of Response and Recovery. What is the 
best place for this office? Is it really in External Affairs?
    Ms. Zimmerman. Since I am the Deputy for the Office of 
Response and Recovery, I have direct access to Milo and he has 
direct access to me, as well as everyone else in FEMA 
leadership. So to us, it is fine, because they have the access 
that they need and can get the information and we share 
information very regularly.
    The Chairman. All right. Senator Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Mr. Chairman, I appreciate your being 
here this afternoon.
    I want to talk a little bit about the Galena experience in 
interior Alaska, but I want you to keep in mind that that is 
just one episode of a disaster in rural Alaska that we have so 
many more. But Galena is going to be my focal point today. We 
see so much in terms of the planning that I think FEMA puts in 
place for the buildup into the hurricane season, for instance, 
into the Gulf. We have different seasons around the lower 48, 
hurricanes, tornadoes, well, in Alaska, we have ice jam season. 
It comes every spring. Sometimes it is a season that is without 
event and other times it is a season that really writes the 
history book.
    But it seems like the disaster managers, we write the book 
in terms of how to deal with these disasters every year, which 
is very, very frustrating. It seems like all the decisions that 
need to be made need to be coordinated with headquarters all 
the way back in places like Washington, D.C.
    Galena is a specific example. There are two ways to get 
things into Galena, by barge, and there are a couple barges a 
season, or fly them in. So there is no rocket science here, 
there is no road to Home Depot. It is a very short time period. 
The Inspector General, when we asked him to look at the 
disaster situation in Galena, he comes back and he says, he 
criticized FEMA for not leaning forward, flying the materials 
in rather than going through this check the box exercise.
    I have asked for this review, we got it back from the IG, 
but there were lessons from Galena, as one example. But more 
emblematic of the problem that we have all over Alaska when it 
comes to remoteness, inability to access, by traditional 
methods, which are roads. How have we learned from that going 
forward?
    Now, we had an opportunity last week in the Appropriations 
Committee to visit with Administrator Fugate to address the 
IG's findings with respect to the deficiencies with tribal 
collaboration during that event. He suggests that we now have 
this new tribal consultation policy. I look at that and say, 
well, okay. We have FEMA that views tribes as partners rather 
than grantees or perhaps sub-grantees. If that is what is 
necessary, maybe we need to look at things that way.
    But we have had a tribal policy in place in FEMA since 
1989. So how are we at this point where again it seems like we 
are reinventing with every disaster that comes? How is it that 
FEMA works so much better, seemingly, with the States, than 
they do with the tribes? What have we learned from Galena going 
forward? Because as sure as winter is going to come, spring is 
going to follow and we are going to have flooding in interior 
Alaska.
    Ms. Zimmerman. Yes, it is a continuous thing and I can 
appreciate it. I was up there in Galena this last year.
    Senator Murkowski. I thank you for that.
    Ms. Zimmerman. There were disasters in 2010, when you have 
to fly from place to place, like you said, you don't drive, and 
there is not a Home Depot around the corner. I can appreciate 
that, and it is something that we continue to try to be better 
at.
    Senator Murkowski. But have we changed things in order to 
be better at, or are we just hoping that next time we get a 
little luckier?
    Ms. Zimmerman. No, we have been changing things as far as 
being able to document what we have done and try to learn from 
our lessons. It is something that we haven't been the best at 
in the past, really learning from our lessons. But really 
taking an honest look at ourselves, after that disaster, and 
what can we do better, and put something in place in order to 
implement it so we are ready to go.
    For the last five years, we have been trying to lean 
forward much more by having things ready when we see something 
coming. We know that earthquakes can happen at any moment, like 
they do in Alaska, some of those very large earthquakes that 
happened and the tsunamis that can follow and impact other 
people very quickly.
    Senator Murkowski. One of the observations that we have 
seen now is that we are not using sufficient numbers of folks 
that are on the ground. The Native people who live in the 
villages, what we get instead are these groups of well-meaning 
folk who are coming up from the outside. But I have always 
questioned whether or not we rely enough on those who are on 
the ground, who understand the conditions, who know that you 
can't do anything beyond September 15th because it is getting 
cold and freeze-up is coming, as opposed to somebody here in 
Washington, D.C. that looks at the calendar and says, we still 
have four months left in the year, this is not a problem.
    So what are we doing to increase the number of Native 
people in the reservist cadres? Can FEMA be doing more in this 
regard? I think you need to have people on the ground that are 
giving you that practical advice, rather than having this top-
heavy approach.
    Ms. Zimmerman. Having people in the field trained in 
emergency management and being able to communicate back to us 
through our regional administrator who is on the ground or the 
folks in the Alaska area office to be coordinating with them 
ahead of time; this the best thing that you can do so that we 
are prepared and that we know how we are going to communicate 
in disasters so as they are working with them, to get us 
information. That is the focal point, not back here in 
Washington, D.C., but that regional administrator, that 
regional office that we have.
    Senator Murkowski. But that regional office is still 
thousands of miles away.
    Ms. Zimmerman. Right.
    Senator Murkowski. So how we can truly use the local 
people, not somebody who works in Seattle or even Fairbanks, 
but somebody who lives in Galena, that is where I would like to 
see us go. Let's rely on that local knowledge.
    Thank you, Mr. Chairman.
    The Chairman. Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman. I share my 
colleagues' thoughts and frustrations, having actually been to 
Galena, but also seeing this in the Northwest.
    So I have a few questions for you. She is bringing up an 
interesting point. When I think about the mayor of Darrington, 
the town of just a few thousand people, he had no capacity, 
really, either, he and the police chief and everyone else. So 
somebody from the Forest Service came over and became basically 
his deputy.
    So what she is saying is there are tribal people who could 
become part of the response team, workforce, everything. They 
are there, and they know the region. So I would encourage you 
to look at that.
    Does FEMA have protocols for dealing with Indian Country, 
protocols that say, this is how you work with Indian Country on 
a declaration, this is how you work with them on government to 
government assistance, this is how you work with them on 
individual assistance? Do you think that is clear within FEMA?
    Ms. Zimmerman. We have cultural sensitivity training that 
we give to people in disasters. Back when I was with a State, 
working in emergency management, and we were working very 
closely with our tribal partners, and FEMA provided that type 
of expertise so that people do know. And we do provide training 
to our disaster reservists, so that they can understand the 
cultural uniqueness of our tribal partners.
    I have to say that the current consultation process that we 
are undergoing for this declaration guidance is bringing more 
and more of that to light to us as to how to work and 
communicate better. So I see going forward as we are drafting 
this guidance that there will be more protocols established as 
we develop our consultation policy for FEMA. That policy will 
be due out this fall.
    Senator Cantwell. I heard about all the listening sessions. 
I think that is good in general, but it is not about the 
listening sessions, it is about how do you respond in an 
emergency.
    So on a declaration, once a governor makes a declaration, 
how often does it usually take an administration to respond to 
that?
    Ms. Zimmerman. Depending on the disaster declaration, some 
of these things that are immediate, they have been turned 
around in 90 minutes. Now, that is not the usual, but that is 
when we really need to get some direct Federal assistance. 
Typically they are turned around within a matter of days to a 
week.
    Senator Cantwell. So it took 19 days for the Sauk-Suiattle 
to get an emergency declaration. Do you have any idea why?
    Ms. Zimmerman. I believe that is because we didn't get it 
directly from the State.
    Senator Cantwell. Why would you have to get it from the 
State, if they are their own entity and they sent it?
    Ms. Zimmerman. Because a declaration request came in 
through the State of Washington.
    Senator Cantwell. Are we saying that that is what the norm 
is? Are we saying that every tribe has to go through their 
State?
    Ms. Zimmerman. No, they have a choice.
    Senator Cantwell. Why can't they just make their own 
declaration?
    Ms. Zimmerman. They can if they submit it directly to FEMA.
    Senator Cantwell. I think this is where I would establish a 
protocol. I would establish a really clear protocol about how 
that works and make sure everybody knows that and understands 
it. It is hard, because the same tribe isn't always going to be 
hit by assistance and come back to FEMA. But if everybody at 
FEMA knows, that we really do want an immediate response to 
time for tribes as well, we want to do as well as we do with 
governors, we want to do, if they have asked for assistance and 
we want to honor that as quickly as possible.
    And then as it relates to, I just want to clarify this 
point. You can have government, just as the city of Darrington 
could apply to FEMA and have government assistance, so could a 
tribe. So the reimbursements or extraordinary expenses related 
to the natural disaster?
    Ms. Zimmerman. So yes, the city of Darrington is a sub-
grantee to the State and they can come in and apply.
    Senator Cantwell. And the tribe could do it as well?
    Ms. Zimmerman. Yes.
    Senator Cantwell. Without going through the State?
    Ms. Zimmerman. Well, the city of Darrington cannot go and--
the disaster declaration is made. Once that is made, if it is 
through the States, then it goes through the State. But if 
tribes come in directly, like the Santa Clara Pueblo, then it 
goes directly from FEMA to the tribe.
    Senator Cantwell. Okay. I think this is where we need 
clarity. A tribe can ask, just like a government entity and can 
receive assistance and it should do so expeditiously. And I 
again just thank you, Mr. Chairman, and wholeheartedly agree, 
you know, we are also dealing with the fires in the Northwest 
now. And yes, there are some tribal impacts, too. Everybody 
will tell you, just as in Oso and Darrington, just as in 
Galena, the local community is so devastated, they want to 
help. It is the best thing they can do, is to get in there and 
help.
    And FEMA did a great job in Darrington and Oso in letting 
the locals run the show, even when FEMA came in. It did so 
much, so much pride, even the President of the United States 
pointed that out when he came there, the local community 
stepped up. So I just hope that FEMA will look at ways to let 
the local tribal communities step up even more. Thank you.
    The Chairman. Senator Udall?
    Senator Udall. I am going to pass, thank you, Mr. Chairman.
    The Chairman. Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman.
    Obviously North Dakota is no stranger to disaster. We have 
had two major floods, both affecting the Mandan, Hidatsa and 
Arikira Nation, Standing Rock Sioux Nation and the continuing 
slow drip of the rising lake in Devil's Lake, which is 
affecting Spirit Lake. So a lot of these issues continue to 
provide unique challenges to Indian people and to my tribes in 
North Dakota.
    It is hard for those of us who have seen kind of the State 
side of this and the local, whether it is community development 
block grants, whether it is SBA loans, whether it is those 
kinds of tools that FEMA routinely uses to help in recovery. It 
is heartbreaking to see those same tools not being particularly 
effective in Indian Country.
    So where we talk about having the declaration done, 
respectful government to government relationship, making sure 
that the FEMA workers who are on the ground to do the 
evaluation have cultural sensitivity as well as a familiarity 
with the workers. I want to examine just for a minute the kinds 
of typical things that FEMA does in response, let's say, to a 
flood, and whether in your experience you have seen that those 
tools are not particularly adaptive or capable of being adapted 
to Indian Country.
    Ms. Zimmerman. I believe the tools and the way we respond 
can be very adaptive. As you know, when a disaster happens it 
is at the most local level on that tribal government's 
community. So as they are responding and as they need 
assistance and come up through FEMA, through our regions, to be 
able to get that extra assistance, they make that call to the 
FEMA region. That is why I encourage and ask all of you to 
assist us to make sure to get the word out so that each one of 
the tribal leaders understand who the regional administrator is 
that they can work with to be out there. So needs are 
identified, such as if you need assistance through a mission 
assignment to the Corps of Engineers--A lot of flood fighting 
happens up in North Dakota area--where the tribes are impacted. 
To be able to get that type of assistance, they would come in 
through a regional administrator to ask for that and to be able 
to get that out there.
    Senator Heitkamp. I would like you to focus not just on a 
flood fight, or on the immediacy of dealing with the emergency, 
but recovery.
    Ms. Zimmerman. When it comes to recovery, the same types of 
assets are programs. Having the Sandy Recovery Improvement Act 
and being able to deal government to government has been the 
first key to that. But then to take a look at our programs and 
how we administer them--whether it is public assistance for the 
infrastructure rebuilding or individual assistance program for 
those individuals impacted by the disaster--and how we can now 
take and learn from our consultation process what the impacts 
of our programs are and how we can work better with the tribal 
nations. I think that is key and that is something that we are 
learning and getting comments through the consultation.
    Senator Heitkamp. Yes, and maybe just to prove my point, 
how many SBA loans do you think have been done in Indian 
Country in response to a declaration or disaster relief?
    Ms. Zimmerman. I have no idea.
    Senator Heitkamp. You wouldn't. What is the total dollar 
amount that has been allocated back to individual families who 
have suffered damages either in the basement and may not have 
flood insurance?
    Ms. Zimmerman. Right now----
    Senator Heitkamp. You see my point, I think. You see my 
point, which is that a lot of what is mitigation for families, 
I am not talking about government relief, government to 
government relief, but I am talking about the kinds of tools 
that come to help families and homeowners recover. They are not 
tools that are particularly, I don't think, effective in Indian 
Country. I think it is important to understand those barriers, 
whether they are home ownership or whether they are--whatever 
it is that creates a unique situation in terms of dealing 
individually with Indian people and recovery.
    Just as an example, since I have been there, Turtle 
Mountain lost a roof on a school as a result of a high wind. 
There wasn't enough money, they turned to the State, the State 
wasn't particularly responsive. They turned to us and hopefully 
we got things taken care of.
    There should be a program in place, or a government to 
government relationship that you have established with the 
Turtle Mountain Band of Chippewa so that they have the 
understanding when this happens to their community, these are 
the kinds of assistance that can help.
    I think one of the urging in your consultation and in your 
discussion is to run through those programs that typically 
provide support in the event of a flood or in the event of an 
emergency and see how those have been deployed or if they have 
ever been deployed in Indian Country on tribal trust land. And 
then think broadly about how can we change the outcome so that 
someone in Bismarck, North Dakota, who is within the 
jurisdiction of a disaster plan is, there is parity between 
that and Indian people living in Indian Country.
    The Chairman. Senator Begich?
    Senator Begich. Thank you, Mr. Chairman.
    Let me, if I can, and I might have missed something, 
because I was out on a call. So let me ask a couple of 
questions. I know when the Galena incident occurred in Alaska, 
the Tanana Chiefs and others were able to provide technical 
assistance to the tribe and community there.
    Can you tell me, is FEMA at this point now fully staffed 
and organized to really move forward on a sustainable 
relationship with tribes, not only in Alaska but throughout the 
Country? Can you give me a sense of where you are? I know we 
had some discussion and some work that I know Senator Tester 
did and I did regarding allocation of resources and I know you 
moved some money around within that organization, I think 
around close to $800,000, which is good. But are you staffed up 
enough and do you think you have a capacity now to be 
sustainable in building these relationships so the technical 
assistance can also come from, obviously, your organization?
    Ms. Zimmerman. Right. Yes, as I was mentioning, we have the 
10 regional tribal liaisons, each one in our regions. But that 
is really just the conduit into getting --
    Senator Begich. All staffed?
    Ms. Zimmerman. Yes. And we have Milo Booth back here, that 
has just started with FEMA headquarters. He has some folks 
working with him. But really, the key is that all 5,000 FEMA 
employees have the ability to provide technical assistance to 
tribal governments, just like we do anybody else in emergency 
management. Everyone is committed to this effort for the 
programs, because they are the subject matter experts.
    Senator Begich. Can you tell me, help me understand the 
outreach capacity? In other words, having tribes understand 
what the role is and responsibility or obligations they might 
have, what is the steps that you will be doing? I know that was 
one of the concerns we had, that you had such a small budget at 
one point that you can't get out to the communities. Where are 
you on this now with the money that has been allocated, or you 
have reallocated, I should say? Tell me where you are.
    Ms. Zimmerman. To date, we have held 54 listening sessions. 
We have had over 220 tribes --
    Senator Begich. Can I pause you for a second? I don't meant 
to interrupt you, but the listening sessions are to gather what 
their concerns are about a disaster or about the process of 
what you are developing?
    Ms. Zimmerman. It is about the disaster declaration 
guidance. But it is also to get a better understanding from our 
standpoint as to the impacts disasters bring to them and to be 
able to identify those unique characteristics and what it is we 
need to take into our understanding. What we are considering 
our first step is the declaration guidance. As we hear comments 
from tribal members about disaster programs, about FEMA 
programs, whether it is grants or other things, we are able to 
educate ourselves.
    Senator Begich. I know in the 2015 budget you have about 
$1.5 million for regional office, I think it is enhanced tribal 
engagement and more activity under salaries and expenses. So in 
the 2016 budget that I know you are in the process, and it is 
hard to believe, right, that you are in that? But can you tell 
me, are you going to have enough information and detail, 
because it is just salaries and expenses, it doesn't tell us, 
at least me, enough of how you are going to do what you have 
just said plus more engagement that is necessary. Will that be 
more detailed or can you help me there understand that a little 
bit more?
    Ms. Zimmerman. I would have to get back to you.
    Senator Begich. Will you do that for the record?
    Ms. Zimmerman. We can definitely get back for the record.
    Senator Begich. What is your general comment of, and you 
may not have enough information yet because you are doing this 
kind of listening sessions process, of the nations, tribes and 
their ability to be prepared in the sense of preparedness? 
Where would you, if you had a one to ten scale, recognizing 
that different regions have higher capacity or lower capacity, 
what would you say the preparedness of our tribes are for 
emergency preparedness? And I say this coming from a city, as a 
former mayor, that we strived on this every day, because we 
would have to deal with these issues on a very regular basis. 
So what would your sense be now and, I am giving a hypothetical 
one to ten.
    Ms. Zimmerman. I am saying it probably would be low, at 
this point. Because a lot of it is new. It is something that 
they haven't really specifically worked in. And if they haven't 
had a disaster, even to be in the old program, to work through 
the State to get a disaster declaration. But it is something 
that I think is important--A lot of the sessions I went to I 
heard about how they want to learn about the incident command 
system, how we run disasters, to have plans, what that plan 
looks like and the templates for that.
    Senator Begich. Will you engage them in training and those 
kinds of activities?
    Ms. Zimmerman. Yes.
    Senator Begich. Is that part of the budgetary process that 
you will want to incorporate?
    Ms. Zimmerman. Right. Since 2002, we have offered a tribal 
government emergency management course out of our Emergency 
Management Institute in Emmitsburg. And we have had over 3,000 
tribal members attend that over the last 12 years. So as we go, 
we continue to develop more training classes and to deliver it 
in the field. Additionally, when we do open up a joint field 
office, because there has been a disaster declaration, we have 
been specifically in North Dakota with the Minot flooding, and 
we were able to bring in and conduct training for tribes in 
disaster management.
    Senator Begich. Last question, I know my time is up. But in 
the national disaster recovery framework that you have, have 
you incorporated tribal governments in that process yet?
    Ms. Zimmerman. Yes. We did from the start, from day one 
when we were rolling out. As I traveled the Country, rolling it 
out with a blank piece of paper, we said how we are going to 
develop the recovery framework so that we can build some 
consistency in how we do recover from disasters.
    Senator Begich. Tribal or local governments, State 
government.
    Ms. Zimmerman. Right. And we had many tribal members 
participate in that across the Country.
    Senator Begich. Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Before we go to our second panel, I just want to get your 
comment on one thing. That is, my crack staff gave me 
information that over a four-year period, 2010, 2011, 2012 and 
2013, tribal awards amounted to, on average, .2 percent. Point 
2 percent of the disaster relief fund. That would indicate to 
me, and we haven't done the math, but it would indicate to me 
that there may be something in the program that is a deterrent 
for Indian Country to go to FEMA. Do you know of anything that 
would be a deterrent?
    Ms. Zimmerman. I do not. I would have to look at the 
disaster declarations that have impacted tribal areas and if 
there were tribes that did not come in and ask for assistance. 
It would depend on where the disaster and damages occurred.
    The Chairman. Okay, that sounds good. I just want to thank 
you for being here, Elizabeth. There will probably be questions 
submitted in writing for you to respond to later on, but we 
have to get to panel two, and we want to thank you for the work 
you do and being here today. Thank you very much.
    And now I will welcome our second panel. I think we have a 
good mix of tribal officials from across the Country. We have 
the Honorable J. Michael Chavarria, who is the Governor of the 
Santa Clara Pueblo of New Mexico. He will be followed by Ms. 
Ronda Metcalf, Secretary for the Sauk-Suiattle Tribe in 
Washington State. Next we are going to hear from Matt Gregory, 
Executive Director of Risk Management for the Choctaw Nation in 
Oklahoma. We will then hear from Ms. Mary David, Executive Vice 
President of Kawerak, Incorporated out of Nome Alaska. You have 
come a long way. Finally, we are going to hear from Jake 
Heflin, President and CEO of Tribal Emergency Management 
Association. Once they get started, we will start with you, 
Governor Chavarria.
    I would like to remind folks, if you could, because there 
are five of you who will testify, try to keep it to five 
minutes if you can. Know that your full written testimony will 
be a part of the record. That will give us an opportunity to 
ask some questions.
    So with that, you may start, Governor Chavarria.

  STATEMENT OF HON. J. MICHAEL CHAVARRIA, GOVERNOR, PUEBLO OF 
                          SANTA CLARA

    Governor Chavarria. [Greeting in Native tongue.] Thank you 
very much for this opportunity, Chairman Tester, Vice Chairman 
Barrasso and members of the Committee, this opportunity to 
provide testimony on natural disasters in Indian Country.
    My name is J. Michael Chavarria. I serve as Governor for 
Santa Clara Pueblo, which is located in North Central New 
Mexico.
    In 2011, Santa Clara Pueblo was impacted by the Las Conchas 
Fire. This fire was very devastating, impacting 80 percent of 
our watershed, forests and our spiritual sanctuary. A huge part 
of our way of life has been destroyed.
    Because Santa Clara Canyon was stripped of its vegetation, 
it has become a funnel, generating intense flooding, which puts 
the Pueblos at risk. The Pueblo has worked with the Corps of 
Engineers and in a recent report that they published, they 
identified the village of Santa Clara Pueblo as in imminent 
threat of flooding with extreme loss of life, risk there and 
the property of Santa Clara Pueblo. This flooding has wiped out 
the existing water control structures within the canyon, 
destroyed pristine native cutthroat trout fish habitat, 
impacted roads, culverts. But most importantly, this 
traditional cultural property is located within our spiritual 
sanctuary.
    These floods have caused approximately $150 million of 
infrastructure damage. The Pueblo was requested to come up with 
$50 million as our cost match to these Presidential disaster 
declarations, an amount far beyond our capacity and 
capabilities. We will also be seeking a waiver from the 
President regarding these four disaster declarations on behalf 
of the Pueblo Santa Clara.
    The Santa Clara Pueblo in 2011 had to go with the State of 
New Mexico as a sub-grantee because there were no amendments to 
the Robert T. Stafford Act that allow the tribes to go directly 
to the President. Overall, the ability to directly request for 
a Presidential disaster declaration has given the Pueblo 
greater control over its own disaster relief efforts. Further, 
the implementation of the National Disaster Recovery Framework, 
NDRF, by FEMA, which facilitates interagency collaboration, has 
been very helpful to the Pueblo, initiating a comprehensive and 
coordinated effort among the Federal family.
    However, the current laws and regulations regarding 
disaster relief remain the product of a different time with the 
effect of slow delivery of critically needed resources to the 
Pueblo to be implemented in a timely manner. Broadly, the flood 
disaster relief framework remains tailored to one-time floods 
on the Mississippi River and thus are focused on short-term 
efforts. Given the increasing effects of climate change, 
disaster relief policies must be shifted to focus on long-term 
response.
    Empowering tribes to directly request a Presidential 
disaster declaration is helpful. But standing alone, it does 
not fully address the need for quick funding response. For this 
reason, we recommend the creation of a BIA, Bureau of Indian 
Affairs, Emergency Response Fund. The idea behind this fund 
will be for the BIA to have significant funding that can be 
deployed over multiple years to address short and long-term 
disaster recovery and disaster mitigation needs.
    This proposal could be taken even further by the creation 
of an emergency management department or division within the 
Bureau of Indian Affairs.
    Mr. Chairman and members of the Committee, five minutes is 
not enough time to share our experiences with you all. I 
request that you hold a field hearing in New Mexico during the 
monsoon season, which is now, so that we can all have a 
meaningful dialogue and you can see first-hand the experience 
the Santa Clara Pueblo has engaged in. Of course, we can't do 
that, but there is much more we can share, if you can't come to 
New Mexico and see the situation first-hand.
    I would like to close by thanking the Committee for the 
opportunity and thanking the many Federal agencies and 
officials that have worked long hours and continue to address 
our concerns for the imminent threat of flooding that exists 
there in New Mexico. One of the challenges, Mr. Chairman, is 
the tribe must meet a million dollar threshold if we are 
supposed to go direct. A lot of the tribes don't have a million 
dollars in infrastructure damages.
    So we are requesting that we lower, through these field 
hearings or these processes, maybe lowering that threshold to 
$250,000, even $500,000. Because ultimately, you must be 
eligible through your preliminary damage assessment. Once you 
declare, FEMA starts to come out and do an assessment. If you 
don't meet that million dollar threshold, you are not eligible 
for Federal assistance.
    And so implementing this NDRF has been very important to 
the Pueblo of Santa Clara as it brings all these existing 
authorities within the Federal Government to them in a timely 
manner and provides assistance to the Pueblo when it is needed. 
Not having to wait a year after a disaster to finally get some 
funds obligated through a project worksheet, because we are 
already behind that eight ball.
    So Mr. Chairman, members of the Committee, as I mentioned, 
five minutes is not enough time to stress the issues and 
concerns. But I really appreciate the opportunity of being here 
today and I also stand for questions after the panel has 
presented their statements.
    Thank you, Mr. Chairman.
    [The prepared statement of Governor Chavarria follows:]

 Prepared Statement of Hon. J. Michael Chavarria, Governor, Pueblo of 
                              Santa Clara
Introduction.
    Thank you Chairman Tester, Vice Chairman Barrasso, and members of 
the Committee for this opportunity to provide testimony on the 
critically important topic of natural disasters in Indian Country. My 
name is J. Michael Chavarria, and I am the Governor of the Santa Clara 
Pueblo located in north-central New Mexico. Because of wildfires and 
subsequent intense flooding, the Santa Clara Pueblo has had four 
Presidential Disaster Declarations (or PDDs) in the last three years. 
Indeed, in a recent report, the Army Corps stated: ``The Village of 
Santa Clara Pueblo is in imminent threat of large damaging floods with 
extreme life safety risk.'' My testimony (1) shares our experiences 
with disaster relief, and (2) urges the creation of a Bureau of Indian 
Affairs (BIA) Emergency Response Fund, among other recommendations.
Tremendous Efforts of Many Federal Employees
    I would like to open by thanking the many individuals that we work 
with at the Federal Emergency Management Agency, the Army Corps of 
Engineers, the Bureau of Indian Affairs, the Bureau of Reclamation, the 
US Department of Agriculture and others for the long hours that they 
have committed to addressing what continues to be an existential threat 
to the Santa Clara Pueblo. Despite working with laws and regulations 
that can be cumbersome or just simply designed for very different 
emergencies, they continue to show commitment and determination, for 
which I and my people are truly grateful. There is work to be done and 
there are significant improvements to be made, but at Santa Clara we 
have hope that after suffering a terrible loss we can secure the safety 
of our community in the short term and its cultural and spiritual 
integrity and prosperity in the long-term.
Need for a Policy Shift
    Santa Clara has had four Presidential Disaster Declarations. Two 
were secured by request of the State of New Mexico and two were secured 
by direct request of the Tribe after the Stafford Act was amended. 
Overall, the ability to directly request Presidential Disaster 
Declarations has given Santa Clara Pueblo greater control over our own 
disaster relief efforts. Further, the implementation of the National 
Disaster Recovery Framework (NDRF) by FEMA, which facilitates inter-
agency collaboration, has been helpful to Santa Clara in assuring a 
comprehensive and coordinated effort among the Federal family. However, 
despite the hard work of many dedicated agency staff members, current 
laws and regulations regarding disaster relief remain a product of a 
different time, with the effect of still slowing the delivery of 
critically needed resources. Broadly, the flood disaster relief 
framework remains tailored to onetime floods on the Mississippi River 
and thus are focused on short-term efforts (and this not only refers to 
funding, but to how each contract is written and the expectations of 
the implementing policies). Given the realities of life in the 
southwestern United States and the increasing effects of climate 
change, disaster relief policies must be shifted to focus on long-term 
response such as addressing Santa Clara's post-fire, periodic flooding, 
which will remain a great hazard to our well-being for perhaps a 
decade, as the Santa Clara Canyon slowly recovers. Although significant 
progress has been made, more work remains to be done to ensure 
effective responses to natural disasters in Indian Country.
Background
    In the summer of 2011, the Santa Clara Pueblo was devastated by the 
Las Conchas Fire, which was then the largest wildfire in New Mexico 
history. We estimate that over 16,000 acres of our forest lands were 
burned and, together with the lands we lost in the Oso Complex Fire of 
1998 and the Cerro Grande Fire of 2000, 80 percent of our forests and a 
huge part of our heritage has been destroyed. None of the four fires we 
have faced in the past decade have originated on our lands, yet we have 
suffered severe consequences.
    The Las Conchas fire also burned thousands of acres of our 
traditional lands outside our current reservation--including the lands 
of our origin, the P'opii Khanu, which are the forested headwaters of 
the Santa Clara Creek. The Santa Clara Creek drains the east side of 
the Jemez Mountains, delivering its waters to the Rio Grande near 
Espannola, NM. The Las Conchas burn scar within impacted 25.9 miles of 
Santa Clara Creek's upper watershed. The Pueblo owns almost the entire 
watershed, and the Tribal village is located on Santa Clara Creek's 
alluvial fan, where the Santa Clara Creek joins the Rio Grande.
    Because Santa Clara Canyon has been stripped of its vegetation, the 
Pueblo has experienced severe flash flooding. All four Presidential 
Disaster Declarations have involved infrastructure damages stemming 
from catastrophic flash floods. Flooding has wiped out existing water 
control structures within the canyon, destroyed once-pristine native 
cutthroat fish habitat, impacted roads, taken away culverts, and 
damaged the traditional cultural properties of our sanctuary.
Continued Threat of Catastrophic Floods
    As a result of the altered hydrology and Geomorphic changes, the 
Pueblo is in greater danger today of a catastrophic flood. Because of 
the severity of the burn, there has been dramatic reduction in 
infiltration rates in the burned area. This has resulted in a four-to-
eight-fold increase in runoff and sediment/debris flow along the creek, 
substantially increasing the potential for widespread damage.
    The graph below contains data for the Santa Clara Creek pre-fire 
and post-fire. As the graph indicates, the worst case scenario is a 
100-year storm. For the Rio Grande Confluence, such a storm would have 
flooded 5,640 cubic feet per second (cfs) pre-fire and now, post-fire, 
would flood 21,450 cfs.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Lessons from our Disaster Relief Experiences
    Because of our four Presidential Disaster Declarations, Santa Clara 
Pueblo has experience both as a sub-grantee and as a direct grantee. As 
you are aware, previously Presidential Disaster Declarations had to be 
requested through the states. For tribes, securing a state request for 
a Presidential Disaster Declaration could be difficult. New Mexico did, 
however, request such declarations on behalf of Santa Clara Pueblo on 
two occasions. Unfortunately, in these instances it took up to a year 
for the Pueblo to receive the requested disaster relief funds from the 
State, hampering our ability to provide urgently needed, immediate 
relief.
    Amendments to the Stafford Act now allow tribes to directly request 
Presidential Disaster Declarations. The ability to become direct-
grantees has given Santa Clara Pueblo greater ability to direct its own 
disaster relief efforts. Additionally, the NDRF has been enormously 
helpful in coordinating agency responses and providing a more 
collaborative and effective approach to disaster recovery.
    The direct grantee process, however, is not without its challenges. 
It is a new process, and Santa Clara Pueblo has been the first tribe to 
utilize it in FEMA Region VI. For both the Pueblo and the Region, there 
is a lot of learning that has to take place. We have been going through 
that learning process with FEMA--in many ways we feel like we are path-
finders for other tribes, should they be so unfortunate as to face the 
difficulties we have faced.
    As a sub-grantee, receiving funds through the state, the tribe must 
match 12.5 percent and the state has the burden of administering the 
grant. As a direct grantee, the tribe's match is 25 percent, although 
this can be lowered to 10 percent once the per capita threshold is met. 
Additionally, as a direct grantee the tribe is responsible for the 
administrative costs associated with the grant, although the Pueblo 
receives 3.37 percent in administrative funding from FEMA. Tribes may 
also face challenges meeting the $1 million FEMA threshold. This 
threshold should be developed to coincide with tribes' financial 
resources and capacities, and tribal consortiums should be able to 
apply for relief in order to meet this threshold.
    Santa Clara Pueblo, as a direct grantee, has seen smaller funded 
projects be funded very quickly by FEMA, but larger Project Worksheets 
still proceed through a time-consuming quality assurance/quality 
control process. This process is clearly important, but it greatly 
lengthens the review time, and yet it is very important to get these 
funds working when you face the situation Santa Clara faces, where the 
next disaster is inevitable, it is only a matter of when. Right now, we 
are in the New Mexico monsoon season. Every day we scan the skies and 
read the weather reports, fearing the worst and praying for the best. 
Receiving funds to support recover efforts prior to the seasonal 
impacts of monsoons is imperative in breaking the cycle of continued 
damage that has resulted in four Presidential Disaster Declarations for 
Santa Clara Pueblo. As our experiences demonstrate, in emergency 
situations project implementation is crucial to protecting lives, 
securing our community, and preventing repeated damage to key 
infrastructure.
    The four Presidential Disaster Declarations have put a significant 
financial burden on the Pueblo as a small tribe. The matching funds 
requirements across four PDDs have drained the Pueblo's financials 
resources. Due to these tremendous financial responsibilities, the 
Pueblo has requested FEMA to combine the four PDD into one PDD so that 
the Pueblo is in a better position to meet the financial cost share 
responsibilities. This would allow the Pueblo the opportunity to get to 
the 90/10 cost share, using the per capita figures to get to that 
level. Right now we are only going to meet that threshold on one PDD, 
while the first two as a sub-grantee with the State will remain at 12.5 
percent with remaining PDD as a direct grantee at 25 percent. These 
variations are challenges we must be aware of so that the Pueblo 
properly allocates funds to be in a position to move forward with our 
obligations.
    Finally, the administrative responsibility that comes along with 
being a direct grantee has challenged the Pueblo. We certainly have 
proven that we have the administrative capability but we had to learn 
through trial and error. As the changes to the Stafford Act allowing 
Tribes to request direct are promulgated, FEMA could be best served by 
implementing a training program that better communicate the regulatory 
requirements that come along with being a direct grantee. This would 
position the tribes nationwide to be better recipients of FEMA's help 
and this would also allow FEMA to become more familiar with the 
capabilities of tribal governments.
    As the first tribe in Region 6 to receive direct funding, we know 
that we are involved in a learning process with our federal partners. 
Training and capacity building is needed on both sides of the federal-
tribal partnership. Tribes need additional training to administer funds 
successfully and our federal partners could benefit from allowing 
tribes such as Santa Clara Pueblo to conduct training for tribal 
liaisons to help them become more familiar with working with tribal 
governments. Together we can work to build the capacity of both tribal 
and federal actors and to identify areas in which disaster relief 
policy can be adapted to better fit the circumstances of natural 
disasters in Indian Country.
Emergency Response Fund
    Our experiences with disaster relief highlight the need for tribes 
to receive assistance as soon as possible following a natural disaster. 
Empowering tribes to directly request a Presidential Disaster 
Declaration can be helpful, but standing alone it does not fully 
address the need for quick funding. For this reason, we recommend the 
creation of a BIA Emergency Response Fund. The idea behind this fund 
would be for the BIA to have readily at hand significant funding that 
can be deployed over multiple years, if necessary, to address short- 
and long-term disaster recovery and disaster mitigation needs.
Other Recommendations
    Santa Clara has a few other recommendations that range more widely 
than those set forth above:

         1. Appropriate necessary funds for implementation of Forest 
        treatments as identified under the Tribal Forest Protection Act 
        (TFPA). The TFPA authorizes the Secretaries of Agriculture and 
        Interior to give special consideration to tribally-proposed 
        Stewardship Contracting or other projects on Forest Service or 
        BLM land bordering or adjacent to Indian trust land in order to 
        protect the Indian trust resources from fire, disease, or other 
        threat coming off of that Forest Service or BLM land. These 
        stewardship agreements are an important tool for fighting the 
        ever-growing threat of wildfires in the West. Empowering tribal 
        governments as caretakers to protect tribal lands by managing 
        adjacent federal lands is a smart policy. Santa Clara urges the 
        Committee to support the expansion of this program by both the 
        Department of Agriculture and by the Department of the 
        Interior.

         2. Implement funding for treatments, on and off the 
        reservation, utilizing micro-site of land management. This 
        would be done forgoing the NEPA process to quickly implement a 
        plan of action of lesson the threat of catastrophic fires from 
        encroaching upon our Trust Resources. Huge amounts of funds are 
        used annually for fire suppression while those same funds could 
        be used to implement Hazardous Fuels Reduction, Fuel Breaks 
        etc. to lessen the financial responsibility of the Federal 
        Government for fire suppression activities.

         3. Continue consultations with tribes regarding implementation 
        of the Stafford Act amendments. The Pueblo has been engaged 
        with navigating a new system afforded by the amendments to the 
        Robert T. Stafford Act. The opportunities also come with 
        challenges-and education about the process is essential on both 
        sides of the table as to properly protect the integrity of such 
        responsibilities that come along as a Direct Grantee.

         4. In addition to creating an Emergency Management Fund within 
        the BIA, create an Emergency Management Department (EMD). The 
        EMD would be responsible for protecting Trust Resources before, 
        during and after emergency situations. Appropriations could be 
        funneled through the 93-638 process which would allow the 
        Tribes to use those funds as cost match to other Federal 
        Authorities. This would allow the Tribes to be in a positon to 
        meet the required cost match associated under each Authority 
        dealing with a Presidential Disaster Declaration, thus 
        providing the protection of lives and community infrastructure 
        from future impacts.

         5. Provide adequate funding to Fire Suppression Activities 
        budgets. Hazardous Fuels Reduction funding is impacted by the 
        high costs ``Mega Fires'' that has become the new trend in 
        wildfires, and reduces the ability of being able to proactively 
        reduce or minimize the effects of wildfire on tribal forests. 
        There are many programs that can reduce the risk of 
        catastrophic wildland fires. These include but are not limited 
        to: Collaborative Forest Landscape Restoration, Hazardous 
        Fuels, and Federal and Cooperative Forest Health programs, 
        Stewardship Contracting Authorities under the Tribal Forest 
        Protection Act, State Fire Assistance, and others. Approaches 
        to restoring fire-adapted ecosystems often require treatment or 
        removal of excess fuels (e.g., through mechanical thinning, 
        prescribed fire, or a combination of the two) that reduce tree 
        densities in crowded forests, and the application of fire to 
        promote the growth of native plants and reestablish desired 
        vegetation and fuel conditions.

    Thank you for your consideration of this testimony.
Appendix: USACE Map
    Below is a Map created by the USACE contractor Tetra Tech 
indicating the potential flood inundation for potential flood events 
from 2 yr. thru 500 yr. flood events within the Santa Clara Pueblo 
Community.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you for your testimony, Governor.
    Ms. Ronda Metcalf, you are up.

   STATEMENT OF HON. RONDA METCALF, SECRETARY, SAUK-SUIATTLE 
                          INDIAN TRIBE

    Ms. Metcalf. Thank you. Good afternoon, Chairman Tester and 
members of the Committee. My name is Ronda Metcalf.
    Although I am going to say I am honored to be here, I have 
to say that it is sad for me to be here to have to give this 
testimony for my tribal members, the Sauk-Suiattle Indian 
Tribe. I am a council member and I am employed as the General 
Manager of the Tribe.
    This is probably our first time in quite a while in 
appearing before a committee, so I wanted to provide some brief 
background about the Sauk-Suiattle Tribe. The tribe is located 
in the North Cascade Mountains of Washington State, just 
outside the town of Darrington. The tribe's reservation was 
established in 1985, including our reservation lands. The tribe 
currently is the beneficial owner of approximately, this is 
incorrect, because we just bought 100 acres of land, so we now 
own 200 acres of land. The tribe has approximately 225 enrolled 
members. The tribe does not have a gaming facility. Most of our 
tribal government revenue is from the tribe's small business 
and Federal grants.
    On the morning of March 22, 2014, the deadliest mud 
disaster in United States history occurred in Oso, Washington. 
Our Vice Chairman, Kevin Lennon, was one of the first 
responders. He was there, he is a volunteer firefighter for 
District 24 of Darrington. And we lose Kevin on a daily basis, 
because he is a volunteer firefighter and rescuer. We did not 
see Kevin for the first eight days. So we do have a part in the 
town of Darrington.
    This landslide engulfed 49 homes and was responsible for 
the death of 43. The last person's body was found last week, so 
we are very happy about that. It also dammed the Stillaguamish 
River, causing extensive flooding upstream, as well as blocking 
State Route 530. Actually, the mudslide destroyed Highway 530.
    In destroying Highway 530, it also destroyed the 
infrastructure that went to the city of Darrington and the 
Sauk-Suiattle Indian Reservation, that being the phone lines 
disrupted phone service, internet service and everything that 
we need to use to survive on a daily basis. I think it is 
important to know that all the draw downs for funding from the 
BIA, Indian Health Services, come through the internet. That is 
the only way we get them.
    Based on the tribe's experiences in dealing with the Oso 
disaster, I want to highlight a few points that are detailed in 
our written statement. First, FEMA needs to clarify its 
requirements for tribal emergency declarations. An emergency 
declaration is usually made during the immediate rescue phase 
of a disaster and allows for direct assistance from Federal 
personnel. That is the direct declaration that the tribal 
chairman and the council was trying to write. These are 
different than the requests for the Presidential disaster 
declaration, which triggers FEMA's public assistance and 
individual assistance program.
    The FEMA staff could not provide clear guidance on what 
they required for tribal emergency declarations. It took 19 
days, from March 27th to April 15th, 2014, for us to achieve an 
emergency declaration that FEMA would accept. The confusion and 
uncertainty resulted in delaying the tribe receiving 
assistance.
    Second, FEMA must improve its coordination with tribes and 
charitable organizations, like the Red Cross. For example, FEMA 
requested that the tribe add additional staff to operate our 
tribally-owned convenience store to meet the needs of the first 
responders. The tribe was happy to assist in the rescue and 
recovery efforts in any way that we could, and readily agreed. 
FEMA represented to us that the tribe would be reimbursed for 
this additional payroll expense. Despite what the tribe was 
initially told, FEMA later informed us that these expenses were 
not reimbursable because the business was owned by the tribe.
    We also experienced problems in dealing with the Red Cross. 
Although not a Federal agency, the Red Cross works closely with 
FEMA and gets reimbursed by FEMA for many of its responses 
costs. The tribe understands that the on-ground personnel in a 
disaster situation face significant challenges and pressures. 
This is all the more reason why FEMA must better coordinate 
with Indian tribes to provide accurate information and improved 
delivery of services.
    Finally, the BIA and IHS should formalize their disaster 
response protocols and make emergency resources available for 
tribes for major disasters. The closure of State Route 530 
severely impacted our tribe's members' ability to receive 
medical care from Arlington, Marysville and Everett and other 
locations. IHS wrote our chairman, suggesting that our tribal 
members take public county transportation to medical 
appointments, because it was a free service. When tribal 
members are sick, elderly and do not feel well, a difficult, 
more than 90 mile public bus trip each way is not an acceptable 
Federal response. A better approach would have been for IHS to 
provide medical staff or mobile health units to the reservation 
or provide funding for more patient transport of Indian 
patients affected by the disaster. We urge the Committee to 
explore with IHS, utilizing IHS's catastrophic health emergency 
fund, referred to as the CHEF fund, to pay for these types of 
costs.
    In closing, the tribe would like to express its thanks to 
the other Indian tribes that provided us with assistance. The 
Nisqually Tribe sent us food and water, the Colville Tribes 
sent their emergency management team to assist us with the 
technical aspects of emergency management. And the 
Stillaguamish tribe provided us with some fuel cards for our 
tribal members.
    That concludes my testimony. I would be happy to answer 
questions.
    [The prepared statement of Ms. Metcalf follows:]

  Prepared Statement of Hon. Ronda Metcalf, Secretary, Sauk-Suiattle 
                              Indian Tribe
    Good afternoon, Chairman Tester, Vice Chairman Barrasso, and 
members of the Committee. My name is Ronda Metcalf and I am pleased to 
provide this testimony on behalf of the Sauk-Suiattle Indian Tribe 
(``Tribe'' or ``SSIT'') on responses to natural disasters in Indian 
country. I serve as the Tribal Council Secretary elect, and General 
Manager of the governmental administrative offices of the Tribe.
    On behalf of the Honorable Norma A. Joseph, Chairwoman of the 
Tribe, I would like to express our appreciation to the Committee for 
holding this important hearing. We believe our Tribe's experience 
dealing with aftermath of the catastrophic mudslide in Oso, Washington, 
this past spring will be valuable to the Committee as it considers 
solutions to these issues.
    As explained below, the Tribe has three main observations from its 
recent experiences. The first is the need for FEMA to clarify its 
requirements for tribal emergency declarations. Secondly, FEMA must 
improve its coordination with tribes and charitable organizations like 
the Red Cross to provide affected tribes with accurate information and 
reliable assistance. Finally, the Bureau of Indian Affairs (BIA) and 
the Indian Health Service (IHS) should formalize disaster response 
protocols and make emergency resources available when tribes are 
affected by major natural disasters like the Oso mudslide.
Background on the SSIT
    The Tribe was a signatory to the Point Elliot Treaty of 1855 as the 
Sah-ku-mehu. Our Homelands are located in the North Cascades, including 
the entire drainage area of the Stillaguamish, Sauk, Suiattle and 
Cascade Rivers. We have lands and businesses located within the 
Stillaguamish valley corridor. All the basic utilities that serve these 
areas come up through the Stillaguamish Valley. The Tribe's reservation 
was established in 1985 and is located about two miles into Skagit 
County along State Route 530 (``SR 530''), just outside the town of 
Darrington. There are approximately 20 homes, the tribal administrative 
offices, Health and Social Services and Tribal Police on the 
reservation. In our community all emergency services are provided on a 
cooperative basis by Snohomish County Fire District 24. Our Tribal 
Council Vice-Chair, Kevin Lenon, is a volunteer with the fire 
department and is ordinarily designated as the lead person in 
connection with any emergency.
    Currently, the Tribe has over 225 members who reside on, off, or 
near the Tribe's reservation lands, as well as numerous members of 
other tribes. The Sauk-Suiattle Tribal Council is comprised of seven 
elected officials who make up the governing body of the Tribe. 
Including its reservation, the Tribe currently owns or is the 
beneficial owner of approximately 100 acres of land. We were canoe 
people, plying the swift waters of the Sauk, Suiattle, Stillaguamish, 
Cascade, and Skagit Rivers, and the Salish Sea. Hunting, fishing and 
gathering at usual and accustomed places we have utilized since time 
immemorial have been the Tribe's traditional sources of revenue, 
subsistence, and ceremonial needs.
The OSO Mudslide
    On the morning of March 22, 2014, the deadliest mudslide disaster 
in United States history occurred in Oso, Washington. This landslide 
engulfed 49 homes, was responsible for the deaths of 43 people and 
destroyed utility infrastructure. It also dammed a river, causing 
extensive flooding upstream as well as blocking SR 530, which is the 
main thoroughfare into and out of the town of Darrington. The town of 
Darrington is approximately 11 miles east of the mudslide epicenter and 
has a population of approximately 1,300.
    With SR 530 being closed for an indefinite time, the socio-economic 
impact of the Oso mudslide to the Tribe and its members was severe and 
devastating in various ways. Please note that all socio-economic 
activities of the Tribe are tied to and conducted in the cities of 
Arlington, Marysville and Everett, Washington. This mudslide destroyed 
the vital communication infrastructure of the Tribe such as land and 
cell phones, and Internet service. Without phone or Internet service, 
tribal government operations largely came to a standstill and made the 
process of initiating emergency services nearly impossible.
    From March 22, 2014, through June 1, 2014, the Tribe and its tribal 
members had to commute 92 miles each way to the town of Arlington using 
an alternate route. With high gasoline prices at nearly $4.00 dollars 
per gallon, the additional commute for tribal members to work or 
receive medical services in Arlington, Marysville and Everett was an 
extreme, day-to-day financial burden. Many of these household incomes 
are already under 200 percent below the poverty level.
    In the immediate aftermath of the Oso mudslide, the Tribe requested 
assistance from many different federal agencies, including the BIA. The 
only immediate response we received was from the BIA's Puget Sound 
Agency. The acting agency superintendent and his staff came to the 
reservation first thing the following Monday to evaluate the Tribe's 
needs. All of our operating costs for the Tribe's governmental programs 
increased during the months of March, April, May, June. Those increases 
continue to affect the Tribe's budget today.
1. FEMA Must Clarify its Requirements for Tribal Emergency Declarations
    Generally, tribes and states can make two types of declarations for 
FEMA assistance. The first is an emergency declaration, which is 
usually made during the immediate rescue phase of a disaster and allows 
for direct assistance from federal personnel. The second, more detailed 
declaration is a request for a Presidential Disaster Declaration (PDD), 
which triggers FEMA's Public Assistance and Individual Assistance 
programs. Congress amended the Stafford Act last year to allow tribes 
to request PDDs directly without going through state governments. FEMA 
is currently soliciting comments from tribes on draft guidance to 
implement the PDD request process.
    Much less clear is what FEMA requires for emergency declarations. 
On March 27, 2014, Tribal Chairman Joseph made a Tribal Declaration of 
Emergency due to the impact of the SR 530 being closed for an 
indefinite time because one mile of the highway was under the mudslide. 
However, the assistance and instructions the Tribe received from FEMA 
were unclear as to the correct terminology to use in the emergency 
declaration. It took nineteen days, from March 27 to April 15, 2014, to 
achieve a declaration that FEMA would accept. This confusion and 
uncertainly resulted in delay in the Tribe receiving tangible 
assistance.
    Washington State included the Tribe in its request for a PDD, which 
President Obama approved on April 2, 2014. The Tribe, however, remains 
unclear about FEMA's administrative requirements for emergency 
declarations.
    Going forward, FEMA needs to formalize guidance on emergency 
declarations and how they relate to PDDs and ensure that field staff 
can provide tribes accurate guidance. More importantly, senior FEMA 
officials need to have this information and relay it directly to tribal 
leadership. The Tribe's size and lack of resources does not allow it to 
have the resources to maintain a full time emergency management 
department, so FEMA must be prepared to provide this information.
2. FEMA Must Improve Its Coordination with Tribes and Charitable 
        Organizations like the Red Cross
    In the weeks following the Oso mudslide, a number of problems arose 
because of either inaccurate information or lack of coordination on the 
part of FEMA or its partners.
    For example, FEMA requested that the Tribe add additional staff to 
operate our tribally owned convenience store to meet the needs of the 
first responders. The Tribe was happy to assist in the rescue and 
recovery efforts in any way that it could and readily agreed. FEMA also 
represented to the Tribe that the Tribe would be reimbursed for this 
additional payroll expense. The Tribe also sold gasoline to emergency 
personnel at cost as a way of assisting the rescue and recovery 
efforts.
    Despite what the Tribe was initially told, FEMA later informed the 
Tribe that the additional costs that the Tribe incurred at FEMA's 
request were not reimbursable because the business was owned by the 
Tribe. The Tribe relies upon revenue generated by retail and gasoline 
sales to consumers at its convenience store located on SR 530. As a 
result of the closure of SR 530, the Tribe lost revenue due to reduced 
sales which is ordinarily generated by tourist and other traffic. We 
are aware in prior disasters that FEMA field personnel have been 
confused about how trust property and tribally owned property would be 
treated for reimbursement purposes. The Tribe also understands that 
state governments are reimbursed when state employees work overtime to 
clear debris or otherwise respond to disasters. We still have not 
received a satisfactory explanation why these expenses are not 
reimbursable.
    There was also inconsistency and confusion on the part of FEMA in 
providing transportation assistance. FEMA distributed gas cards to 
certain residents of the town of Darrington and yet told Tribal members 
that they were not eligible to receive this assistance. When the Tribe 
questioned FEMA about this discrepancy, we were told that they will 
come to the reservation and distribute the gas cards. FEMA staff, 
however, did not show up the day that they had promised.
    In addition to FEMA, there was also inconsistency and confusion in 
the response on the part of charitable organizations such as the Red 
Cross. Although not a federal agency, the Red Cross receives 
reimbursement from FEMA for expenses it incurs in responding to 
disasters and coordinates closely with FEMA.
    The Tribe was asked to accept gas vouchers given by the Red Cross 
and other charitable organizations, but the reimbursements of the gas 
vouchers took so long that our gasoline station incurred an $11,926.00 
deficit in the month of April 2014. The store ran out of cash to pay 
the gasoline and other vendors who demanded cash upon delivery of goods 
and services. Again, these losses are apparently not reimbursable 
because the business is owned by the Tribe, or for other reasons that 
have not been explained. Similarly, the Stillaguamish Tribe donated gas 
cards to the Red Cross and FEMA to assist the population impacted and 
yet the tribal members of SSIT--who are also partners of the 
Stillaguamish Tribe--did not receive this assistance.
    There were also logistical issues with food delivery. All donated 
food items were promptly distributed to assist the local food bank in 
the town of Darrington. On the other hand, it was not until May 2014, 
nearly a month and a half after the mudslide, that the Tribe finally 
received a shipment of donated food items from FEMA and the Red Cross. 
The food that ultimately arrived was several crates of spaghetti sauce 
which had past due expiration dates. Complicating matters was that the 
crates of food were infested with mice. This mouse infestation required 
the Tribe to close the buildings that the crates were stored in--one of 
which was the Tribe's day care facility--to conduct pest control. 
Again, these expenses were not reimbursable by FEMA.
    In the end, neither our Tribe nor our tribal members could rely on 
FEMA's information. Some of our individual members received financial 
assistance in May 2014 but the promise of three months of assistance 
was never realized.
    The Tribe understands that on-the-ground personnel in these 
disaster response situations face significant challenges and pressures. 
This is all the more reason why FEMA must better coordinate with Indian 
tribes to provide accurate information and improved delivery of 
services. FEMA must also provide closer supervision over organizations 
like the Red Cross to ensure that they are properly carrying out 
services for which they seek FEMA reimbursement.
    When families are already struggling for assistance, they cannot be 
simply told by federal officials what they want to hear. They need to 
hear accurate information so that they do not have unreal hopes and 
expectations and can plan accordingly.
3. The BIA and IHS Should Formalize Disaster Response Protocols and 
        Make 
        Emergency Resources Available when Needed
    Finally, the BIA and IHS should implement protocols and make 
changes to their programs to provide assistance to tribes when 
incidents like the Oso mudslide affect tribes and tribal members.
    In the immediate aftermath of the mudslide, the Tribe's 
communications systems were severely impacted. On March 25, 2014, the 
BIA Regional Office in Portland promised the Tribe a mobile 
communication unit to improve the telecommunication of the tribe. To 
date, the SSIT communication systems such as land and cell phones, and 
Internet services are still not working properly. There are days that 
the Tribe has no landline, cell phone and Internet services. The BIA 
instructed the Tribe to provide it with a written description of needs 
following the mudslide. We provided this information to the BIA but 
have yet to see any action on those items.
    The closure of SR 530 severely impacted our Tribal members' ability 
to receive medical care from Arlington, Marysville, Everett, and other 
locations that were not accessible via SR 530. IHS wrote to our 
Chairman suggesting that our members take public county transportation 
to travel for 60 miles from the reservation to Sedro Woolley to medical 
appointments because it was a free service. Not only was this not free, 
but it but it required tribal members to transfer buses several times 
in order to reach Mt. Vernon, Arlington, Marysville and Everett--
another 60 miles. When tribal members are sick, elderly, and do not 
feel well, a more than 90 mile public bus trip each way is not an 
acceptable federal response.
    A better approach would have been for IHS to provide medical staff 
or mobile health units to the reservation, or provide funding for more 
efficient private transport of Indian patients affected by these types 
of disasters. The Tribe urges the Committee to explore with IHS 
utilizing IHS's Catastrophic Health Emergency Fund, popularly referred 
to as the ``CHEF,'' to pay for these types of costs going forward.
    In closing, the Tribe would like to express its thanks to the other 
Indian tribes that provided SSIT with assistance. The Nisqually Tribe 
sent food and water. The Colville Confederated Tribes sent some of 
their emergency management personnel to assist the Tribe on technical 
aspects of emergency management. As previously mentioned, the 
Stillaguamish Tribe provided our members with fuel assistance and other 
support.
    This concludes my testimony. At this time, I would be happy to 
answer any questions that the members of the Committee may have.

    The Chairman. Thank you for your testimony, Ronda.
    Matt Gregory, from Choctaw.

     STATEMENT OF MATT GREGORY, EXECUTIVE DIRECTOR OF RISK 
             MANAGEMENT, CHOCTAW NATION OF OKLAHOMA

    Mr. Gregory. Thank you.
    In the past 13 years, I have watched the Choctaw Nation 
become far better prepared for disasters that keep hitting our 
people and our neighbors. But we have much more to do. And we 
need your help.
    Today I want to highlight three points. First, the Stafford 
Act threshold of $1 million is too high for the disasters in 
much of impoverished, infrastructure-less Indian Country. 
Second, relative to size and challenges, Indian Country 
receives unfairly small share of disaster funds from DHS. 
Third, we need a GAO study to provide better information in 
disaster response, capabilities and resources in Indian 
Country.
    The Choctaw Nation governmental responsibilities are 
daunting. Our boundaries cover ten and a half counties, 11,000 
square miles, 230,000 people, and one-fifth of those are 
Choctaw members. The lives and families of our members are 
intertwined with those of our neighbors. Our government shares 
responsibilities with dozens of neighboring towns, city and 
county governments.
    We know from the news that Southeastern Oklahoma is 
confronted each year by several natural disasters: tornadoes, 
ice storms, high winds, drought, wildfires, earthquakes. As we 
speak, we currently are under a flash flood watch in 
Southeastern Oklahoma. Tornadoes alone, between 1950 and 2014, 
hit Choctaw communities 336 times, with 48 deaths and $73 
million in damages.
    The Choctaw Nation's first instinct is to help. For 
example, when an EF3 tornado hit Tushka three years ago, 
killing two people and injuring 40, we immediately provided 
food, water and supplies and helped in cleanup and rebuilding. 
We do that every time an event occurs, big or small, Choctaw or 
not.
    The tribal disaster assistance is absolutely vital in 
Indian Country, where insurance coverage is often not 
affordable and non-existent. In the Tushka tornado event, one-
half the houses affected did not have home insurance. 
Additionally, the current premiums for home insurance have 
increased as much as 50 percent since 2011.
    All of this can be very challenging. The good news is that 
with strategic mitigation projects, we have lessened the 
effects of disasters on our tribal members and the communities 
in which we reside.
    We applaud your changes to the Stafford Act. They 
strengthen sovereignty and allow tribes like the Choctaw Nation 
to seek a disaster declaration directly from the President. But 
the Stafford Act needs further improvement. The $1 million in 
damages as a threshold for applying for a disaster declaration, 
this often does not work for a tribe which has small 
communities spread out over remote rural areas. As you know, a 
one size fits all, cookie cutter approach never works well in 
Indian Country, especially in Oklahoma, where tribes are poor 
and typically do not own utilities, roads and other 
infrastructure that, during a disaster, help a county or State 
reach the $1 million damage threshold.
    I also ask your help in expanding opportunities for tribes 
for more direct Federal assistance for preparedness and 
mitigation projects. Over the last four years, Indian tribes 
have received just 1.3 percent of DHS grant funds. More tribal 
specific funding opportunities are needed.
    Finally, very little information exists regarding 
preparedness, disaster response and recovery within American 
Indian and Alaska Native communities. We request that you 
utilize the GAO to study the homeland security and emergency 
management capabilities of tribes. The GAO report will help 
inform Federal decision-makers and assist tribal leaders and 
identify specific legislative changes that may be necessary.
    In conclusion, we do not have all the answers. But we do 
want to be included in the discussion and help shape the 
solutions. FEMA and Homeland Security should broaden its 
dialogue with Indian tribes to develop and implement a disaster 
response policy that makes sense for all of Indian Country. The 
continued support of the Committee is critical to the success 
of the life and death emergency preparedness of Indian Country.
    Thank you.
    [The prepared statement of Mr. Gregory follows:]

    Prepared Statement of Matt Gregory, Executive Director of Risk 
                 Management, Choctaw Nation of Oklahoma
    Good Afternoon. Mr. Chairman, Members of the Committee, my name is 
Matt Gregory and I am the Executive Director of Risk Management for the 
Choctaw Nation of Oklahoma. On behalf of our Chief, the Honorable Gary 
Batton, I thank you for this opportunity to testify.
    I am responsible to the Choctaw Nation for oversight of its 
Emergency Management Program. Our job is to ensure that the Choctaw 
Nation is prepared for, and ready to respond to, the next disaster. 
I've held this responsibility for 13 years, and have many years of 
experience in the fields of risk management, insurance and public 
safety. The Choctaw Nation has grown our emergency response program 
over the past 5 years and we expect that we will need to further expand 
our capabilities.
    The Choctaw Nation jurisdictional boundaries cover a 10\1/2\ 
county-wide area in southeastern Oklahoma, including Bryan, Atoka, 
Coal, Pittsburg, Haskell, Latimer, LeFlore, Hughes, McCurtain, Choctaw, 
and Pushmataha counties. We are responsible for approximately 11,000 
square miles. This mostly rural area has a Census 2010 population of 
233,126. Of that, approximately 42,000 are Choctaw tribal members. The 
Choctaw Nation shares governmental responsibilities with various local 
units of government. Because of our checkerboard land ownership and the 
generations of non-members who now live among tribal citizens in our 
communities, our challenges are somewhat different from tribal 
governments who exercise jurisdiction over an intact reservation land 
base. Our tribal government responsibilities are necessarily 
intertwined with the governmental responsibilities of our neighboring 
towns, cities, and counties.
    Along with our neighbors, the Choctaw Nation of Oklahoma usually is 
confronted by several natural disasters each year; including tornadoes, 
ice storms, high winds, extreme cold, hail storms, lightning, life-
threatening heat, drought, wildfires, earthquakes, hazardous material 
releases, dam failures, and transportation accidents. In 2007, Oklahoma 
endured nine separate federally-declared disasters.
    Throughout our history the Choctaw Nation has been plagued by 
significant disasters that disrupt our lives. According to the National 
Climatic Data Center, between 1950 and 2014, Choctaw Nation communities 
experienced 336 tornado events, with 48 deaths, and a total of $73 
million in damages. In the last decade alone, Choctaw Nation 
communities lived through more than 1,450 events from all hazards and 
suffered damage totaling nearly $37 million, half of which was 
associated with 16 ice storms.
    The 2007 winter ice storm had a significant impact on the citizens 
of Pittsburg and surrounding counties. 28,399 power outages were 
reported lasting for approximately two weeks. The Choctaw Nation 
responded immediately and worked with city, county, and state agencies 
to help those in need. Some of our activities included:

  <bullet> Renting and placing generators in McAlester, Crowder, and 
        Stigler at Community Centers used as shelters;

  <bullet> Supplying water, food, toiletries, tarps, batteries, 
        flashlights, lamp oil, and many other necessities to our tribal 
        members and other citizens in the affected areas; and

  <bullet> Collaborating with the National Guard to place a generator 
        at our Travel Plaza which we opened to allow responding 
        emergency vehicles to fuel up and get supplies.

    In April 2011 an EF3 tornado (winds measuring between 136-165 mph) 
struck the town of Tushka, just 26 miles from our Choctaw Tribal 
Headquarters, killing two people and injuring 40. The Choctaw Nation 
had many tribal members, employees, and neighbors deeply affected by 
this storm. The Choctaw Nation again responded immediately and had 
support on the ground within hours after the storm hit. At one point 
there were 100+ volunteers working in the area. Some of the activities 
included:

  <bullet> Operating a feeding station at the Command Center for 
        volunteer workers and displaced citizens;

  <bullet> Delivering food, water, and basic necessities to several 
        distribution points within the community;

  <bullet> Opening the Atoka Community Center as a shelter and access 
        point for tribal members needing services; and

  <bullet> Setting up a first aid center for injured citizens and 
        workers.

    I want to note that a survey after the tornado indicated that 
nearly one-half of the residents of Tushka did not have property 
insurance coverage. We found that after that disaster, the cost of 
insurance became even more expensive, increasing by as much as 50 
percent. The growing lack of insurance coverage makes the Choctaw 
Nation's disaster assistance all the more vital.
    The Choctaw Nation has also responded to disasters like flooding 
events, microbursts, and winter storms. Our most recent response was to 
the winter ice storm that hit Choctaw, McCurtain, Leflore, and 
Pushmataha counties. During this event we performed the following 
activities:

  <bullet> Renting and placing generators in Hugo and Antlers at 
        Community Centers used as shelters;

  <bullet> Renting and placing generators in Bethel and Smithville at 
        Community Centers used as warming stations and water 
        distribution sites;

  <bullet> Supplying water, food, toiletries, tarps, batteries, 
        flashlights, lamp oil, and many other necessities to our tribal 
        members and other citizens in the affected areas; and

  <bullet> Coordinating with the Red Cross and the Southern Baptist 
        Disaster Relief to cook and deliver meals to several shelters 
        and feeding stations.

    The Choctaw Nation of Oklahoma has responded to disasters outside 
our geographical boundaries as well. All citizens of Oklahoma are faced 
with these various disasters and the leadership of the Choctaw Nation 
of Oklahoma understands that unity in these times is critical to 
recovering from a disaster. After the tornado struck Chickasaw 
communities in Moore, Oklahoma in 2013, the Choctaw Nation responded 
with equipment, personnel, and financial resources to assist in cleanup 
and recovery. Disasters affect every aspect of life, and require a wide 
variety of responses (for example, one of the many things we did was 
deliver chicken feed in Moore to keep flocks alive in the days after 
the tornado destroyed their community). For its efforts in Moore, the 
Choctaw Nation was honored to receive the ``Doing the Most Good'' award 
from the Salvation Army, which is one of many great organizations with 
whom we cooperate in disaster relief.
    The Choctaw Nation considers itself blessed to have resources 
available to assist our tribal members and neighbors during these 
disasters. In 2010 the Choctaw Nation received FEMA approval of our 
tribally adopted Tribal Multi-Hazard Mitigation Plan. We are currently 
working on updating this plan for resubmittal to FEMA. In 2012 we 
developed our Choctaw Nation Emergency Response Plan and established 
our Choctaw Nation Emergency Response Team. The Choctaw Nation 
currently utilizes the National Incident Management System and 
maintains current compliance with the program.
    In 2012 the Nation hired a full time Emergency Manager and began to 
expand the development of the program. As of July this year the Nation 
has developed a joint Continuity of Operations/Continuity of Government 
or COO/COG plan, emergency communications plan, and is updating our 
Emergency Operations Plan or EOP. In addition the Nation will be 
developing several other plans to meet our needs and FEMA requirements 
(e.g., warning notification, public assistance administration, 
donation/volunteer management, other needs assistance, strategic 
development, and debris management).
    In addition, the Choctaw Nation is also working closely with the 
State of Oklahoma and FEMA on a pilot project through the Emergency 
Management Accreditation Program, and we hope to be the first Tribe in 
the Nation to receive this accreditation. The Choctaw Nation has also 
been working on a project with the State and several Voluntary 
Organizations Active in Disasters or VOAD groups to ensure that the 
needs of children are met after a disaster strikes. In addition, the 
Choctaw Nation has been coordinating with the State to identify points 
of distribution for supplies in an effort to consolidate resources and 
coordinate more effective disaster response.
    The Choctaw Nation is an active member of the Oklahoma Emergency 
Management Association (OEMA) and of the Inter-Tribal Emergency 
Management Coalition (ITEMC). ITEMC was developed to allow tribes to 
coordinate and share information regarding disaster response and 
preparedness activities. ITEMC has worked very closely with the State 
of Oklahoma and FEMA Region VI to bring training opportunities and 
vital information to the tribes regarding hazard mitigation and 
preparedness activities.
    Planning efforts are very important and are vital to our success 
but we also realize the need for improvements through mitigation 
activities. The Choctaw Nation has completed several mitigation 
projects, including the following activities:

  <bullet> Installed generators at several critical facilities;

  <bullet> Developed a public information campaign;

  <bullet> Implemented a storm shelter/safe room program and funded 
        1,136 shelters for elder and special needs tribal members;

  <bullet> Purchased equipment for the delivery of supplies;

  <bullet> Established a GIS department;

  <bullet> Developed an EOP and response team;

  <bullet> Secured equipment for our Public Safety division for 
        disaster response; and

  <bullet> Secured an off-site solution for data backup and recovery.

    The Office of Emergency Management and the Emergency Management 
Program for the Choctaw Nation remains active in times when there are 
no disasters. Much of our effort focuses on the preparedness and 
capacity of the Tribe to recover from a disaster. Our vast coverage 
area can be a challenge but with strategic mitigation projects we hope 
to lessen the effects of a disaster on our tribal members and the 
communities in which we reside. As we move forward we hope to complete 
the following mitigation measures:

  <bullet> Purchasing and installing generators at all of our Community 
        Centers;

  <bullet> Purchasing and installing generators at all of our Travel 
        Plazas;

  <bullet> Building multiple warehouses in specific locations for the 
        quick disbursement of water and supplies;

  <bullet> Building a hardened Emergency Operations Center;

  <bullet> Purchasing a mass notification system to communicate with 
        our employees and tribal members during a disaster or emergency 
        situation; and

  <bullet> Creating an arbor program to help mitigate falling tree 
        limbs on power lines during winter events.

    These are just a few of the new measures that will be in our Hazard 
Mitigation Plan and of course will depend on available funding through 
the Tribe and state and federal funding sources. Federal grant programs 
like PDM (Pre-Disaster Mitigation) and HMGP (Hazard Mitigation Grant 
Program) are critical to the success of any mitigation strategy and the 
Tribe is thankful for the opportunity to apply for these resources. We 
applaud the recent changes to the Stafford Act which strengthen the 
sovereignty of tribal governments and allow a Tribe like the Choctaw 
Nation to seek a disaster declaration directly from the President of 
the United States.
    As we work with you and the Administration to implement our 
Stafford Act authority, there are some issues that may require further 
refinement. For example, the Stafford Act set $1 million in damage as 
its threshold for applying for a declaration. This may not work well 
for a Tribe like the Choctaw Nation, with small communities spread out 
over a wide rural area. A tornado can wipe out a small impoverished 
town of 30 homes and not meet the $1 million damage threshold. However, 
for the 30 families in that community, the devastation is overwhelming 
and the destruction is total. A one-size-fits-all, cookie-cutter 
approach never works very well in Indian Country, especially in 
Oklahoma, where tribes typically do not own utilities, roads, or other 
infrastructure that during a disaster help a county or state reach the 
$1 million damage threshold.
    When the Choctaw Nation, as well as other tribes, responds to a 
disaster we are responding to the entire community not just our tribal 
members. This creates a list of other concerns with our new Stafford 
Act authority:

  <bullet> If the State is not awarded a declaration but our Tribe is, 
        can a county come to our Tribe for reimbursement of its costs 
        related to the disaster?

  <bullet> If the State and our Tribe or several tribes are awarded a 
        declaration, how is that funding allocated?

  <bullet> If our Tribe responds to the entire community are the costs 
        related to non-tribal response efforts eligible for 
        reimbursement?

    These are just a few of the many unknowns regarding the changes to 
the Stafford Act. We do support changes to policy that strengthen 
tribal sovereignty and are committed to working with you to make these 
changes actually work in Indian Country.
    We do not have all of the answers. But we do want to be included in 
the discussion and an opportunity to help shape some of the recommended 
solutions. We need the help of this Committee to persuade FEMA to open 
up a constructive dialogue with all Indian tribes to develop and 
implement a disaster response policy that makes sense for all of Indian 
Country. These answers need to come quickly. We are faced with a number 
of disasters throughout the year, and without quick and specific 
direction, our new-found Stafford Act authority lacks some practical 
effect.
    We would ask your help in expanding the opportunities for tribes to 
receive direct federal assistance for preparedness and mitigation 
projects. These capacity-building opportunities are critical to the 
recovery of any community, especially tribal communities. Over the last 
four years, Indian tribes have received just 1.3 percent of the U.S. 
Department of Homeland Security grant funds available for preparedness 
and capacity building. Tribal specific funding opportunities would 
assist Indian tribes to better prepare for and recover from disasters.
    Currently very little if any information exists regarding 
preparedness response and recovery within American Indian or Alaska 
Native tribal communities. We know far too little about the existing 
disaster-response capacity, or lack thereof, of tribal governments. We 
would request that Congress utilize the Government Accountability 
Office (GAO) to study the homeland security and emergency management 
capabilities of tribal governments. A GAO report may help inform 
federal decision-makers about the challenges of disaster response and 
recovery in Indian Country and also assist tribal leaders as we apply 
federal policies and opportunities to the needs we must meet in Indian 
Country. Perhaps that GAO report could also identify specific 
legislative changes that may be necessary to make the Stafford Act work 
more effectively in Indian Country.
    Finally, we ask that the Committee urge FEMA and the Department of 
Homeland Security to include a larger presence of tribal representation 
on federal committees engaged in disaster response and recovery. Tribal 
representation from a variety of tribes should be required on 
committees such as Federal Incident Management Teams, FEMA National 
Advisory Council, and the FEMA Floodplain Management Council. The most 
useful understanding of tribal disaster response operations will come 
from those who deal with these situations on a daily basis.
    Again, we are honored by this opportunity to testify and thank you 
for it. We appreciate the Committee's leadership and commitment to 
Indian Country and our needs in response to disaster situations. The 
Choctaw Nation is committed to continuing this dialogue and to better 
preparing our people to respond to and recover from disasters. Your 
continued support in these matters is critical to the success of 
emergency preparedness in Indian Country.

    The Chairman. Thank you for your testimony, Mr. Gregory.
    All the way from Nome, we have Mary David. The floor is 
yours.

  STATEMENT OF MARY DAVID, EXECUTIVE VICE PRESIDENT, KAWERAK, 
                              INC.

    Ms. David. Good afternoon. Thank you for giving me the 
opportunity today to testify.
    I work for Kawerak, Incorporated, as the Executive Vice 
President. Our corporation represents 20 tribes in 16 
communities. All of our communities are located along the sea 
coast or along the shores of rivers.
    Last November, the President declared a disaster in Alaska 
for areas affected by severe storms, straight line winds and 
flooding. Several communities in the Bering Straits region were 
impacted by these storms. With these storms happening more 
often and more severely, coastal erosion seems to be happening 
quicker and more often. Shaktoolik, Shishmaref and Unalakleet 
were identified by the Immediate Action Work Group as three of 
six communities identified as imminently threatened. The 2009 
GAO report included Golovin, St. Michael, and Teller. These 
threats to life and property still exist today, and are getting 
worse.
    Stebbins, Alaska is not one of the villages listed, but due 
to last November's storms it was hit by a surge of waves that 
overflowed and flooded the community. FEMA needs to speed up 
the response and recovery process and go out to the communities 
as soon as possible after a known disaster occurs to also help 
individuals and let them be aware of what access they provide.
    Access to emergency funds are also needed immediately to 
address life and safety issues such as obtaining heating fuel, 
safe drinking water, food, clothing, shelter and communication. 
Other response agencies, such as the Alaska Red Cross, local 
regional health and tribal organizations and other volunteers 
responded faster to Stebbins than the Federal and State 
government agencies did.
    There is a lack of understanding by Federal agencies and 
personnel regarding the unique living situation of remote 
Alaska and the challenges that rural residents experience on a 
daily basis. Remote Alaska has no highways, there are no docks, 
no ports, no railroads connecting communities with other hub 
communities or even here to the lower 48. The only access is 
via barge from June 1st to September 30th and only by air when 
the weather is navigable.
    In Stebbins, four homes were damaged and several homes had 
water damage inside the home. When disaster occurs, the time it 
takes to get back to normalcy can take six months to a year and 
oftentimes longer due to the challenges that exist in the wait 
time that it takes for supplies to arrive and repair to occur, 
due to our very, very short construction season.
    Evacuation shelters supply the necessities and alternative 
evacuation routes are needed in more vulnerable communities. 
Preventive measures to slow the effects of erosion and flooding 
are needed while communities plan for long-term solutions. For 
the communities that are better off may be relocating they are 
placed in a catch-22 situation. Efforts to prevent and protect 
the existing village only prolongs the relocation efforts by 
reducing the urgency to move. Although tribes can declare a 
disaster to FEMA, the non-Federal cost share match is an issue. 
The Bering Straits tribes do not have available savings. They 
do not have industry services, such as gaming or mineral or 
revenue sources to meet that cost share match.
    So in Kewarak's viewpoint, it is actually a detriment to 
the tribe if they bypass the State and declare a disaster to 
FEMA. Our Federal, State and local and tribal governments are 
all ill-prepared for both the natural disasters that we have 
already experienced and the potential future and natural and 
manmade disasters in the future in our region.
    Not only is there a lack of a lead agency spearheading 
comprehensive efforts to prevent, mitigate and respond to 
disasters, there is a lack of coordination among the agencies 
that are tasked with carrying out the splintered components of 
these efforts. The Stafford Act addresses the response effort 
when disaster happens, which is important. But due to changing 
climate conditions, changing sea ice conditions and melting 
permafrost and the extreme variations in the weather, our 
communities are in imminent danger and preventive measures are 
needed. No person in the most developed country in the world 
should be subject to threats of loss of life due to conditions 
that can be mitigated by governmental action.
    The United States provides humanitarian efforts to other 
countries, oftentimes spending millions of dollars on aid. Our 
local populations may be small, but we are impacted just the 
same when a disaster happens. We still deserve support and 
relief, similar to when a disaster occurs in other countries or 
even in lower 48 coastal communities. The U.S. is an Arctic 
nation and has an obligation to assert its sovereign authority 
and protect national interests. With the authority comes 
responsibility for disaster prevention, mitigation and 
response, especially in an area such as the Bering Straits 
region, which is extremely remote and exposed to international 
ocean traffic.
    Thank you for giving me the opportunity to testify on this 
important issue.
    [The prepared statement of Ms. David follows:]

 Prepared Statement of Mary David, Executive Vice President, Kawerak, 
                                  Inc.
    Chairman Tester, and esteemed members, thank you for giving me the 
opportunity to submit written testimony on the issue of responding to 
natural disasters in Indian country. My name is Mary David, and I'm the 
Executive Vice President of Kawerak, Inc. I was born, raised and live 
in Nome, Alaska. I am a tribal member of Nome Eskimo Community, I have 
a bachelors degree in Social Work from the University of Alaska, 
Anchorage and a Master of Public Administration from the University of 
New Mexico, Albuquerque, New Mexico.
    Our environment is changing at an unprecedented rate. When the 
severe fall storms hit our region last November, 2013, several of our 
communities were impacted which brought to our attention areas that 
need improvement. Besides natural disasters, we are also threatened by 
potential manmade disasters due to increased ship traffic through the 
Bering Strait.
    Kawerak is the tribal consortium in the Bering Strait region of 
Alaska, an area with 20 federally recognized tribes and 16 communities. 
The region is not connected to the rest of Alaska by roads, and 14 of 
the 15 communities are not accessible by road to the hub community of 
Nome. Primary access year round is by air service, with small commuter 
planes and gravel runways in most of the villages. The ocean freezes 
over the winter and barge services ends; air transportation for freight 
is thus higher in the winter as it must be flown in. All of the 
communities in the Bering Strait Region are located on the sea coast or 
shores of rivers. Our service area is approximately 26,000 square miles 
or roughly the size of West Virginia. The region's population is about 
9,000 people, of which roughly 75 percent are Alaska Native (Inupiaq, 
Siberian Yupik and Yupik decent).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We are the first people to know when change is happening in our 
environment. The Inupiaq, Siberian Yupik and Yupik people have been in 
the Bering Strait region hunting and gathering from the land and sea 
since time immemorial. The marine life (pacific walrus, bow head 
whales, beluga whales, ice seals, polar bears, fish, ocean plants, sea 
urchins and sea birds) are vital and important sources of food. The 
impacts of global climate change, severe arctic storms and arctic 
shipping on marine life is of high concern due to our reliance on these 
food sources.
    We notice a change in our environment. Our hunters are having to go 
further out to find walrus or oogruk (bearded seals). This may be due 
to a number of factors: noise, change in current pattern, weather, and 
ice conditions. Ice is a vital element to our survival and its 
condition has changed. Local experts have noticed that the ice is less 
stable, thinner, softer and melts more quickly in the spring. Our sea 
level is also rising. Places where people use to gather fish among the 
rocks are now inaccessible and where seals once hauled out on Savoonga, 
Alaska it is now underwater and unused. We have also noticed different 
species of animals in our region. The Steller sea lion, once seen 
during the summer months has recently been documented in the Bering 
Strait region into December and humpback whales now are seen with 
seasonal regularity north of Bering Strait and have even recently been 
documented in the north eastern Chukchi Sea. Additionally, different 
plant and animal life are being seen in locations where they have never 
been seen before. The Hanasaki king crab, Parlithodes brevipes, arrived 
to U.S. waters for the first time when it was pulled from a subsistence 
crab hole through the sea ice at Little Diomede during the spring 2003. 
Since that time, the Hanasaki crab is a common species harvested near 
Saint Lawrence Island. Several egg-bearing females were harvested and 
suggest that this unusual visitor is now a new part of the Bering 
Strait ecosystem.
    Changes to our environment can be characterized by an increase in 
surface temperatures, changes to precipitation rates, erosion rates, 
decrease in sea ice coverage all stemming from climate change. 
(Progress Report, Inuit Circumpolar Conference, 2014) Severe ``super'' 
storms seem to occur more frequently and more severely. Hurricane force 
winds can hit our communities and can knock out power lines, cause 
storm surges, create tidal flooding, and impact service delivery and 
flights. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Last November 2013, the President declared a disaster in Alaska for 
areas affected by severe storms, straight-line winds, and flooding. 
There were several communities in the Bering Strait region that were 
impacted by a series of storms that affected western Alaska. The storm 
damage resulted from coastal flooding due to the storm surge and strong 
winds.
    Kawerak has a Natural Resources division, which plays a key role in 
compiling Traditional Ecological Knowledge. Through our Social Science 
program, hundreds of hunters and gatherers (who have lived their whole 
lives observing the environment) provided data on the many changes they 
have witnessed, such as a rise in sea level, later freeze up and 
thinner ice, permafrost melting, changes in weather patterns, and 
shorter winters, more rain, and hotter summers. Absent the physical 
protections of landfast ice (which act as a seawall), there is more 
damage from severe fall and early winter storms. Several of our 
communities are experiencing rapid erosion of their shorelines, and may 
be better off being relocated.
    The impacts from the storm may also be due in part from the lack of 
permafrost (permanently frozen subsoil), that holds our land together. 
With rising temperatures it has led to the thawing of the permafrost. 
When storms occur it erodes the shoreline and riverbanks much more 
easily due to its weakened state. The following are recent photos from 
the community of Teller, Alaska depicting erosion damage near their 
cemetery. As reported in a conversation with Tim Wolforth, with the 
Alaska Army National Guard, on a recent trip to Teller, local resident 
Joe Garnie informed him the edge near the cemetery has eroded about 20 
feet recently. The next ``big'' storm or subsequent storms, where the 
crack in the ground is located, is potentially where more erosion could 
occur and expose graves.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Erosion can be gradual or extreme with each fall/winter storm 
event. With the storms happening more often and more severely, coastal 
erosion seems to be happening quicker. Under Governor Palin, a Climate 
Change Sub-Cabinet was established which then convened the Immediate 
Action Work Group (IAWG) comprised of federal, state and local 
officials to come up with ways to protect Alaska's most at-risk 
communities. Shaktoolik, Shishmaref and Unalakleet (within the Bering 
Strait's region) were identified by the Immediate Action Work Group as 
three of six communities identified as imminently threatened. The 2009 
Government Accountability Office Report to Congressional Requesters on 
villages threatened by flooding and erosion, identified Golovin, St. 
Michael, and Teller as imminently threatened by flooding and erosion, 
in addition to Shaktoolik, Shishmaref and Unalakleet. These threats to 
life and property still exist today, and are getting worse.
    Stebbins, Alaska is not one of the villages listed, but due to last 
November's fall storm it was hit by high surge waves that overflowed 
and flooded the community. Stebbins is located on the northwest coast 
of St. Michael Island, on Norton Sound. It lies 8 miles north of St. 
Michael and 120 miles southeast of Nome. Currently the population is 
estimated at 572. Although the State Emergency Coordination Center 
provided advance warning of the storm, the community did not expect the 
magnitude of the storm and the potential impact of it, and therefore 
was not adequately prepared to respond to it.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    FEMA needs to speed up the response and recovery process, and 
should go out to the communities as soon as possible after a known 
disaster to see its impacts before the clean-up has begun. Also, it is 
hard for individuals and families to access assistance because of not 
knowing what is available; making a presence soon after a storm would 
help those in need. The tribes own limited resources were used to help 
meet immediate needs after the disaster. Access to emergency funds are 
needed immediately to address life and safety issues such as obtaining 
heating fuel, safe drinking water, food, clothing, shelter and 
communication. Other response agencies, such as the Alaska Red Cross, 
local regional health and tribal organizations and other volunteers 
responded much faster to Stebbins than the federal and state government 
agencies did.
    There is a lack of understanding by federal agencies and personnel 
regarding the unique living situation of remote Alaska and the 
challenges rural residents experience on a daily basis. In remote 
Alaska there are no highways, no docks or ports, and no railways 
connecting most communities with other hub communities or the lower 48. 
The only access is via barge from June 1st through September 30th and 
by air service all year when the weather is navigable. Home owners do 
not have a Home Depot to go to and if substantial damage is done, they 
often are not repaired for months, sometimes years. Also, the affects 
of a storm are not always known or visible until the following spring. 
If a storm occurs late in the year, it is difficult to assess damages 
and to meet the timeframes for qualifying for assistance.
    Nome, Alaska is the hub community in the region. It is 500 air 
miles from Anchorage and only has two daily Alaska Airline flights in/
out of the city. Many goods and services (such as food, equipment, and 
building supplies) have to be flown in or barged in during the summer 
months. With Stebbins, the flood happened last November and work on 
cleaning the debris from the community is occurring this summer. In 
Stebbins, four (4) houses were damaged and several homes had water 
damage inside the home. The outside of these homes look good, but the 
inside water damage is difficult to clean and it is taking many months 
to make them livable again.
    We are experiencing a housing shortage in Nome, and in the rural 
villages it may be worse. Several families may live together in one 
house. When disasters occur, the time it takes to get back to normalcy 
may take from six months to a year and often times longer due to the 
challenges that exist and the timeframe one has to wait for supplies to 
arrive and repair to occur during our short construction season.
    Evacuation shelters (supplied with necessities) and alternative 
evacuation routes are needed in the more vulnerable communities. 
Preventative measures to slow the effects of erosion and flooding are 
needed while communities plan for long term solutions. For those 
communities who may be better off relocating, they are placed in a 
Catch-22 situation. Efforts to prevent and protect the existing village 
only prolongs the relocation efforts by thus reducing the urgency to 
move.
    Our federal, state, local and tribal governments are ill-prepared 
for both the natural disasters that we have already experienced and the 
potential future natural and man-made disasters in our region. Not only 
is there a lack of a lead agency spearheading comprehensive efforts to 
prevent, mitigate, and respond to disasters, there is a lack of 
coordination among the agencies that are tasked with carrying out the 
splintered components of these efforts. In addition, many of our 
communities/tribes do not have response equipment or assets to assist 
or support in a disaster. General Manager Matt Melton with Alaska 
Chadux stated in the July 24th issue of the Nome Nugget Newspaper that 
``In a real response[such as an oil spill response], we would bring in 
50 to 100 people'', this does not include Coast Guard or DEC personnel. 
He further stated, ``In a small community like Teller, a large influx 
of people responding to a spill would stretch the community's 
capabilities. Plans need to be in place to supply the workers with 
food, places to rest and sleep after 12 hour shifts.''
    Our communities alone do not have the resources and the finances to 
address erosion problems on their own (there are numerous regulations, 
different studies and environmental documents needed). The Immediate 
Action Work Group coordinated effort was successful for the six 
communities it identified as imminently threatened. By the end of 2009, 
through their efforts Shaktoolik, Shishmaref and Unalakleet had 
Comprehensive Emergency Plans completed and the training to execute the 
plans (what is needed is the continued effort to hold drills annually). 
There has been slow progress with other communities in getting required 
FEMA plans completed or erosion issues addressed since the IAWG work 
ended around 2011. The table below lists each community in the Bering 
Strait Region, population, information on who has completed a Hazard 
Mitigation Plan (HMP), emergency operation plan (EOP) and if the 
community has a search and rescue group and an established volunteer 
fire group:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We recommend funding to reinvigorate the IAWG, and a commitment 
from the current Governor to reinstate the working group. The 
importance and continued need of such a committee to address the flood 
and erosion threats that our communities continue to face is vitally 
important. This was an exemplary model of coordinating State, Federal 
and local leaders to prioritize projects, coordinate resources and 
implement projects. The IAWG was an effective Committee that placed 
upper level staff of agencies and organizations in an arena that 
allowed for information sharing and important dialogue. The IAWG made 
recommendations to the State, the U.S. Army Corps of Engineers, and 
other agencies to fund mitigation projects that addressed immediate 
threats from flooding and erosion. The IAWG also allowed members and 
leaders from communities that are threatened to share their threats and 
dire circumstances. Kawerak recommends that if the IAWG is resurrected, 
and that FEMA could be included to have a key role in the Committee 
membership. There is a need for the State and Federal Government 
programs to come together, problem solve and involve appropriate tribal 
entities; we are all serving the same constituents.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Shaktoolik, Alaska is one of the communities that was reported in 
the 2009 federal Government Accountability Office report as ``likely 
need[ing] to move all at once and as soon as possible.'' The community 
recognized that funding was extremely limited and decided to take the 
initiative upon themselves to begin to address their erosion issue. As 
reported to KNOM radio, in order to possibly prevent significant damage 
to infrastructure, and the community and to protect safety and life to 
residents, the City of Shaktoolik after two years of pooling grant 
funds from the local Community Development Quota (CDQ) group($620,000), 
with modified plans from the Department of Transportation, began 
construction this summer of a driftwood pile, embedded with gravel and 
backed by a gravel mound. If the berm is properly engineered and 
maintained as a protective measure for the community, it can be 
eligible under the FEMA public assistance program if damaged in future 
storms.
    Seawalls are needed, but nearly impossible to obtain due to the 
cost. The below photos come from Teller, Alaska.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Teller was informed that there could be no repairs to a seawall 
built in the 1960s. Over the years, more of the shore has eroded, and 
water damage to the electrical lines of the fuel tanks occurred and the 
sewage lagoon behind the school was flooded. A seawall could have 
prevented this from occurring.
    After last year's fall storm, Kawerak began efforts to prepare our 
regional communities to be better prepared for future disasters. An 
Emergency Management Seminar was held last April, 2014 in Anchorage, 
Alaska with another one planned for the fall of 2014. This joint 
seminar sponsored by the Alaska Federation of Natives' Council for 
Advancement of Alaska Natives, of which our Kawerak President is the 
Chairperson, the State of Alaska and FEMA participated, is an example 
of what can work well when key stakeholders jointly work towards 
solutions. The session focused on best practices, resources available 
and identified gaps in the disaster process. The group of residents who 
attended from the regions of Bering Strait, Tanana Chief's Conference 
and the Association of Village Council Presidents identified the 
following gaps in disaster preparedness:

  <bullet> Help more communities develop Small Community Emergency 
        Response Plans (deals with the first 72 hours of a disaster) 
        and Emergency Operation Plans (more long term). Currently, the 
        Alaska Native Tribal Health Consortium has two staff assisting 
        tribal communities with Emergency Operations Plans (EOP), and 
        the State of Alaska works with local municipalities to assist 
        them as well. However, funding is again limited. Establishing 
        an EOP requires professional services, and there are some rural 
        communities who do not even have a municipal government, thus 
        have very little recognition or support from the State of 
        Alaska. Technical assistance and training is needed to be made 
        available through federal and state departments of Homeland 
        Security (in a coordinated manner) and through FEMA.
     Should a tribe seek a disaster declaration directly, having 
        separate tribal plans is redundant in a small community where 
        it is often difficult for a city office to develop a Community 
        Emergency Response Plan or a Hazard Mitigation Plan. Kawerak 
        recommends FEMA allow a tribe to utilize a city plan (if they 
        have one) and/or adopt a city plan as their own in order to 
        meet this requirement.

  <bullet> Tribes are not able to meet the 25 percent cost share match 
        if they make disaster declarations requests. Although tribes 
        can declare a disaster directly to FEMA the non-federal cost 
        share is an issue. The Bering Strait region tribes do not have 
        available savings or do not have industry services such as 
        gaming or mineral resources to generate revenue to meet the 
        required financial cost-share-match. When the State of Alaska 
        declares a disaster and FEMA funds relief efforts, 75 percent 
        is covered by the Federal Government and 25 percent by the 
        State. So from Kawerak's viewpoint, it's actually a detriment 
        to the tribe if they by-pass the state and declare a disaster 
        directly to FEMA. Resources to carry out projects in our region 
        have been very limited and often funding opportunities require 
        a cost-benefit analysis that factors in population or require a 
        local cost-share that is prohibitive.
  <bullet> For example, The USACE cost share for projects is 
        prohibitive. Shishmaref has a revetment project to protect 
        their sewage lagoon and washeteria, and it has been on hold 
        because the tribe needs to come up with an $8 million dollar 
        match. For the Elim harbor the cost-benefit analysis proved not 
        to pan-out because it didn't create new jobs with a new harbor. 
        If a cost-share structure is necessary, there should be 
        consideration for cost-sharing between the Federal Government 
        and the state government. Tribal governments in Alaska have 
        practically no tax base to afford a cost share.
  <bullet> Red tape that is prohibitive to accessing funds should be 
        identified. A national call to tribes and rural communities to 
        identify barriers should be undertaken. For Alaska, the 
        regional non-profits could coordinate obtaining this 
        information.

  <bullet> Small communities lack adequate emergency responders and 
        equipment, and the limited responders may experience stress in 
        a disaster as well (they may have personal loses themselves).

  <bullet> If communication systems go down in an emergency, few 
        communities have a backup communication system and are 
        therefore cut off from communication. Stebbins experienced a 
        loss or spotty communication during the storm. Satellite 
        emergency phones should be made available to all high risk 
        communities.

  <bullet> Small communities need access to training and technical 
        assistance for disaster planning and drills.

  <bullet> Very few communities have up to date alarm systems or 
        adequate disaster supplies and equipment (generators).

  <bullet> More rural grant writers are needed to access mitigation 
        funding for emergency preparedness.

  <bullet> Land ownership and legal address problems keep people from 
        getting reimbursement for disaster losses.

  <bullet> Federal and state agency staff land on the ground in an 
        emergency, while locals are still stabilizing the community. 
        They often need housing when there is limited housing for 
        evacuees, and need to talk to the people who are the first 
        responders when they need to be out working. [Kawerak proposes 
        FEMA travel to the site earlier. Since there seems to be 
        differing opinions, FEMA should ask the community to determine 
        what is the best time to travel to the impacted community.]

    What seemed to resonate, as I prepared this testimony, was the lack 
of communication between FEMA and stakeholders. The following 
recommendations may help improve this:

  <bullet> Develop a preparedness outreach campaign to educate and 
        inform rural communities on concrete steps they can take to 
        increase their resilience to natural and man-made hazards.

  <bullet> Improve training and technical assistance opportunities for 
        all rural communities. Allow regional support entities like 
        Kawerak, Inc. to be eligible to apply for funding to provide 
        this kind of support to the tribes that they serve through the 
        establishment of full-time staff positions, specializing in 
        disaster risk reduction and emergency management. Storms and 
        disasters do not typically only affect one community--in most 
        cases an entire region is affected. Regional plans are needed 
        and the regional non-profits could provide a mechanism to 
        accomplish this, especially in areas where there are no 
        organized boroughs.

  <bullet> Improve training opportunities in rural Alaska for all 
        emergency preparedness issues, as well as the declaration 
        process and the programs available. Provide travel scholarships 
        so more rural leaders can attend trainings. Provide more 
        village-based training to enable communities to effectively 
        drill and practice emergency plans.

  <bullet> Use local resources in planning response efforts. The 
        networking of local knowledge holders with those who have the 
        technical knowledge is needed. Local, Regional, Tribal, State 
        and Federal partnerships when disasters occur is needed. If a 
        spill or an incident were to occur in our backyard, our tribal 
        members will not stand by. Our pristine environment and the sea 
        mammals, birds, fish and land animals are at stake. We have 
        Traditional Ecological Knowledge that is valuable in any 
        planning and response effort.
     On July 16, 2014 an oil spill response drill was held in Teller, 
        Alaska. The goal was to determine degree of readiness and to 
        test the logistics of getting oil spill response equipment from 
        Nome to Teller. The Tribal Council President Wesley Okbaok was 
        present and was able to assist the response crew with 
        information about the currents and their behavior in certain 
        wind conditions, as reported in the Nome Nugget Newspaper (July 
        24, 2014 issue). Cheryl Fultz, environmental compliance 
        specialist with Delta Western, who was present at the drill, 
        stated she learned the most from Wesley. ``When you meet a 
        gentleman like Wesley, you realize all of the talent available 
        in the region. The community lives off the sea, and to that end 
        they know every nuance of how the waters behave.''
     Within the Bering Strait region, another group called the Bering 
        Sea Alliance (comprised of several communities) formed to 
        address the impacts of increased shipping. This proactive group 
        is working with Shell Oil Company to address issues related to 
        disaster prevention and response.

  <bullet> Although the State of Alaska developed a Small Community 
        Emergency Response Plan (SCERP) template which provides 
        guidance and assistance to any community that wishes to develop 
        such a plan and it provides valuable information on what to do 
        in the first 72 hours after a disaster, education on disaster 
        assistance processes for communities which have been impacted 
        by disasters is needed. Many of our communities didn't know who 
        to contact or how the process works; those villages more 
        familiar with disasters seem to navigate through the process 
        easier.
     For example, although a disaster declaration was issued for the 
        November 2013 storm, Elim, Alaska did not seek assistance for 
        damage due to the storm to one of their roads. Elim spent a 
        little over $5,000 dollars clearing driftwood and other debris 
        from Moses Point using BIA Road Maintenance funds (Elim 
        receives $42,600 a year in BIA Road Maintenance funds). Elim 
        did not fix the road to its original specs; but removed the 
        debris to make the road passable. Dirt was added to the four 
        mile damaged stretch, of the nine mile road and added an eight 
        foot sand berm on the most vulnerable areas of the road so far 
        this summer. Elim anticipates expending all or more of their 
        BIA Road Maintenance funds to make the road safe and usable. 
        Elim secured an additional $73,000 from a commercial fish 
        company to reinforce the road infrastructure at the end of the 
        Moses Pt road where boats are parked. Had Elim been aware that 
        they could seek disaster assistance, Elim could possibly have 
        leveraged their roads maintenance funds (and the funds from the 
        commercial fishing company) to help meet match requirements. 
        Therefore, using limited tribal roads maintenance funds in 
        other needed areas.
     Another example is with the Stebbins disaster. The Tribal 
        President still doesn't know who the right person is with FEMA 
        to communicate with/to. He didn't know the tribe could seek 
        reimbursement for the expenses they incurred when helping 
        disaster victims after the storm. He heard about the potential 
        to seek reimbursement from a local resident of Nome; not from 
        FEMA personnel. FEMA may be communicating with the City of 
        Stebbins office, but per the Tribal Council President, 
        communication is not occurring with him.
     Back in August of 2013, Gambell and Savoonga on St. Lawrence 
        Island received an Economic Disaster Declaration from the 
        Governor of Alaska. For six months, the State of Alaska 
        Department of Commerce, Community and Economic Development 
        coordinated and hosted regular teleconferences with both 
        community leadership (city and tribal offices), and agencies 
        who may be able to assist in some way. The calls started out on 
        a weekly basis, then moved to bi-weekly and near the end, on a 
        monthly basis. This was very helpful; FEMA should consider this 
        when a disaster occurs.

  <bullet> Establish further collaboration with rural communities, 
        tribes and rural resources available. The U.S.C.G. has actively 
        established relationships with, communicated with, and 
        coordinated with tribes in our region. Other agencies such as 
        FEMA, USACOE and the Department of Homeland Security (both 
        state and federal) should follow suit.

    The Bering Strait is the gateway in and out of the Arctic Ocean for 
migrating marine mammals and seabirds. The Bering Strait is also a 
gateway for maritime transportation. Vessels traveling from the Pacific 
to the Arctic--or transiting the Arctic using the Northern Sea Route or 
Northwest Passage--have no choice but to pass through the bottleneck of 
the Bering Strait. Our life highly revolves around subsistence 
activities and the marine environment. Increased ship traffic has the 
potential to significantly impact the marine life/environment and our 
subsistence way of life. There is a history (1989 Exxon Valdez oil 
spill, in 2004 Selendang Ayu oil spill went aground and resulted in the 
a spill of approximately 336,000 gallons of fuel oil and diesel fuel) 
that shows that manmade disasters are sure to occur. The question is 
not if they will occur, it is when, and are we able to respond to the 
disasters in a timely fashion.
    This is a major concern for the people of the Bering Strait region. 
At recent food security workshops held by the Alaska Inuit Circumpolar 
Conference, it was reported that from an Inuit perspective, a threat to 
food security threatens an entire cultural way of life. The Exxon 
Valdez spilled 11 million gallons of crude oil, and the coastal 
ecosystem injured by the Exxon Valdez spill is still a long way from 
full recovery. Therefore, a potential spill would have long term social 
and cultural impacts to the way of life of residents in the Bering 
Strait region. Its impacts would also be felt by other Alaskan 
communities outside the region who rely on the animals which migrate 
through the strait.
    The closest U.S. Coast Guard base is in Kodiak, Alaska and that is 
over 1,000 miles away. It would take over one day of ocean travel by a 
Cutter, 2 hours by C-130 and 5 hours by HM-60 helicopter. Response 
agencies such as FEMA, and the Alaska Red Cross are located in 
Anchorage, Alaska. There is a huge gap in adequate response time for 
the Northern Bering Sea and Norton and Kotzebue Sound waters. Response 
to a disaster will not be immediate, it may take hours and it may even 
take days depending on the weather.
    Up until just a few years ago, the USCG had a Loran Station at Port 
Clarence in the Bering Strait Region. This station has been shuttered 
and our region's nearest station is now Kodiak, much too far away. 
Given the recent increase in ocean vessel traffic through the Bering 
Strait, increased presence is needed. A permanent USCG base in the 
Bering Strait, the chokepoint between Russia and Alaska, is needed.
    Normal spring hunting conditions include access to open water, 
availability to secure floating ice, and safe wind directions. In May 
2013, unfavorable northerly winds and high ice concentrations along the 
northern coastlines of Gambell and Savoonga greatly limited access to 
walrus as they passed through during the spring migration period. The 
combination of weather factors reduced the number of days during which 
subsistence hunters would actually be able to access walrus which were 
located deeper beyond the large ice floes near the communities 
resulting in a poor walrus harvest. Pacific Walrus is the main food 
consumed by residents at approximately 120 lbs. each month. It is 
critical for the continued cultural, nutritional, economic, spiritual 
well-being, and food security for the residents. The 10-year (2003-
2012) average spring walrus harvest for Gambell and Savoonga for the 
months of March -June is 978 (uncorrected factor). The Native Village 
of Savoonga and Gambell reported a substantially lower walrus harvest 
of 180 during the May 2013 subsistence hunting season. Residents rely 
on the available marine resources as a food source and the lack of a 
normal walrus harvest has significant economic impacts that prevent 
additional financial resources from the sale of ivory. The lack of 
these resources impacts the ability to purchase gas or ammunition to 
hunt for other available food sources such as seals or birds. Spring 
2014 harvest numbers are again lower than normal, and the communities 
are again bracing for another disaster due to a shortage of food in the 
community caused by unique weather conditions that impacts hunting. 
Although the disaster that Gambell and Savoonga experienced was not due 
to flooding, earthquake or typhoon, the shortage of food created by 
their natural environment contributed to a dire situation. A response 
to unique disaster situation such as this, need to be made available.
    In conclusion, The Stafford Act is a response when a disaster 
happens, which is important. But, due to changing climate conditions, 
changing sea ice conditions and melting permafrost and the extreme 
variations in the weather, our communities are in imminent danger and 
preventative measures are needed. No person, in the most developed 
country in the world, should be subject to the threat of loss of life 
due to conditions that can be mitigated by governmental actions. The 
United States provides humanitarian efforts to other countries; often 
times spending millions of dollars in aid. Our local populations may be 
small; but we are impacted just the same when disasters occur. We still 
deserve support and relief, similar to when disaster assistance and 
support is mobilized to other countries around the world or to lower 48 
coastal communities. The U.S. is an arctic nation and has an obligation 
to assert its sovereign authority and protect national interests. With 
the authority comes responsibility for disaster prevention, mitigation, 
and response, especially in an area such as the Bering Strait Region, 
which is extremely remote and exposed to international ocean traffic.
    Thank you for providing time to testify on this important issue.
    Additional Storm Photos:
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The Chairman. Mary, thank you for making the trek to 
Washington, D.C. We appreciate your testimony.
    Jake Heflin, you are up.

   STATEMENT OF JAKE HEFLIN, PRESIDENT/CEO, TRIBAL EMERGENCY 
                     MANAGEMENT ASSOCIATION

    Mr. Heflin. Chairman Tester, members of the Committee, my 
name is Jake Heflin. I am the President and Chief Executive 
Officer for the Tribal Emergency Management Association, or 
iTEMA. I am an enrolled citizen of the Osage Nation, or Wah Zha 
Zhi Nation, out of Oklahoma.
    On behalf of iTEMA, I want to thank for you holding a 
hearing on When Catastrophe Strikes: Responses to Natural 
Disasters in Indian Country. With over 23 years of experience 
in emergency services, I have served in various capacities to 
include firefighter, paramedic and community emergency response 
team, or CERT program manager. I currently work for the City of 
Long Beach Fire Department in California.
    iTEMA is a national tribal organization comprised of 
volunteers that focus on tribal emergency management and 
emergency services. The mission of iTEMA is to promote a 
collaborative, multi-disciplinary approach to coordinate and 
enhance emergency management, response and recovery to protect 
all tribal communities.
    As an emergency responder and emergency management 
instructor that works with tribal governments throughout Indian 
Country, it has become evident that there is a significant 
disparity between the state of readiness for tribal communities 
versus that of local, county and State governments. It boils 
down to capacity, capability, and funding. With an increasing 
number of challenging and escalating incidents impacting Indian 
Country, it is apparent that a solution is necessary to address 
this disparity. Identifying ways for impacted tribes to request 
assistance from tribes and/or other Federal partners or tribal 
emergency management experts and organizations like iTEMA 
during an emergency incident is critical.
    When a catastrophe strikes, the Federal response to natural 
disasters in Indian Country is slow, tedious and in significant 
need of a comprehensive overhaul. Coordinated planning and 
preparedness activities initiated by tribes and the Federal 
Government are important. These initiatives lessen the impacts 
of disasters in Indian Country. However, more support is 
needed.
    Despite providing pre-disaster support and technical 
assistance and planning before disaster strikes, at the time of 
the incident FEMA is not really available until monetary 
thresholds are met by the disaster. Even when FEMA responds to 
disaster, FEMA does not support the tribes operationally.
    iTEMA believes that as an association we should be utilized 
and provided with the opportunity to support the Bureau of 
Indian Affairs and support FEMA through development of 
memorandums of understanding to support our direct 
participation and response. iTEMA recommends that Federal 
funding be set aside to further support the continued 
development and maintenance of the Tribal Emergency Mutual Aid 
Compact, or TEMAC. Given the specific complexities associated 
with emergency response in Indian Country, iTEMA believes that 
there should be a specific tribal emergency support function, 
or tribal ESF, within the national response framework. A tribal 
ESF would further enhance the visibility of tribes at the 
Federal level. The Tribal Assistance Coordination Group, or 
TAC-G, is an example of the successful strategy in increased 
communications with tribes and other Federal partners.
    Additional work must be done to meet the needs of tribal 
communities. The development of tribal CERT programs, tribal 
fire and EMS programs and tribal emergency management programs 
should be supported nationally through direct funding to 
tribes. This program must be funded to meet the current demand 
and open to all tribes that show a need and can articulate a 
plan for developing these services.
    iTEMA asks that the Congressional Research Services 
investigate the state of tribal emergency management and 
emergency services, as there is inconsistent information as to 
the state of readiness in Indian Country. The current capacity 
and capabilities of tribal emergency services are, for the most 
part, relatively unknown. An assessment and clearinghouse for 
this information should be established.
    The Federal Government plays a pivotal role in Indian 
Country during emergencies. They have the ability to bring 
robust capability of supplemental disaster funding to support 
tribes. The reality is, though, that within Indian Country, 
most incidents will never meet the Federal Government 
thresholds and the available Federal support will be minimal. 
This must change.
    The thresholds of presidentially-declared disasters must be 
looked at from a tribal perspective, not a hard number. Tribes 
are different. Incidents impacting our sacred sites don't carry 
monetary value. For us, it is priceless, our people, our 
culture, our ways of life, those are our most precious 
resources.
    I ask today that Congress fund the Federal Government to 
establish a baseline for tribal emergency response and 
recovery. I ask that the Federal Government look to their 
tribal partners to find solutions that empower Indian Country 
to be self-reliant. This requires funding and an overhaul of 
the current system.
    Emergency management funding must be provided directly to 
the tribes. Access to these funds is necessary in order to 
support the development of tribal capacity and capability. To 
minimize loss, we must take a proactive approach in dealing 
with natural catastrophes. We must focus on preparedness and 
mitigation to reduce the loss associated with response and 
recovery.
    In conclusion, I appreciate the opportunity to speak today. 
I look forward to working together to promote and enhance 
emergency management response and recovery throughout Indian 
Country. Thank you, and I am open to any questions you might 
have, sir.
    [The prepared statement of Mr. Heflin follows:]

  Prepared Statement of Jake Heflin, President/CEO, Tribal Emergency 
                         Management Association
    Chairman Tester, Vice Chairman Barrasso and Members of the 
Committee, my name is Jake Heflin, I am the President and Chief 
Executive Officer for the Tribal Emergency Management Association, also 
known as iTEMA. I am an enrolled Citizen of the Wah Zha Zhi Nation 
(Osage Nation) out of Oklahoma. I am from the Tzi-Zho Wah-Shtah-Keh 
Clan. I was given the name Tah-Wah Gka-Keh ``Town Maker''.
    On behalf of iTEMA, I want to thank for you holding a hearing on 
``When Catastrophe Strikes: Responses to Natural Disasters in Indian 
Country.''
    With over 23 years of experience in emergency services, I have 
served as a Firefighter, Paramedic, Field Supervisor, Field Training 
Officer, Paramedic Preceptor and Community Emergency Response Team 
(CERT) Program Manager. I currently work for the City of Long Beach 
Fire Department in California.
    iTEMA is a national tribal organization comprised of volunteers 
that focus on Tribal Emergency Management and Emergency Services. The 
mission of iTEMA is to promote a collaborative, multi-disciplinary 
approach to prepare for, protect against, respond to, recover from, and 
mitigate against all hazards that impact our Tribal communities.
    As an emergency responder and emergency management instructor that 
works with Tribal governments throughout Indian Country, it has become 
evident that there is a significant disparity between the state of 
readiness for Tribal communities versus that of local, county, and 
State government. It boils down to capacity, capability, and funding.
    With an increasing number of challenging and escalating incidents 
impacting Indian Country, it is apparent that a solution is necessary 
to address this disparity. Identifying ways for impacted Tribes to 
request assistance from other Tribes and/or other federal and Tribal 
emergency management experts like iTEMA during an emergency incident is 
critical. Immediate emergency operational assistance, whether it is 
simply to provide support over the phone or actually deploy resources, 
is, for the most part, an unmet need for Indian Country. Tribes are 
left to fend for themselves, with minimal assistance and cooperation 
from local and State agencies. These reoccurring events led to the 
creation of iTEMA.
    iTEMA strives to provide technical assistance that supports Tribes 
as they prepare and consider critical information for declaring a State 
of Emergency, tracking costs associated with the event, managing 
resources and the corresponding documentation that supports requests 
for reimbursement should the event meet the thresholds for a 
Presidential Declaration.
    iTEMA also provides training opportunities by way of our annual 
conference and we offer specific classes targeted at increasing 
emergency capacity and capabilities. iTEMA assists in development of 
Tribal CERT programs and developing comprehensive plans that help 
Tribal communities take proactive steps to minimize and mitigate loss 
associated with future events. Efforts are currently underway by iTEMA, 
individual Tribes, and other partners such as the State of California 
Office of Emergency Services to develop Tribal Incident Management 
Teams to further provide additional resources for Tribal communities.
    When a catastrophe strikes, the Federal response to natural 
disasters in Indian Country is slow, tedious and in significant need of 
a comprehensive overhaul. Coordinated planning and preparedness 
activities initiated by Tribes and the Federal Government are 
important. These initiatives lessen the impacts of disasters in Indian 
Country. However, more support is needed. The United States Federal 
Government has taken some small steps to enhance the outreach and 
opportunities to support these initiatives, but lacks the operational 
coordination when working with Tribes on real events. For example, 
despite providing pre-disaster support, technical assistance and 
planning before a disaster strikes, at the time of the incident, FEMA 
steps away from Tribes until monetary thresholds are met by the 
disaster. Even when FEMA responds to a disaster, FEMA does not support 
the Tribes operationally.
    Currently, the systems that are in place to support Indian Country 
during disasters rely heavily on the Federal Government to provide All 
Hazards Emergency Response Operations (A-HERO) support during events 
that impact Tribes. Often, this assistance from the Federal Government 
is provided by part-time or on call staffing that have no specific 
experience relating to the emergency needs of Tribal communities.
    Tribes are uniquely different. As sovereigns, Tribes have a 
responsibility to provide for the public safety of their citizens. 
However, when Tribes are overwhelmed by a disaster, the Federal 
Government has a trust responsibility to support Tribes and provide the 
appropriate assistance.
    The current National Response Framework does not adequately 
identify a primary Federal lead for disasters in Indian Country. 
However, iTEMA believes that the response model for Indian Country 
needs to include FEMA, the Bureau of Indian Affairs, other Federal 
Partners and non-governmental organizations like iTEMA for increased 
support and involvement.
    During disasters, first responders play a pivotal role in a Tribe's 
ability to manage the incident. In the areas of Tribal Structural Fire 
and Tribal Emergency Medical Services, there is minimal federal 
engagement to support these programs. Wildland Fire responsibilities in 
Indian Country already exist under the Bureau of Indian Affairs. Thus, 
iTEMA proposes bringing these additional emergency services together 
under the Bureau of Indian Affairs Emergency Management division to 
create a comprehensive all-hazard, all-risk approach to managing 
response throughout Indian Country.
    iTEMA believes that as an association, with a focus on Tribal 
emergency response, we should be utilized and provided with the 
opportunity to support the Bureau of Indian Affairs and FEMA, through 
the development of a Memorandum of Understanding to support our direct 
participation in response. The Tribes would see a marked change in the 
level of experience and awareness that these responders bring to Tribal 
communities in need of support and assistance.
    iTEMA recommends that Federal funding be set aside to further 
support the continued development and maintenance of a Tribal Emergency 
Mutual Aid Compact (TEMAC). Just as the National Emergency Management 
Association receives funding to support the State to State mutual aid 
(EMAC), iTEMA believes we are well positioned to manage this effort on 
behalf of Indian Country. This process will support Tribes in a more 
effective manner and streamline the process for Tribes to receive 
outside support from other Tribes and Tribal organizations.
    Given the specific complexities associated with emergency response 
in Indian Country, iTEMA believes that there should be a specific 
Tribal Emergency Support Function (ESF) within the National Response 
Framework (NRF). ESF's provide structure for coordinating Federal 
interagency support as it relates the how the Federal Government 
responds to an incident. A Tribal ESF would further enhance the 
visibility of Tribes at the Federal level with regard to response. The 
Tribal Assistance Coordination Group (TAC-G) is an example of a 
successful strategy to increase communications with Tribes and other 
Federal partners.
    Additional work must be done to meet the needs of Tribal 
communities. The development of Tribal CERT, Tribal Fire and EMS 
programs and Tribal Emergency Management programs should be supported 
nationally through direct funding to the Tribes. This program must be 
funded to meet the current demand and opened to all Tribes that show a 
need and can articulate a plan for developing these services.
    The Tribal Coordination Support Annex, part of the National 
Response Framework, should be released immediately. This annex has 
already been created but remains tangled in red tape and bureaucracy 
for unknown reasons.
    iTEMA asks that Congressional Research Services investigate the 
state of Tribal emergency management and emergency services as there is 
inconsistent information as to the state of readiness in Indian 
Country. The current capacities and capabilities of Tribal Emergency 
Services are, for the most part, not really known. An assessment and a 
clearinghouse for this important information must be established, in 
order for Tribes to share this important information between agencies 
and other partners. Indian Country must have better snapshot of our 
current state of Tribal Emergency Services to better identify the unmet 
needs that exist.
    The strategic, operational, and tactical aspects of Tribal 
emergencies from the United States Federal Government must be handled 
by those with the background and experience to do so. Currently, FEMA, 
at the Headquarters level, chooses to house Tribal Affairs in FEMA 
Intergovernmental Affairs, part of FEMA External Affairs. Despite 
recommendations from Indian Country and other Federal Government 
partners, FEMA Headquarters has not realized the importance of placing 
Tribal All Hazards Emergency Response Operations (A-HERO) within the 
FEMA Office of Response and Recovery. Even at the FEMA regional level, 
some FEMA Regional Directors have chosen to move Tribal emergency 
operations out of External Affairs, into more appropriate places, like 
the FEMA Regional Preparedness Branch.
    The Federal Government plays a pivotal role in Indian Country 
during emergencies. They have the ability to bring robust capability 
and supplemental disaster funding to support Tribes. The reality is 
that within Indian Country, most incidents will never meet the Federal 
Government thresholds and the available Federal support will be 
minimal. This must change. The thresholds of Presidentially Declared 
Disasters must be looked at from a Tribal perspective, not a hard 
number. Tribes are different. Incidents impacting our sacred sites 
don't carry a monetary value. For us, it's priceless. Our people, our 
culture, our way of life are our most valuable resources. For Tribes, 
emergency management is something we have practiced for centuries. 
However, with a changing climate and escalating technological hazards, 
Tribes are at increased risk.
    I ask today, that Congress fund the Federal Government to establish 
a baseline for Tribal emergency response and recovery. I ask that the 
Federal Government look to their Tribal partners to find solutions that 
empower Indian County to be self-reliant. This requires funding and an 
overhaul of the current system. Emergency Management funding must be 
provided directly to Tribes. Access to these funds is necessary in 
order to support the development of Tribal capacity and capability. To 
minimize loss, we must take a proactive approach when dealing with 
natural catastrophes. We must focus on preparedness and mitigation to 
reduce the loss associated with response and recovery.
    iTEMA is an organization that was created to support Tribes during 
disasters. It was built on the premise of ``Tribes helping Tribes''. 
iTEMA is committed to working with the Federal Government to develop 
and implement these solutions.
    In conclusion, I sincerely appreciate the opportunity to speak 
today and look forward to working together to promote and enhance 
emergency management, response, and recovery throughout Indian Country.
    Thank you and I am open to any questions you may have.

    The Chairman. Jake, thank you for your testimony. I thank 
all the participants on this panel for their testimony.
    Senator Begich?
    Senator Begich. Thank you very much, Mr. Chairman.
    Mary, thank you for coming. I know the trip is long and I 
appreciate you being here. Thank you for your testimony and 
thank you for the work you do with Kawerak and many of the 
tribes there.
    I have a few questions for you. You talked about the storm 
in November 2013 in the Bering Straits and the region. Can you 
provide some examples of work being done in the villages to 
kind of better prepare for future disasters? Along with that, 
can you add how has FEMA worked with you or not with this new 
tribal office?
    Ms. David. It has been a slow process. I think when the 
Immediate Action Work Group work ended back in 2011, I think it 
got even slower. Kawerak recognized that every year we 
continually have fall and early winter storms. To be proactive, 
the State of Alaska has a spring preparedness conference. 
Before that conference began this year, the AFN Council for 
Advancement of Native Americans had a pre-session. That was 
beneficial for the representatives from Kawerak, ABCPNTCC. So 
that type of activity occurred, and another one is planned for 
this fall before AFN begins.
    Senator Begich. Was FEMA a part of that?
    Ms. David. Yes.
    Senator Begich. The State and FEMA and other agencies?
    Ms. David. And other agencies, yes.
    Senator Begich. Very good. So you found that beneficial?
    Ms. David. Yes.
    Senator Begich. And do you know of other trainings or 
activity that you all, from your region or any other region you 
might know of, that utilizes FEMA training?
    Ms. David. No.
    Senator Begich. Is there a way that maybe, sometimes 
communicating or getting information out, especially in Alaska, 
especially rural Alaska, is not as simple as just running a TV 
ad, but are there ways you would recommend for FEMA, especially 
with their new tribal office, to be very proactive in getting 
information out on these training opportunities? For example, 
there was a mention when I was asking the last speaker, in 
regard to how many people participated in FEMA training from 
tribal communities, there was a sizeable amount. But are there 
suggestions you might have on what we could do or we could 
suggest to FEMA on how to communicate to tribes on what is 
available in FEMA for specialized training around emergency 
preparedness and other needs?
    Ms. David. I think it is challenging in rural Alaska, 
because internet connection is very slow. So I think the best 
possible way to communicate is probably through each non-profit 
regional corporation. In our region, each region has a tribal 
coordinator that we employ. So for us in our region, 
communication through Kawerak, through our tribal coordinator 
who works, who is the office support for the tribe, would 
probably be the best way.
    Senator Begich. Do the tribal coordinators get together on 
a regular basis from the other tribes at all, in any kind of 
conference or activity like that? I am just trying to ask you 
this, through you to the administrator behind you. I am trying 
to give her some ideas.
    Ms. David. I think most attend the BIA conference in 
Anchorage.
    Senator Begich. So the BIA conference might be a great 
avenue for the tribal coordinators?
    Ms. David. Yes.
    Senator Begich. You mentioned the Immediate Action Work 
Group. Can you tell me the status of where that is at, active, 
not active?
    Ms. David. It is not active at this time.
    Senator Begich. Who instigates, who would instigate getting 
that back into activity?
    Ms. David. I believe it would be the governor of Alaska.
    Senator Begich. Do you think FEMA might have a role to help 
initiate that?
    Ms. David. Yes, I do. They would play, I believe, an 
important role in that, with that group.
    Senator Begich. And the Immediate Action Work Group you 
found to be beneficial?
    Ms. David. Yes.
    Senator Begich. Because it created communication, right?
    Ms. David. It was.
    Senator Begich. So maybe that is something we could work 
with FEMA on, if the governor is unwilling to do it, maybe FEMA 
might be able to initiate that working group, because the value 
you found for not only your region, but all regions was of high 
value.
    Ms. David. Yes, it was. If I could add a comment?
    Senator Begich. Yes, absolutely.
    Ms. David. So the Immediate Action Work Group was actually 
formed under Governor Palin. She established a climate change 
sub-cabinet and then the Immediate Action Work Group was 
comprised of Federal, State and local officials to come up with 
ways to protect Alaska's most at-risk communities.
    Senator Begich. So that was a sub-group underneath the 
cabinet group?
    Ms. David. Yes.
    Senator Begich. Okay. Because I know the governor has 
eliminated that sub-cabinet meeting on climate change, so 
therefore eliminated that, that working group.
    Ms. David. I believe so.
    Senator Begich. So maybe we could work with you and maybe 
FEMA, and again, I am kind of talking through you to make sure 
FEMA is hearing what I am saying. She is nodding behind you, 
which is a good sign. So maybe that is an opportunity we could 
work on, to have better communication on this.
    Mr. Chairman, the only thing I will add is, I heard a 
couple of times, and I know Mr. Gregory brought it up also, and 
others did, on this threshold of a million dollars. I am 
assuming that has been triggering your mind, too, as something 
of interest of how we make sure we can accommodate potentially 
that issue. It sounds like rural areas, and you asked that 
question earlier about what is causing the problem. Well, this 
may be one of the problems. The number is too large and we 
have, in a small village in Alaska, I can tell you half a 
million dollars would be devastating. Yet we wouldn't reach the 
million dollar threshold, so we are kind of in this quandary. 
So it was really more of a rhetorical question.
    Thank you, Mary, for being here, and thank you for the 
travel.
    The Chairman. Thank you, Senator Begich.
    You are right, that is exactly the line of questioning I 
was going to go down right off the bat, since we had the 
Governor mention it, and again Matt Gregory mentioned it, and 
others too. I will start with you, Matt. I know FEMA makes the 
declaration. The question comes from a couple of different 
perspectives. You talked about how the infrastructure simply 
wasn't there to reach the million dollar threshold. That is a 
problem from your perspective, it is not that they are 
lowballing the amount of damages done, it is just that the 
infrastructure is not there?
    Mr. Gregory. That is correct. In rural communities, a lot 
of the State and counties meet that threshold through the 
infrastructure that they have. So the roads, the utilities and 
those things. For a tribe in Oklahoma, our situations is very 
difficult to reach that million dollar threshold.
    The Chairman. So let me ask you this, just to flesh this 
out a little bit more. You have roads on tribal land, too. Do 
they count toward the threshold? Like a paved road. Now, I will 
admit, oftentimes they are not up to the standard outside 
reservation roads are, and we are going to work on that. But 
the question comes, they are still eligible, right?
    Mr. Gregory. Because we are in a checkerboard situation, a 
lot of those are county and city roads. So there is not 
infrastructure of tribal roads specifically.
    The Chairman. Okay. That is good to know. And as far as 
utilities, if they are owned by the local co-op they can't 
count toward your disaster declaration?
    Mr. Gregory. That is correct.
    The Chairman. Thank you.
    Governor Chavarria, Santa Clara has had its share of 
disasters, it would be fair to say, more than its share of 
interactions with FEMA and other Federal agencies, too, that 
respond to disasters. You suffered four major wildland fires, 
correct me if I am wrong.
    Governor Chavarria. That is correct.
    The Chairman. The Las Conchas Fire burned over 50 percent 
of your watershed.
    Governor Chavarria. That is correct.
    The Chairman. And that resulted in severe flooding. You 
made some recommendations based on what you have been through. 
What is your highest priority for changes that would make the 
Federal Government work better in protecting lives and property 
for your people?
    Governor Chavarria. It would be to quickly obligate those 
dollars.
    The Chairman. By that you mean the money for funding?
    Governor Chavarria. Project worksheets that identify the 
direct disaster. We are already a year, almost a year into it, 
and we still haven't got the majority of our funds for larger 
projects, because it has to go through a quality assurance, 
quality control process before those funds are actually 
obligated or bundled through this system, then we can start to 
utilize those dollars. That is the quick need for us in Santa 
Clara, to really get that dollar tomorrow and not wait until 
the following year.
    The Chairman. I believe this past April you testified in 
front of the House Appropriations Interior Subcommittee that 
the Army Corps is recommending construction of a dam within the 
canyon, correct?
    Governor Chavarria. That was at that time, but it is no 
longer feasible.
    The Chairman. Why is that?
    Governor Chavarria. Because they couldn't find a solid 
foundation to anchor all that foundation. They did some 
drilling and they couldn't find bedrock.
    The Chairman. So that is off the table but it still remains 
a problem?
    Governor Chavarria. It is off the table. They admitted that 
the flooding still exists, but they used advanced measures 
program to now look at temporary types of measures for gabling 
check structures. Also dredging the channel within the 
community to give it capacity and also do some Hesco baskets 
along some earthen berms, and then armoring those earthen 
berms.
    So being that we didn't get the larger $40 million dam 
project which is more of a permanent type of structure, we have 
now looked into temporary type measures. The kicker there is on 
a permanent, we would have had a 25 percent cost match. On 
these temporary measures, it is being fully absorbed through 
the Corps of Engineers advanced measures program.
    The Chairman. Okay. Ms. Metcalf, thank you for being here. 
I appreciate your testimony.
    It was brought up earlier by Senator Cantwell about the 19 
days that it took for FEMA to make a declaration of an 
emergency. Do you have an explanation for that delay?
    Ms. Metcalf. What we were told, why they wouldn't accept 
the declarations we would send in, is the terminology didn't 
fit for requesting an emergency declaration.
    The Chairman. Did they say how the terminology didn't fit?
    Ms. Metcalf. No. It was just change it to this, change it 
to that. I think one of the biggest problems is the lack of 
coordination. There were so many people talking, there were so 
many different people showing up, all from FEMA.
    The Chairman. So there wasn't a point person for FEMA? Or 
there wasn't a point person from the tribe?
    Ms. Metcalf. The point person from the tribe was the 
chairman.
    The Chairman. So there wasn't a point person from FEMA?
    Ms. Metcalf. No. Different people came all the time.
    The Chairman. Okay. You also in your testimony talked about 
gas cards that were provided to residents of Darrington but not 
to tribal members.
    Ms. Metcalf. Yes.
    The Chairman. Why is that?
    Ms. Metcalf. We are really not sure. When our tribal 
members would go stand in line, they would wait two hours in 
line like everybody else for gas cards, and they were told that 
they didn't fit the criteria for the gas cards.
    The Chairman. And that was it?
    Ms. Metcalf. That is all we were told.
    The Chairman. Okay. You talked about the checkerboard, Mr. 
Gregory, as far as the declaration goes. I want to go a 
different way with it. Your checkerboard landscape means that 
there is a lot of non-Indian local government that you have to 
interact with. How do you do that? What is your best way of 
interacting with basically non-Indian local governments?
    Mr. Gregory. I think we do that in several ways. We do that 
by attending the county meetings, the city meetings, working 
with the emergency managers for the ten and a half county area. 
We also do planning, we do disaster planning, we invite them to 
be part of our planning, our tabletops that we have done. We 
have invited the community out to do those planning sessions 
with us.
    But it also is about, we are community. And the city and 
the towns and the county governments are all part of our 
family, we consider. So we work directly with those. We also 
are part of the State, Oklahoma State Department of Emergency 
Management.
    The Chairman. So you are fully integrated into all the non-
Indian entities?
    Mr. Gregory. We are, and we try to do a better job. There 
is still work to be done there.
    The Chairman. And they into you?
    Mr. Gregory. Yes, for the most part, yes.
    The Chairman. Okay good. That is good.
    Mr. Heflin, you mentioned iTEMA's efforts to provide 
additional resources to tribes. What is first on your agenda in 
that regard?
    Mr. Heflin. I think at a certain point, the question is 
access. We have heard today that there are inconsistencies as 
far as who to call, how do we get hold of somebody to help. 
Where do we make that first call, and there is inconsistent 
support depending upon the person they are talking to.
    For us as an organization, we identified that that was a 
critical need. So we established a toll-free number to push out 
to Indian Country to help provide that assistance, so there was 
one number to help call for a national organization to provide 
some preliminary guidance and discussion and also make the 
contact to the corresponding Federal agencies that would have 
involvement in that, with the support of the TAC-G or the 
Tribal Assistance Coordination Group. For us, that was the 
solution to that, because there was such an issue with that, we 
started noticing throughout Indian Country.
    The Chairman. I just want to say, I have more questions 
that we will get out to you guys. I want to thank you for 
making the trip. I want to thank you for what you do, each and 
every one of you. I want to thank Ms. Zimmerman for staying 
here for the hearing from FEMA to listen to the concerns. I 
think if there is one thing that this hearing has pointed out 
to me is that there is plenty of opportunity for improvement 
here. I think a lot of it has to do with communication. Maybe 
we have to tweak the million dollar threshold as it applies to 
Indian Country, because you are right, a lot of Indian Country, 
that infrastructure isn't there, or maybe we need to figure out 
how to allow some of the infrastructure we don't count to 
count.
    I don't know the best way to go about it, but I can 
guarantee you one thing. If we all work together, we will 
figure it out. FEMA has to be a part of that equation.
    So I want to thank all of you again for your testimony. 
This hearing is going to remain open for two weeks from today 
for any further comments people want to put in.
    With that, the hearing is adjourned. Thank you again.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]
                            A P P E N D I X

    Prepared Statement of Hon. Brian Cladoosby, President, National 
                      Congress of American Indians
    Honorable Chairman Tester, Vice Chairman Barrasso, and members of 
the Committee, on behalf of the membership of the National Congress of 
American Indians, the oldest and largest national tribal government 
advocacy organization in the country, I appreciate your efforts in 
conducting this oversight hearing. This follow up to the hearing three 
years ago, titled Facing Floods and Fires: Emergency Preparedness for 
Natural Disasters in Native Communities, is well-timed as much has 
happened to call attention to the great needs for financial and 
technical assistance as tribes seek to enhance emergency management 
capacity.
Amendments to the Stafford Act
    For decades the Federal Emergency Management Agency has been a 
state-centric organization and changing the course of the overall 
agency has proved difficult in the last few years but limited progress 
has been made in improving consultation with tribal governments. On 
January 29, 2013 President Obama signed the Sand Recovery Improvement 
Act. I thank the Committee for supporting this monumental legislation 
to allow tribal nations to directly request disaster assistance for an 
emergency or disaster from the Federal Government without having to go 
through another sovereign government. I also thank FEMA Administrator 
Craig Fugate for his willingness to support and advocate for tribal 
declaration authority.
    FEMA is currently finalizing its proposed Tribal Consultation 
Policy and seeking comments for the Tribal Declarations Pilot Guidance. 
Indian Country leaders hope that administrative policy changes will 
reflect tribal comments. For instance, Committee Members are well aware 
of the disparate economic and demographic situation throughout Indian 
Country which makes it extremely difficult for tribal jurisdictions to 
meet the Stafford Act damages threshold. The result is that tribal 
governments and citizens in impoverished areas suffer 
disproportionately as they do not have the financial means to recover 
from disaster losses. We hope that FEMA will adopt a favorable formula.
Indian Country Disasters
    The recent wildfire at Santa Clara Pueblo, mudslide at Sauk 
Suiattle, flooding at Quinault, and hurricane damage at Shinnecock, 
reinforces that fact that tribal communities have differing levels of 
preparedness and response capability. Emergency situations and 
disasters in Indian Country require unique types of assistance for 
response from the Federal Government. Pre-disaster communication and 
outreach by FEMA headquarters and regional officials with tribal 
government officials must occur. On the tribal side, if they have not 
done so, tribal emergency management directors should be identified and 
communicate with FEMA and other federal emergency management officials.
FEMA Staffing
    At this Committee's last hearing on Indian Country disasters, 
Administrator Fugate provided testimony that FEMA ``hired ten new 
permanent, full-time employees as Intergovernmental Tribal Affairs 
Specialists to work out of each of the FEMA Regions'' and that ``FEMA 
also hired an attorney within the Agency's Office of Chief Counsel 
(OCC) who is trained and experienced in Federal Indian Law.'' While 
both of these efforts were worthwhile and helped strengthen the 
federal-tribal government-to-government relationship between the 
executive and the tribes, it is unclear that the infrastructure 
Administrator Fugate described in 2011 is still in place.
    In some FEMA regions Regional Tribal Liaisons (RTLs) concentrate 
full-time on tribal issues. In other regions RTLs are said to dedicate 
half of their time to tribal issues, but it is our understanding that 
it is a rarity for an RTL to spend 50 percent of their time on tribal 
issues. We recommend that the Committee request the FEMA Administrator 
to provide a detailed staffing and organization plan of tribal affairs 
personnel and the reporting structure at HQ and FEMA Regions.
    In evaluating all aspects of FEMA's Indian Policy efforts it might 
be useful for the Committee to direct the Government Accountability 
Office to look at all of FEMA's tribal relations programs for 
implementation as well as consistency in staffing and productivity.
Federal Grant Funding
    In the Implementing the Recommendations of the 9/11 Commission Act 
of 2007 the Congress established eligibility for Indian tribes for 
homeland security grant funding. While crafting this legislation 
Congress wanted to ensure that funding was allocated with a risk-
assessment methodology. This methodology created two classes of 
federally recognized Indian tribes, those that are directly eligible 
for federal funding and those that are not. FEMA recently adopted a 
Threat and Hazard Risk Identification and Analysis process to apply 
this risk evaluation so there is no longer a need for two classes of 
tribes. All tribes should be eligible to apply and their applications 
should be evaluated on their merit.
    Since 2003 Congress has appropriated over $630 million per year for 
homeland security and emergency management grants and programs to 
states, locals, non-profits, and even the private sector. A 2011 report 
showed that up to that time the country has spent over $630 billion 
SINCE 9-11. During this same timeframe, the best I can tell is that 
FEMA has allocated less than $40 million to Indian tribes for the same 
purposes. State Homeland Security grants totaling $355 million were 
awarded to 56 states and territories in FY 2013, an average of $6.3 
million per state. That same year 28 tribes received $10 million for an 
average of $.35 million per tribe. Inequitable homeland security 
funding to tribes is shameful and wrong.
    Hazard Mitigation Grant Program provides funding for implementing 
long-term post disaster mitigation measures to reduce loss of life and 
property in future disasters. The HMGP guidelines were designed for 
tribes with significant infrastructure and capability. Whether tribes 
are grantees or sub-grantees, there needs to be flexibility for tribes 
to utilize HMGP for developing and completing hazard mitigation plans 
and for purposes beyond the current guidelines, possibly on a case by 
case, tribe by tribe basis.
    FEMA has devolved some of its federal grant responsibility to 
states and requires tribes to request funding through states which 
results in increased burdens on tribes to develop capability. There are 
many federal grant processes, for which tribes are not eligible, that 
require legislative or administrative fixes. Some states place 
additional mandates on Indian tribes as a sub-grantee such as HMGP 
funding. The NCAI urges the Committee to request the Congressional 
Research Service to review all necessary legislative changes and 
provide recommendations to remedy situations in which FEMA is devolving 
its responsibility or where the law does not provide that Indian tribes 
are eligible applicants.
Federal Coordinating Officers and Joint Field Offices
    FEMA maintains a standing roster, or cadre, of about forty-five 
Federal Coordinating Officers who have undergone an agency-wide 
certification program to prepare them for all-hazard events including 
terrorism and weapons of mass destruction. FCOs must participate in 
actual disaster response or full-scale exercises as part of the 
certification program. FCOs are not required to have any familiarity 
about basic tribal government operations and functions. Only a few FCOs 
have undergone any type of Indians 101 training, but according to our 
information, those who have undergone such training have performed well 
in assisting tribal communities for which they are responsible in 
disaster situations. This Committee can help by sending a message to 
FEMA to develop an FCO course in tribal relations that includes 
interaction with the DHS and DHS-FEMA HQ Tribal Liaisons.
    A Joint Field Office is a multiagency center that facilitates 
incident management during actual or potential situations including 
incidents that require a coordinated federal response. Only recently 
have some FCO's invited tribal officials into the unified coordinating 
JFO structure. Instead of waiting for disaster situations, FCO's should 
reach out to and actively communicate with tribal officials and 
automatically include tribal officials in the JFO during a Presidential 
Disaster Declaration.
Tribal Cadre of Disaster Assistance Employees
    Disaster Assistance Employees (DAE) are temporary FEMA employees 
who work in a disaster zone that can be deployed from a few weeks to 
several months depending on the area and gravity of a disaster. Among 
the duties of DAEs is to contact tribal officials and apprise them of 
recovery programs and eligibility requirements as well as assist in 
filling out and submitting required paperwork. Native peoples' cultural 
and other differences are better understood by another Native person 
who would be able to better interact and respond to questions coming 
from or related to tribal community members. Indian Country would 
benefit greatly if FEMA would institutionalize a formal qualified 
tribal DAE cadre. The NCAI requests that this committee urge FEMA to 
establish the tribal DAE cadre.
FEMA--Emergency Management Institute
    The NCAI passed a resolution (#TUL-13-046) following passage of the 
Stafford Act tribal amendment calling for appropriate consultation, 
collaboration, and training of tribal leaders and emergency management 
officials regarding promulgation of the Act, which recognizes tribal 
sovereignty. FEMA's Emergency Management Institute (EMI), in 
collaboration with tribal emergency management specialists, has 
developed courses to assist tribal government officials in emergency 
management planning. The unique courses contain tribal cultural, 
governance, and jurisdictional implications. Tribes are in need of 
experienced tribal emergency managers to assume Stafford Act disaster 
declaration responsibility. We ask the Committee Members to seek 
budgetary support of not less than $500,000 annually for onsite and 
field delivery of greatly needed and cost effective training.
Other Recommendations
    Tribes have not been invited to testify at other congressional 
committees regarding disasters and emergency preparedness and when FEMA 
testifies before other committees we do not hear tribal issues being 
highlighted or even mentioned. We hope members of this Committee will 
assist in ensuring that tribes will be included in all hearings 
regarding this important topic.
    We urge the Committee to request the Congressional Research Service 
to report on the possible legislative actions related to tribal 
emergency management that the Congress should consider. Specifically 
the CRS should evaluate the Stafford Act and the Sandy Recovery and 
Improvement Act and recommend changes for tribal participation and 
consider whether separate tribal disaster laws are needed.
In Closing
    At this 2011 hearing on disasters in Indian Country, Committee Vice 
Chairman Barrasso stated, ``Often we don't pay much attention to the 
need for emergency preparedness until after there is a disaster, but 
the risk of one form or another of natural disaster in Indian Country 
is not theoretical and, as we can see, it is real, and Indian 
communities need to be prepared to deal with this reality.'' This 
statement, unfortunately, is still accurate. The National Congress of 
American Indians thanks the Committee for looking into this vital topic 
and for the opportunity to submit our statement. We look to the 
Committee to lead Indian Country into an enhanced state of emergency 
preparedness which will benefit citizens of tribal communities as well 
as our nation as a whole.
                                 ______
                                 
 Prepared Statement of Hon. Jo-Ellen Darcy, Assistant Secretary of the 
                           Army (Civil Works)
    Chairman Tester, Ranking Member Barrasso, and Members of the 
Committee, I am Jo-Ellen Darcy, Assistant Secretary of the Army (Civil 
Works). Thank you for the opportunity to provide a Statement for the 
Record, discussing the Army Corps of Engineers (Corps) response to 
natural disasters in Indian Country. The Corps prepares for and 
provides timely, consistent, and efficient execution of response and 
recovery operations for flood and other natural disasters to save 
lives, protect property and the environment, and to meet basic human 
needs. The Corps provides this support to State, Tribes and local 
governments under Public Law 84-99 and supports FEMA under the Stafford 
Act, as amended.
    Public Law 84-99 authorizes the Chief of Engineers, acting through 
the Secretary of the Army, to undertake activities including disaster 
preparedness, Advance Measures, emergency operations (flood response 
and Post Flood Response), rehabilitation of flood control works 
threatened by or destroyed by flood, protection or repair of federally 
authorized shore protective works threatened or damaged by coastal 
storms, provision of emergency water due to contaminated sources, and 
drought assistance. With the single exception of drought assistance, 
which is due to the specific language of the statute, Tribal Nations 
can, and do, request and receive assistance under PL 84-99 from the 
Corps.
    The Stafford Act (Public Law 93-288, as amended), constitutes the 
statutory authority for most Federal response activities, especially as 
they pertain to FEMA and FEMA programs. In accordance with the Stafford 
Act, FEMA may direct the Corps to utilize its available personnel, 
supplies, facilities, or other resources to provide assistance in the 
event of a major disaster or emergency declaration. The Department of 
Defense has designated the Corps as the planning and operating agent 
for Emergency Support Function #3, Public Works and Engineering, under 
FEMA's National Response Framework (NRF). FEMA's NRF provides guidance 
for the Nation's all-hazards response, and identifies key 
organizational response principles, roles, and structures.
    The Stafford Act was amended in the Sandy Recovery Improvement Act 
of 2013 (Public Law 113-2), to provide federally recognized tribal 
governments the choice to request emergency and major disaster 
declarations. This allows FEMA, and other Federal agencies as directed, 
to provide assistance to tribal governments independently of state 
declarations. I'm going to share a few examples of support that the 
Corps has provided to Tribal Nations in response to natural disasters.
    Last April, the Saint Regis Mohawk Tribe was affected by flooding 
in Franklin and St. Lawrence Counties. A small dam at Saint Regis Falls 
in Waverly, NY had breached, spilling water onto Tribal lands, 
inundating roads and requiring the evacuation of 10-12 homes. The Tribe 
had used all of their available sand bags and was in need of additional 
sand bags. The Tribe contacted one of the Corps tribal liaisons, and 
from there the Corps Buffalo District contacted the Tribe. Arrangements 
were made within the hour for the Tribe to pick up a supply of sandbags 
at a Corps' storage facility located about 100 miles away.
    The Quinault Indian Nation live, hunt, and fish on the same land 
and waters as their ancestors did centuries ago. Three Indian 
reservations of the Quinault Indian Nation, the Quinault, Hoh Indian 
Tribe and Quileute Tribe, are located on the Washington coast. All 
three villages are located at sea level and at the confluence of major 
rivers. In the summer of 1993, the Corps Seattle District developed a 
list of environmental triggers, that when reached, would indicate 
imminent flooding, thereby threatening historic villages and heavily 
populated areas occupied by Tribal elders and others who may be 
reluctant to leave their ancestral homes, even temporarily. When teams 
for this coastal area conducted exercises in the late summer of 2013 to 
prepare for flood season, they had these triggers in hand and were able 
to develop a preferred course of action during a potential flood event. 
This pre-planning paid off when these triggers were met in January 2014 
by a flood event caused by a combination of high tides, high winds, 
storm surges and heavy rain that overwhelmed Tribal capacity. All three 
tribes requested Corps assistance; the Quinault Nation issued a 
disaster declaration and requested Corps assistance. Three crews 
provided by the Corps were dispatched over a two-day period to provide 
technical expertise and assist in the reinforcement of the damaged, 
existing seawall. The overtopped and damaged seawall was quickly shored 
up with the addition of 800 tons of riprap rock, and the lower village 
of Taholah and the risk of flooding to its residents was greatly 
mitigated.
    In 2011 during the Las Conchas Fires, the largest wildfire at that 
time in the history of New Mexico's, and the Pacheco Fires, the Corps 
Albuquerque District began emergency response activities at the request 
of numerous communities, including the Pueblos of Nambe, Santa Clara, 
San Ildefonso, Cochiti, Santo Domingo, Jemez and Acoma. The Albuquerque 
District provided both technical and direct assistance under PL 84-99, 
with particular focus on the most severely impacted Tribal communities, 
the Pueblos of Santa Clara, Nambe and Cochiti. During the fall of 2011, 
the Corps developed Technical Assistance Reports identifying increased 
post-fire flood risk and suggested mitigation for both Santa Clara and 
Cochiti Pueblos.
    In 2012, the Corps responded to assistance requests from numerous 
communities in New Mexico and Colorado in response to that year's 
extensive wildfire season, which included the Whitewater-Baldy Complex 
and Waldo Canyon Fires. The Corps Albuquerque District continued to 
support both the Nambe and Cochiti Pueblos with individual Technical 
Assistance Reports and the Santa Clara Pueblo through the Corps Section 
203 Tribal Partnership Program.
    In 2013, in addition to ongoing and technical support under PL 84-
99, the Albuquerque District completed the Technical Assistance Report 
for the Pueblo of Nambe and initiated Section 205 Small Flood Risk 
Management Projects with the Pueblos of Santa Clara and Cochiti. 
Significant flooding occurred across New Mexico in the Fall of 2013 
that resulted in numerous assistance requests including, Ohkay Owingeh, 
the Pueblos of Santa Clara, San Ildefonso, Nambe, Cochiti, Santo 
Domingo, San Felipe, Santa Ana, Acoma, Zuni, and Isleta, the Navajo 
Nation including Window Rock, Red Lake Chapter, Gadiiahi, Chinle, Many 
Farms, and Dilkon Chapters as well as Piute Creek Bridge in Utah. This 
year, the Corps met with Governor Chavarria from the Pueblo of Santa 
Clara to explore feasible measures to help mitigate flood risk 
potential. PL 84-99 Advance Measures funds have been provided to the 
Corps Albuquerque District to implement physical emergency measures in 
the near-term, and the district continues to develop longer-term 
solutions to augment ongoing flood risk reduction efforts. Near-term 
measures include emergency excavation to create additional stream 
channel capacity, installation of innovative flood barrier fight 
products (HESCO bastions), armoring of existing diversion berms and 
embankments, and the construction of gabion check structures.
    In mid-June 2014, the Asaayi Lake Wildfire burned over 14,000 
acres, most of which are on the Navajo Nation reservation on the 
Arizona-New Mexico border. Drainage from the burned area, in the Chuska 
Mountain watershed, channels into four communities, Sheep Springs, 
Naschitti, Crystal, and Navajo. Chapters within the Navajo Nation began 
to experience increased sediment and debris flows almost immediately. 
The Navajo Nation Department of Emergency Management contacted the Army 
Corps of Engineers and requested technical assistance. The assistance 
provided includes modeling and inundation data based on the denuded 
watersheds, assistance in developing a flood fight plan for the short 
term (current monsoon season), training in flood fight techniques, and 
similar measures to help protect lives and property. In addition, the 
Corps is preparing its own contingency plan to assist the Navajo 
Nation, if requested, in any future active flood fight activities. The 
Navajo Nation has also expressed interest in developing a flood risk 
Continuing Authorities Program project based on the 2013 assessment at 
Window Rock.
    Under the National Disaster Recovery Framework, the Corps and other 
Federal agencies work together under FEMA direction to respond to a 
disaster and help in the recovery effort. Tribes with previous 
experience in disaster response are often better equipped to benefit 
from the range of available forms of Federal assistance. Tribes facing 
a catastrophic event for the first time may be quickly overwhelmed by 
the complex information and the different sources of potential 
assistance that may be available from the Federal Government. The most 
effective method to address this concern is targeted outreach, 
education and training for Tribal governments.
    The Corps is making progress in this regard through its cadre of 
District Tribal Liaisons. The Corps is working to expand Liaison 
training in USACE emergency response authorities, programs and 
policies. In addition, the agency is developing appropriate 
informational material tailored for distribution to tribal governments, 
and is placing additional emphasis on partnering with Tribal 
departments of emergency management, including increased use of the 
Silver Jackets Program. This program is a State- or Tribal-led 
interagency partnership to coordinate response, recovery and mitigation 
activities and actions and helps achieve the Corps' goal of flood risk 
reduction for communities. The Corps has also been coordinating closely 
with FEMA on interagency cross-training and assignment opportunities to 
increase the value of the respective Tribal Liaisons resources when 
facing crisis in Indian Country.
    One of the major lessons learned working with Tribal Emergency 
Response has been the value of the Corps technical assessments and 
reports Tribes are using assessments and the more detailed Technical 
Assistance Reports as the basis for applications to other sources of 
federal and non-federal assistance. Technical Assistance Reports 
typically include fast-track flood risk analysis, mitigation 
alternatives evaluation and preferred alternative selection, as well as 
projected costs for implementation. Their level of detail and 
organization are being well received, and even requested, as 
substantive justification for proposal packages.
    Mr. Chairman, this concludes my statement of record. Thank you 
again for the opportunity to provide this statement.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jon Tester to 
                          Elizabeth Zimmerman
    Question 1. How are tribes being, or have been engaged, to mold 
FEMA's Indian policy? Does that process honor the government-to-
government relationship?
    Answer. FEMA is committed to enhancing its government-to-government 
relationship with federally recognized Indian tribes. It is in the 
spirit of this commitment that FEMA developed the Tribal Consultation 
Policy to implement Executive Order 13175, as a complement the U.S. 
Department of Homeland Security's Tribal Consultation Policy, to 
further guide our efforts. Signed by Administrator Fugate on August 12, 
2014, the Tribal Consultation Policy provides the guidelines for 
meaningful, regular, and transparent consultation with tribal officials 
on FEMA actions that have tribal implications, and enhances FEMA's 
government-to-government relationship with Indian Country. The policy 
directly lays out the methods by which FEMA will interact with tribes 
regarding changes to policies and programs.
    FEMA received valuable input from tribes in the development of the 
Tribal Consultation Policy, consulting with tribes from October 2013 
through March 2014. During that time, FEMA presented the policy at 
conferences, in-person tribal meetings, and listening sessions, and on 
webinars and conference calls. FEMA received many written comments from 
tribes, and they are summarized on FEMA's website. FEMA also looked to 
tribal consultation policies of other agencies, such as the 
Environmental Protection Agency, to glean best practices and promote 
consistency in consultation methods and engagement across the Federal 
Government.
    As FEMA implements the Tribal Consultation Policy, its National 
Tribal Affairs Advisor (NTAA) is meeting with FEMA program offices to 
highlight the critical elements of the consultation policy and advise 
programs on the need to engage tribes when undertaking actions that 
could have tribal implications. FEMA's consultation approach will seek 
tribal input and provide tribes the opportunity to request consultation 
earlier in the process of policy and program development. The FEMA 
Tribal Consultation Policy respects the government-to-government 
relationship by seeking input from tribes on how and with whom to 
consult. FEMA seeks to honor tribes as sovereign nations by placing 
strong emphasis on enabling tribes to guide the methods of 
consultation.
    Additionally, FEMA leadership holds a monthly conference call with 
the four largest tribal associations--National Congress of American 
Indians (NCAI), Tribal Emergency Management Agency (iTEMA), National 
Tribal Emergency Management Council (NTEMC), and United South and 
Eastern Tribes (USET)--to provide them with program and policy updates. 
FEMA anticipates that the associations will in turn push out the 
information to their various members from the 566 federally recognized 
tribes. This is a useful tool for tribes to learn about potential 
changes to policies or programs, in addition to being a vehicle for 
FEMA to provide important information about programs, grants, and 
policies that could be of use to tribes and tribal officials.
    On an operational level, tribes, tribal officials, and tribal 
associations have been consulted and significantly involved in 
developing the Tribal Declarations Pilot Guidance. On January 29, 2013, 
President Obama signed the Sandy Recovery Improvement Act (SRIA) into 
law. In recognition of the government-to-government relationship, the 
Act included a provision to provide federally recognized Indian tribal 
governments the option to request a Presidential emergency or major 
disaster declaration independent of a state declaration request. In 
order to allow tribes the choice to use the new authority immediately, 
FEMA is currently processing tribal declaration requests using the 
current regulations used for state requests, while at the same time 
developing declarations procedures specifically for tribal governments 
that take into account the unique circumstances that affect tribal 
communities.
    As a first step in developing tribal-specific procedures, FEMA 
developed a first draft of the Tribal Declarations Pilot Guidance, 
which incorporated initial input from tribal governments that was 
collected in early 2013. Then, beginning in April 2014, FEMA conducted 
a second, more in-depth round of consultation with tribal governments 
through 60 in-person working meetings that occurred throughout the 
country, attended by more than 500 participants representing more than 
200 tribes. During this tribal consultation open comment period, which 
ended on August 31, FEMA asked tribal governments for their thoughts 
and comments on a working draft of the Tribal Declarations Pilot 
Guidance. FEMA is currently adjudicating the comments, and the input 
will inform the further development of the pilot guidance. FEMA will 
conduct a second round of consultation before the pilot guidance is 
finalized. When final, the guidance will describe how FEMA processes 
and evaluates requests for assistance under the Stafford Act from 
tribal governments.

    Question 2. What is FEMA doing to educate and train FEMA field and 
project officers about tribal nations and sovereignty?
    Answer. FEMA created a Tribal Branch within the Office of External 
Affairs/Intergovernmental Affairs Division as a reflection of the 
importance of having tribal affairs coordinated under a structure 
distinct from one that coordinates other governmental stakeholders. 
This branch is led by FEMA's National Tribal Affairs Advisor and 
supported by two additional full-time employees working within the 
branch, which significantly increases the ability of FEMA headquarters 
to focus on tribal issues.
    FEMA regularly looks for opportunities to educate employees. For 
example, as part of Native American Heritage Month, FEMA hosted an 
internal event featuring U.S. Department of Agriculture Deputy Under 
Secretary Arthur ``Butch'' Blazer, and Bureau of Indian Affairs 
Director Michael Black. Mr. Blazer and Mr. Black educated FEMA 
participants about Native Americans' contribution to public service, 
their experiences as Native Americans in the Federal Government, and 
their insights on governmental interaction with tribes. This follows 
FEMA's first agency-wide seminar for Native American Heritage Month in 
2013.
    During disaster field operations that impact tribal communities, 
Joint Field Offices offer training for FEMA field and project officers 
about tribal nations and their unique emergency management needs with 
regard to tribal culture, tradition, sovereignty, and governance. A 
regional tribal liaison also deploys to the disaster site to assist 
both the tribe and FEMA employees who will be working with the tribe.
    The Emergency Management Institute (EMI) delivers tribal curriculum 
courses for tribal officials both online and face-to-face. The tribal 
curriculum courses are delivered by a team of instructors, some of whom 
are tribal members themselves, who are carefully selected for their 
extensive experience working for a tribal government in emergency 
management. While targeted for tribal audiences, these courses are also 
often attended by federal employees seeking more in-depth knowledge 
about tribal emergency management. EMI also offers an online 
independent study class on Tribal Affairs that is targeted for and open 
to any current FEMA employees.
    FEMA is hosting an ongoing series of Tribal Consultation Policy 
webinars to educate FEMA employees on how to engage with Indian tribes 
and tribal officials in regular and meaningful discussion and 
collaboration on agency actions that have tribal implications.

    Question 3. The intergovernmental relations between the CCT, DHS/
FEMA, and federal agencies needs fine tuning regarding on-reservation 
funding streams and disaster response. Federal programs established at 
Rocky Boy's prior to the time of disaster were accessed for short-term 
emergency response funding. The mechanism needs to be refined to 
address reimbursement, cost sharing, alternative federal resources, and 
the interplay with insurance pay-out. How can FEMA's individual 
assistance program be leveraged to assist tribal members who don't 
qualify for the public assistance program?
    Answer. FEMA recognizes that communities, including tribal nations, 
face significant and complex challenges after disasters.
    FEMA's Individual Assistance Program provides financial assistance 
to individuals and households that have unmet, disaster-related needs. 
One program available under Individual Assistance is Individuals and 
Households Program, which may provide Housing Assistance and/or Other 
Needs Assistance.
    Housing Assistance may include: (1) financial assistance to renters 
or homeowners for lodging or rental expenses while repairs are made to 
the pre-disaster primary residence; (2) financial assistance to 
homeowners to repair disaster-related damage not covered by insurance; 
and (3) direct temporary housing when disaster survivors cannot make 
use of financial temporary housing assistance due to a lack of adequate 
alternate housing. Other Needs Assistance may include (1) financial 
assistance to pay for disaster-related medical or dental expenses; and 
(2) financial assistance to pay for expenses incurred for a death due 
to the disaster.
    Public Assistance provides reimbursement to tribal, state, 
territorial, and local governments and certain private non-profits to 
repair infrastructure. Public Assistance does not provide financial 
assistance directly to individuals; and Individual Assistance does not 
provide assistance to repair infrastructure.
    The Stafford Act requires a non-federal cost share for Public 
Assistance and the Other Needs Assistance provision of Individual 
Assistance. The Stafford Act does not require a non-federal cost share 
for temporary housing assistance. It is important to note that the 
statute prohibits FEMA from duplicating benefits provided by other 
sources, such as assistance from other Federal agencies or benefits 
from insurance. FEMA has established a sequence of delivery to provide 
Public Assistance and Individual Assistance to eligible applicants as 
expeditiously as possible while not duplicating benefits or services.
    FEMA developed a pocket guide to help federally recognized tribes 
quickly reference information about FEMA programs and how the agency 
engages with tribes. \1\ It also describes disaster assistance provided 
by other federal agencies, such as the U.S. Small Business 
Administration (SBA). SBA provides low-interest loans to homeowners, 
renters, businesses of all sizes, and private, nonprofit organizations 
that suffered uninsured or underinsured losses from a declared 
disaster.
---------------------------------------------------------------------------
    \1\  Pocket guide is available at: http://www.fema.gov/media-
library-data/1414163004909-18662df46f3a3c28f51c1c5b7a209358/
FEMA_Pocket_Guide_508_Compliant.pdf 
---------------------------------------------------------------------------
    FEMA continues to develop tools to assist state, tribal, 
territorial, and local governments organize and coordinate their own 
recovery efforts based on the core capabilities outlined in the 
National Disaster Recovery Framework. If warranted by the needs of the 
event, tribal governments may request that the Federal Government use 
the National Disaster Recovery Framework to support the coordination of 
federal agencies and other sources of recovery assistance, such as non-
governmental organizations or state, local, tribal, or territorial 
governments.

    Question 4. What strategies are in place, or are being developed, 
to strengthen the tribal intellectual capacity to successfully 
administer FEMA's public assistance policy?
    Answer. The Emergency Management Institute delivers a Tribal 
Curriculum of courses in a classroom setting for tribal officials, and 
makes other training available to tribal leaders that is online or 
face-to-face. The Tribal Curriculum courses are delivered by a team of 
instructors, the vast majority of whom are tribal members themselves, 
who are carefully selected for their extensive experience working for a 
tribal government in emergency management. Based on our admissions 
records, from the beginning of FY 2011 through mid-July 2014, 1,228 
tribal government representatives from 173 different tribes have 
attended the Tribal Curriculum courses.
    Secondly, each FEMA Region with federally recognized tribes has a 
tribal liaison who works directly with tribes before and after Stafford 
Act declarations. The tribal liaisons build relationships with tribes 
and coordinate trainings on Stafford Act programs and processes. As 
many tribes may not be familiar with disaster assistance programs and 
related requirements, FEMA is developing tools (such as the recently 
released Tribal Pocket Guide) to help tribal governments better 
understand FEMA's programs, including the public assistance program.
    Finally, FEMA Regions provide hands-on workshops on preparedness, 
response, recovery, and mitigation that help tribes better understand 
Stafford Act disaster assistance programs and related requirements. 
Additionally, Regions provide technical assistance to tribes on 
continuity of operations plans, emergency operations plans, hazard 
mitigation plans, and the Threat and Hazard Identification and Risk 
Assessments process so the tribes will understand their risks, estimate 
capability requirements, be better prepared for disasters, and be ready 
to administer disaster assistance.

    Question 5. What guidance does FEMA need from tribes to develop 
extensive training and orientation for all new tribal grantees?
    Answer. FEMA understands that each tribe is unique and has 
individualized needs and knowledge levels.
    Therefore, to gain further understanding of tribal needs, FEMA's 
headquarters staff and regional tribal liaisons throughout the country 
are engaging extensively with tribes. Our regional components engage 
the tribes with the intent to form lasting relationships that allow 
candid conversations about education and training needs.
    In response to requests from tribes, FEMA is increasingly bringing 
training courses to the tribes on their lands or in their region (as 
opposed to bringing tribes to the training), thereby making it more 
accessible and tailoring it to their needs.
    The building of these personal and professional relationships 
continues to grow from FEMA's increasing tribal engagement, such as the 
enactment of the Tribal Consultation Policy, the hiring of the National 
Tribal Affairs Advisor and Tribal Branch staff, and dedication to 
outreach and engagement. For example, since April 2014, FEMA's National 
Tribal Affairs Advisor has conducted face-to-face meetings with 24 
tribes around the country from Florida to Alaska, and attended six 
major tribal conferences.
    Also at the request of tribes, FEMA is also working with our Grants 
Program Directorate to provide better technical assistance, educational 
materials, and engagement opportunities for tribal officials regarding 
FEMA grant opportunities. By connecting the senior leadership 
responsible for grants programs directly with tribal officials and 
tribal national association leadership, FEMA is further distributing 
important information about funding opportunities and training in 
Indian Country. FEMA alerts tribes to grant opportunities through 
advisories and offers guidance through outreach materials.
    FEMA Regions provide hands-on workshops on preparedness; response, 
recovery, and mitigation, and those workshops help tribes better 
understand Stafford Act disaster assistance programs and related 
requirements. Additionally, FEMA Regions provide technical assistance 
to tribes on continuity of operations plans, emergency operations 
plans, hazard mitigation plans, and the Threat and Hazard 
Identification and Risk Assessment (THIRA) process so the tribes may be 
able to understand their risks, estimate capability requirements, be 
better prepared for disasters, and be ready to administer disaster 
assistance.

                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
